No.
IN THE

Supreme Court of the United States
————

ARTHREX, INC.,
Petitioner,
v.
SMITH & NEPHEW, INC.; ARTHROCARE CORP.;
AND UNITED STATES OF AMERICA,
Respondents.
————
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
ANTHONY P. CHO
DAVID J. GASKEY
JESSICA E. FLEETHAM
DAVID L. ATALLAH
CARLSON, GASKEY
& OLDS, P.C.
400 West Maple Road,
Suite 350
Birmingham, MI 48009
(248) 988-8360

JEFFREY A. LAMKEN
Counsel of Record
ROBERT K. KRY
JAMES A. BARTA
MOLOLAMKEN LLP
The Watergate, Suite 500
600 New Hampshire Ave., N.W.
Washington, D.C. 20037
(202) 556-2000
jlamken@mololamken.com

CHARLES W. SABER
SALVATORE P. TAMBURO
BLANK ROME LLP
1825 Eye Street, N.W.
Washington, D.C. 20006
(202) 420-2200

JOHN W. SCHMIEDING
TREVOR ARNOLD
ARTHREX, INC.
1370 Creekside Blvd.
Naples, FL 34108
(239) 643-5553

Counsel for Petitioner
:,/621(3(635,17,1*&2,1&±  ±:$6+,1*721'&

QUESTIONS PRESENTED
In 2011, Congress enacted a potent new mechanism
for challenging patents through adversarial proceedings
at the Patent Office known as inter partes review. See
Leahy-Smith America Invents Act, Pub. L. No. 112-29,
§ 6(a), 125 Stat. 284, 299 (2011). Congress made that new
mechanism applicable even to patents that were applied
for and issued before the statute’s enactment. The
Patent Office relied on that new procedure to revoke
Arthrex’s patent claims, even though Arthrex applied for
its patent and disclosed its invention to the public in
reliance on the prior regime.
While Arthrex’s case was pending on appeal, the Federal Circuit decided in another case between the same
parties that the administrative patent judges who conduct inter partes reviews hold office in violation of the
Appointments Clause. See Arthrex, Inc. v. Smith &
Nephew, Inc., 941 F.3d 1320 (Fed. Cir. 2019). The Federal Circuit has repeatedly refused to apply that ruling to
cases like this one where the appellant did not challenge
the appointments in its opening brief on appeal.
The questions presented are:
1. Whether the retroactive application of inter partes
review to patents that were applied for before the America Invents Act violates the Fifth Amendment.
2. Whether a court of appeals can invoke forfeiture
principles to refuse to address a constitutional claim in a
pending appeal despite an intervening change in law.

(i)

ii
PARTIES TO THE PROCEEDINGS BELOW
Petitioner Arthrex, Inc., was the patent owner in proceedings before the Patent Trial and Appeal Board and
the appellant in the court of appeals.
Respondents Smith & Nephew, Inc., and ArthroCare
Corp. were petitioners in proceedings before the Patent
Trial and Appeal Board and appellees in the court of
appeals.
Respondent United States of America was an intervenor in the court of appeals.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to this Court’s Rule 29.6, petitioner Arthrex,
Inc., states that it has no parent corporation and that no
publicly held company owns 10% or more of its stock.

iv
RELATED PROCEEDINGS
The following proceedings are directly related to this
case within the meaning of Rule 14.1(b)(iii):
x Arthrex, Inc. v. Smith & Nephew, Inc., No. 20181584 (Fed. Cir.), judgment entered on August 21,
2019; and
x Smith & Nephew, Inc. v. Arthrex, Inc., Case
IPR2016-00918 (P.T.A.B.), final written decision
entered on October 16, 2017.

TABLE OF CONTENTS
Page
Opinions Below.............................................................
Statement of Jurisdiction ...........................................
Constitutional and Statutory
Provisions Involved ................................................
Preliminary Statement ...............................................
Statement ......................................................................
I. Statutory Background ....................................
A. The Patent Act..........................................
B. Ex Parte Reexamination .........................
C. Inter Partes Reexamination ...................
D. Inter Partes Review ................................
II. Proceedings Below ..........................................
A. Arthrex’s Patent Application ...................
B. The Infringement Litigation ...................
C. The Inter Partes Review ..........................
D. The Federal Circuit’s Decision ...............
Reasons for Granting the Petition ...........................
I. The Court Should Grant Review
To Resolve Whether Retroactive
Application of Inter Partes Review
Violates the Fifth Amendment ......................
A. The Issue Is Important ...........................
B. The Court of Appeals’ Decision
Is Wrong ....................................................
C. The Court Should Grant Review
in This Case and in Celgene and
Consolidate the Two Cases .....................
(v)

1
1
2
2
4
4
4
5
5
7
9
9
10
10
11
13

14
14
20

25

vi
TABLE OF CONTENTS—Continued
Page
II. The Court Should Address Whether
Arthrex ’907 ’s Appointments Clause
Holding Applies to All Cases Pending
on Appeal .......................................................... 27
A. Administrative Patent Judges Are
Appointed in Violation of the
Appointments Clause ................................ 28
B. Arthrex ’907 ’s Applicability to
Pending Cases Is an Important
and Recurring Issue.................................. 29
C. The Federal Circuit’s Approach
Is Wrong ..................................................... 30
D. The Court Should Either Grant the
Petition or Hold the Case Pending
Sanofi, Customedia, and Arthrex ’907 .... 32
Conclusion ..................................................................... 33
Appendix A – Opinion of the Court
of Appeals (Aug. 21, 2019) ..................................... 1a
Appendix B – Final Written Decision
of the Patent Trial and Appeal Board
(Oct. 16, 2017) .......................................................... 21a
Appendix C – Order of the Court of Appeals
Denying Rehearing and Rehearing
En Banc (Nov. 8, 2019) ........................................... 101a
Appendix D – Relevant Constitutional
and Statutory Provisions ....................................... 103a

vii
TABLE OF AUTHORITIES
Page(s)
CASES
Abbott v. United States, 562 U.S. 8 (2010)........... 27
Arthrex, Inc. v. Smith & Nephew, Inc.,
941 F.3d 1320 (Fed. Cir. 2019) ................... passim
Arthrex, Inc. v. Smith & Nephew, Inc.,
No. 18-2140, 2020 WL 1328925
(Fed. Cir. Mar. 23, 2020) ................................ 28, 29
Arthrex, Inc. v. Smith & Nephew, Inc.,
No. 15-cv-1047 (E.D. Tex. filed
June 17, 2015) ..................................................... 10
Belden Inc. v. Berk-Tek LLC,
805 F.3d 1064 (Fed. Cir. 2015) ......................... 18
Bonito Boats, Inc. v. Thunder Craft
Boats, Inc., 489 U.S. 141 (1989)............. 2, 4, 19, 21
Bos. Sci. Neuromodulation Corp.
v. Nevro Corp., No. 19-1582
(Fed. Cir. Nov. 22, 2019) ................................... 30
Celgene Corp. v. Peter, No. 19-1074
(filed Feb. 26, 2020).................................... passim
Celgene Corp. v. Peter, 931 F.3d 1342
(Fed. Cir. 2019) ......................................... 12, 15, 25
Cherokee Nation v. Leavitt,
543 U.S. 631 (2005) ............................................. 20
Ciena Corp. v. Oyster Optics, LLC,
No. 19-2117 (Fed. Cir. Jan. 28, 2020) .............. 30
Collabo Innovations, Inc. v. Sony Corp.,
No. 19-601 (filed Nov. 4, 2019).......................... 25
Collabo Innovations, Inc. v. Sony Corp.,
778 F. App’x 954 (Fed. Cir. 2019) .................... 15

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Curtis Publ’g Co. v. Butts,
388 U.S. 130 (1967) ............................................. 31
Customedia Techs., LLC v. Dish
Network Corp., 941 F.3d 1173
(Fed. Cir. 2019) ......................................... 29, 32, 33
In re DBC, 545 F.3d 1373
(Fed. Cir. 2008) ................................................... 31
Edmond v. United States,
520 U.S. 651 (1997) ............................................. 28
Eldred v. Ashcroft, 537 U.S. 186 (2003)......... 11, 23, 24
Enzo Life Scis., Inc. v. Becton,
Dickinson & Co., No. 19-1097
(filed Mar. 3, 2020) ............................................. 25
Enzo Life Scis., Inc. v. Becton,
Dickinson & Co., 780 F. App’x 903
(Fed. Cir. 2019) ................................................... 15
Festo Corp. v. Shoketsu Kinzoku Kogyo
Kabushiki Co., 535 U.S. 722 (2002) ................. 19
Fla. Prepaid Postsecondary Educ.
Expense Bd. v. Coll. Sav. Bank,
527 U.S. 627 (1999) ............................................. 20
Freytag v. Comm’r, 501 U.S. 868 (1991) .............. 32
Genentech, Inc. v. Hospira, Inc.,
946 F.3d 1333 (Fed. Cir. 2020) ......................... 15
Glidden Co. v. Zdanok, 370 U.S. 530 (1962) ........ 32
Hormel v. Helvering, 312 U.S. 552 (1941) ........... 31
J.E.M. Ag Supply, Inc. v. Pioneer
Hi-Bred Int’l, Inc., 534 U.S. 124 (2001) ........ 4, 21
Joseph v. United States,
135 S. Ct. 705 (2014) ........................................... 31

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Landgraf v. USI Film Prods.,
511 U.S. 244 (1994) .......................................... 20, 23
Lucia v. SEC, 138 S. Ct. 2044 (2018) .................... 13
Lynce v. Mathis, 519 U.S. 433 (1997) ................... 20
Lynch v. United States, 292 U.S. 571 (1934) ....... 20
Maricopa County v. Lopez-Valenzuela,
135 S. Ct. 428 (2014) ........................................... 32
Martin v. Hadix, 527 U.S. 343 (1999) .................. 23
McClurg v. Kingsland,
42 U.S. (1 How.) 202 (1843) ............................ 21, 24
Microsoft Corp. v. i4i Ltd. P’ship,
564 U.S. 91 (2011) ............................................. 4, 22
Nguyen v. United States,
539 U.S. 69 (2003) ............................................... 32
Novartis AG v. Noven Pharm. Inc.,
853 F.3d 1289 (Fed. Cir. 2017) ......................... 22
Oil States Energy Servs., LLC
v. Greene’s Energy Grp., LLC,
138 S. Ct. 1365 (2018)................................... passim
OSI Pharm., LLC v. Apotex Inc.,
939 F.3d 1375 (Fed. Cir. 2019) ......................... 15
Perry v. United States, 294 U.S. 330 (1935) ........ 20
Polaris Innovations Ltd. v. Kingston Tech.
Co., No. 18-1768 (Fed. Cir. Nov. 8, 2019) ........ 30
In re Recreative Techs. Corp.,
83 F.3d 1394 (Fed. Cir. 1996) ........................... 17
Regents of Univ. of N.M. v. Knight,
321 F.3d 1111 (Fed. Cir. 2003) ......................... 21
Return Mail, Inc. v. Postal Serv.,
139 S. Ct. 1853 (2019)...................................... 17, 22

x
TABLE OF AUTHORITIES—Continued
Page(s)
Richmond Screw Anchor Co. v.
United States, 275 U.S. 331 (1928) .................. 21
Sanofi-Aventis Deutschland GmbH v.
Mylan Pharm. Inc., 791 F. App’x 916
(Fed. Cir. 2019) ..................................... 29, 30, 32, 33
SAS Inst., Inc. v. Iancu,
138 S. Ct. 1348 (2018) ................................... 5, 7, 17
Smartflash LLC v. Samsung Elecs. Am., Inc.,
No. 18-189 (cert. denied Oct. 1, 2018) .............. 31
In re Swanson, 540 F.3d 1368
(Fed. Cir. 2008) ................................................... 5, 6
Thorpe v. Hous. Auth. of Durham,
393 U.S. 268 (1969) ............................................. 30
Trading Techs. Int’l, Inc. v. IBG LLC,
No. 18-1489, 771 F. App’x 493
(Fed. Cir. 2019) ................................................... 31
United States v. Stitt, 139 S. Ct. 399 (2018) ........ 26
Ex parte Wood, 22 U.S. (9 Wheat.)
603 (1824) ............................................................ 20
CONSTITUTIONAL PROVISIONS
U.S. Const. art. II, § 2.......................................... 12, 28
U.S. Const. art. III .............................................. 14, 28
U.S. Const. amend. V ....................................... passim
U.S. Const. amend. VII .......................................... 14
STATUTES AND REGULATIONS
Patent Act:
35 U.S.C. § 3(c)....................................................
8
35 U.S.C. § 6(a) ................................................. 7, 28
35 U.S.C. § 6(b)(4) ..............................................
7

xi
TABLE OF AUTHORITIES—Continued
Page(s)
35 U.S.C. § 6(c).................................................... 18
35 U.S.C. § 101 ....................................................
4
35 U.S.C. § 102(a) ............................................... 24
35 U.S.C. § 112 .................................................... 4, 9
35 U.S.C. § 122(b) ...............................................
4
35 U.S.C. § 154(a)(2) ................................... 4, 15, 24
35 U.S.C. § 154(b) ............................................... 16
35 U.S.C. § 154(d)(1) .......................................... 24
35 U.S.C. § 183 .................................................... 21
35 U.S.C. § 261 .................................................. 4, 21
35 U.S.C. § 271(a) ...............................................
4
35 U.S.C. § 303(a) ............................................ 5, 17
35 U.S.C. § 304 ....................................................
5
35 U.S.C. § 305 ............................................ 5, 17, 18
35 U.S.C. § 306 .................................................... 18
35 U.S.C. § 311 ....................................................
7
35 U.S.C. § 314(a) ............................................. 7, 18
35 U.S.C. § 315(b) ............................................. 7, 22
35 U.S.C. § 316(a) ............................................. 7, 22
35 U.S.C. § 316(c)................................................
7
35 U.S.C. § 316(d) ............................................... 18
35 U.S.C. § 316(d)(1) ..........................................
8
35 U.S.C. § 316(e) ............................................. 7, 22
35 U.S.C. § 318(a) ...............................................
8
35 U.S.C. § 319 .................................................. 8, 18
35 U.S.C. § 325(d) ............................................. 7, 18
Patent Act (2006):
35 U.S.C. § 312(a) (2006).................................. 6, 17
35 U.S.C. § 314(a) (2006).............................. 6, 17, 18
35 U.S.C. § 314(b) (2006) ...................................
6
35 U.S.C. § 315(a) (2006).................................... 18
35 U.S.C. § 315(b) (2006) ...................................
6

xii
TABLE OF AUTHORITIES—Continued
Page(s)
Pub. L. No. 96-517, 94 Stat. 3015 (1980) .............. 2, 5
§ 8(b), 94 Stat. at 3027 ........................................
5
Uruguay Round Agreements Act,
Pub. L. No. 103-465, § 532,
108 Stat. 4809, 4984 (1994) ................................ 16
Patent Term Guarantee Act of 1999,
Pub. L. No. 106-113, § 4402,
113 Stat. 1501A-557............................................ 16
Optional Inter Partes Reexamination
Procedure Act of 1999, Pub. L.
No. 106-113, §§ 4601 et seq.,
113 Stat. 1501A-567............................................ 2, 5
§ 4608(a), 113 Stat. at 1501A-572 ............... 6, 24
Leahy-Smith America Invents Act,
Pub. L. No. 112-29, 125 Stat. 284 (2011) ..... passim
§ 3(n)(1), 125 Stat. at 293 .............................. 24
§ 6(c)(2)(A), 125 Stat. at 304 .........................
8
§ 6(f )(2)(A), 125 Stat. at 311 ......................... 24
5 U.S.C. § 7513(a) .................................................. 8, 28
28 U.S.C. § 1254(1) ..................................................
2
37 C.F.R. § 1.116 ...................................................... 18
37 C.F.R. § 1.510(a) .................................................
5
37 C.F.R. § 1.550(b) ................................................. 18
37 C.F.R. § 1.550(g) .................................................
5
37 C.F.R. § 1.937(b) ................................................. 18
37 C.F.R. § 42.121(a) ............................................. 8, 18
LEGISLATIVE MATERIALS
H.R. Conf. Rep. No. 106-464 (1999) .....................
H.R. Rep. No. 112-98, pt. 1 (2011) ........................

16
7

xiii
TABLE OF AUTHORITIES—Continued
Page(s)
OTHER AUTHORITIES
Congressional Research Service, U.S.
Research and Development Funding and
Performance: Fact Sheet (Jan. 24, 2020),
https://fas.org/sgp/crs/misc/R44307.pdf ............ 19
Gregory Dolin & Irina Manta,
Taking Patents, 73 Wash. & Lee
L. Rev. 719 (2016)....................................... 6, 19, 23
Josh Makower, et al., FDA Impact on U.S.
Medical Technology Innovation (2010),
https://www.advamed.org/sites/default/
files/resource/30_10_11_10_2010_Study_
CAgenda_makowerreportfinal.pdf................... 19
Manual of Patent Examining
Procedure § 2636(I) ............................................ 18
Stephen Shapiro, et al., Supreme Court
Practice (10th ed. 2013) ..................................... 14
U.S. Patent & Trademark Office,
Ex Parte Reexamination Filing Data
(Sept. 30, 2018), https://www.uspto.gov/
sites/default/files/documents/ex_
parte_historical_stats_ roll_up.pdf .............. 6, 18, 23
U.S. Patent & Trademark Office, Inter
Partes Reexamination Filing Data
(Sept. 30, 2017), https://www.uspto.gov/
sites/default/files/documents/inter_
parte_historical_stats_roll_up.pdf ............ 6, 18, 23
U.S. Patent & Trademark Office,
Motion To Amend Study (Mar. 2019),
https://www.uspto.gov/patents-applica
tion-process/patent-trial-and-appealboard/motions-amend-study........................... 8, 18

xiv
TABLE OF AUTHORITIES—Continued
Page(s)
U.S. Patent & Trademark Office,
Performance and Accountability
Report: Fiscal Year 2012, https://www.
uspto.gov/sites/default/files/about/strat
plan/ar/USPTOFY2012PAR.pdf ..................... 16
U.S. Patent & Trademark Office,
Trial Statistics: IPR, PGR, CMB
(Feb. 2020), https://www.uspto.gov/
sites/ default/files/documents/Trial_
Statistics_2020_02_29.pdf .................... 8, 15, 18, 23
Saurabh Vishnubhakat, The Mixed
Case for a PTAB Off-Ramp,
18 Chi.-Kent J. Intell. Prop. 514 (2019) ............. 15

IN THE

Supreme Court of the United States
————

ARTHREX, INC.,
Petitioner,
v.
SMITH & NEPHEW, INC.; ARTHROCARE CORP.;
AND UNITED STATES OF AMERICA,
Respondents.
————
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
Arthrex, Inc., respectfully petitions for a writ of certiorari to review the judgment of the United States Court
of Appeals for the Federal Circuit in this case.
OPINIONS BELOW
The court of appeals’ opinion (App., infra, 1a-20a) is
reported at 935 F.3d 1319. The Patent Trial and Appeal
Board’s final written decision (App., infra, 21a-100a) is
unreported.
STATEMENT OF JURISDICTION
The court of appeals entered its decision on August
21, 2019. App., infra, 1a. The court denied rehearing and
rehearing en banc on November 8, 2019. Id. at 101a.
On January 24, 2020, the Chief Justice extended the time

2
to file a petition for a writ of certiorari to April 6, 2020.
No. 19A817. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Relevant provisions of the U.S. Constitution; Title 35
and Title 5 of the U.S. Code; Pub. L. No. 96-517, 94 Stat.
3015 (1980); the Optional Inter Partes Reexamination
Procedure Act of 1999, Pub. L. No. 106-113, §§ 4601 et
seq., 113 Stat. 1501A-567; and the Leahy-Smith America
Invents Act, Pub. L. No. 112-29, 125 Stat. 284 (2011); are
set forth in the appendix. App., infra, 103a-141a.
PRELIMINARY STATEMENT
The Patent Act strikes a “carefully crafted bargain” to
encourage the development and disclosure of new technologies. Bonito Boats, Inc. v. Thunder Craft Boats,
Inc., 489 U.S. 141, 150-151 (1989). The Act offers inventors “the exclusive right to practice the invention for a
period of years.” Id. at 151. In return, the inventor must
“disclos[e]” how to make and use his invention, so others
are “enabled without restriction to practice it and profit
by its use” once that period expires. Ibid.
In 2006, Arthrex fulfilled its side of that bargain when
it sought a patent for a new suture anchor that allows
surgeons to reattach soft tissue to bones more securely.
Arthrex’s application described how to make and use its
new suture anchor in detail. By disclosing its invention
to the public, Arthrex surrendered its right to keep the
invention secret in exchange for the protections the
Patent Act promised at the time.
Years later, in 2011, Congress altered the terms of
that bargain in the Leahy-Smith America Invents Act
(“AIA”). That statute created a new mechanism for more

3
easily invalidating patents known as “inter partes review.”
Congress authorized the use of that mechanism even
where the inventor applied for the patent and disclosed
the invention years earlier, before the statute was enacted. The Patent Office invoked that procedure to
revoke Arthrex’s patent claims, even though a jury had
already found them valid in litigation.
This petition challenges the constitutionality of applying inter partes review retroactively to earlier patents—
an issue this Court left open in Oil States Energy Services, LLC v. Greene’s Energy Group, LLC, 138 S. Ct.
1365, 1379 (2018). This Court is already considering a
petition raising a similar challenge in Celgene Corp. v.
Peter, No. 19-1074 (filed Feb. 26, 2020). In Celgene,
however, the petitioner both applied for and received the
patent before the AIA’s enactment. Celgene thus does
not present the important category of cases like this one
where the applicant disclosed its invention in reliance on
the pre-AIA regime but received the patent afterward.
The Court should grant review in both Celgene and this
case, and hear the two together, so it can resolve the
question in both contexts.
This petition also presents a constitutional challenge
to the appointment of the administrative patent judges
(“APJs”) who adjudicate inter partes reviews. In another
case between the same parties, the Federal Circuit held
that APJs are improperly appointed. See Arthrex, Inc. v.
Smith & Nephew, Inc., 941 F.3d 1320 (Fed. Cir. 2019),
reh’g denied (Mar. 23, 2020). But the court declined to
apply that ruling in this case, where Arthrex had not
raised the issue in its opening brief. Whether a court
may refuse to address constitutional claims on forfeiture
grounds despite an intervening change in law is another
important and recurring issue. The Court should grant

4
review of that question as well—or at least hold the petition for others presenting the same issue.
STATEMENT
I. STATUTORY BACKGROUND
A. The Patent Act
Under the Patent Act, the inventor of a “new and useful process, machine, manufacture, or composition of
matter” is entitled to obtain an exclusive right to practice
the invention for a limited time. 35 U.S.C. §§ 101,
154(a)(2). To obtain that right, the inventor must disclose
his invention to the public by submitting a “written
description of the invention, and of the manner and
process of making and using it, in such full, clear, concise,
and exact terms as to enable any person skilled in the art
* * * to make and use the same.” Id. § 112; see id.
§ 122(b). That disclosure is the “quid pro quo of the right
to exclude.” J.E.M. Ag Supply, Inc. v. Pioneer Hi-Bred
Int’l, Inc., 534 U.S. 124, 142 (2001). The statute reflects
“a carefully crafted bargain for encouraging the creation
and disclosure of new, useful, and nonobvious advances in
technology and design in return for the exclusive right to
practice the invention.” Bonito Boats, Inc. v. Thunder
Craft Boats, Inc., 489 U.S. 141, 150-151 (1989).
A patent confers a property right on the owner.
35 U.S.C. § 261. Anyone who “makes, uses, offers to sell,
or sells any patented invention” without permission is an
infringer liable for damages. Id. § 271(a). An accused
infringer may defend itself by challenging the patent’s
validity in court, but it must prove invalidity by clear and
convincing evidence. See Microsoft Corp. v. i4i Ltd.
P’ship, 564 U.S. 91, 95 (2011).

5
B. Ex Parte Reexamination
For most of this Nation’s history, the government had
no power to revoke a patent without the owner’s consent—only a court could eliminate that property right.
In 1980, however, Congress provided for ex parte reexamination of previously issued patents. See Pub. L. No.
96-517, 94 Stat. 3015, 3015 (1980) (codified as amended at
35 U.S.C. §§ 301 et seq.). That procedure permits the
Director of the Patent Office to reconsider a previously
issued patent, on his own initiative or at the request of a
third party, based on prior art that raises a “substantial
new question of patentability.” 35 U.S.C. §§ 303(a), 304.
Once instituted, ex parte reexaminations follow inquisitorial procedures similar to those for initial examination
of patent applications. 35 U.S.C. § 305. A patent examiner reviews the patent without further input from third
parties. See 37 C.F.R. §§ 1.510(a), 1.550(g). The patent
holder has a statutory right “to propose any amendment”
to the challenged claims, so long as it does not enlarge
their scope. 35 U.S.C. § 305. Patentability determinations
are made under a preponderance-of-the-evidence standard. In re Swanson, 540 F.3d 1368, 1377 (Fed. Cir. 2008).
The statute applied to patents then in force or issued
thereafter. Pub. L. No. 96-517, § 8(b), 94 Stat. at 3027.
C. Inter Partes Reexamination
In 1999, Congress supplemented that regime with inter partes reexamination. See Optional Inter Partes
Reexamination Procedure Act of 1999, Pub. L. No. 106113, §§ 4601 et seq., 113 Stat. 1501A-567 (formerly codified at 35 U.S.C. §§ 311 et seq.). Inter partes reexamination was another inquisitorial process with “slightly
more” third-party participation. SAS Inst., Inc. v. Iancu,
138 S. Ct. 1348, 1353 (2018).

6
As with ex parte reexaminations, the Director could
institute an inter partes reexamination based on prior art
raising a “substantial new question of patentability.” 35
U.S.C. § 312(a) (2006). Once again, the reexamination
generally followed the “procedures established for initial
examination.” Id. § 314(a). Patent examiners determined
whether claims were patentable under a preponderanceof-the-evidence standard. See Swanson, 540 F.3d at
1377. Patent owners could still “propose any amendment” that did not expand the scope of the claims. 35
U.S.C. § 314(a) (2006). The third party could “participate
in a limited manner” by filing responses and appealing an
examiner’s decision. Oil States Energy Servs., LLC v.
Greene’s Energy Grp., LLC, 138 S. Ct. 1365, 1371 (2018);
see 35 U.S.C. §§ 314(b), 315(b) (2006).
Congress expressly declined to apply inter partes reexamination retroactively. The statute applies only to
“patent[s] that issue[ ] from an original application filed
in the United States on or after th[e] date” of enactment.
Pub. L. No. 106-113, § 4608(a), 113 Stat. at 1501A-572.
The Patent Office has reconsidered a number of patents under the two reexamination regimes, but invalidated
only a small fraction. In 88% of ex parte reexaminations,
patents survived with at least some claims. See U.S.
Patent & Trademark Office, Ex Parte Reexamination
Filing Data (Sept. 30, 2018), https://www.uspto.gov/
sites/default/files/documents/ex_parte_historical_stats_
roll_up.pdf. In inter partes reexaminations, the survival
rate was 66%. See U.S. Patent & Trademark Office, Inter
Partes Reexamination Filing Data (Sept. 30, 2017),
https://www.uspto.gov/sites/default/files/documents/inter
_parte_historical_stats_roll_up.pdf. Most patents required
only amendments. See Gregory Dolin & Irina Manta, Taking Patents, 73 Wash. & Lee L. Rev. 719, 758-759 (2016).

7
D. Inter Partes Review
In 2011, Congress dramatically altered that landscape
by enacting the Leahy-Smith America Invents Act
(“AIA”), Pub. L. No. 112-29, 125 Stat. 284 (2011). Congress felt that patents were “too difficult to challenge.”
H.R. Rep. No. 112-98, pt. 1, at 39 (2011). It therefore replaced inter partes reexamination with new procedures,
including “inter partes review.” 35 U.S.C. §§ 311 et seq.
Any third party may seek inter partes review by filing
a petition with the Patent Office. 35 U.S.C. § 311. The
Director determines whether there is a “reasonable likelihood that the petitioner would prevail with respect to at
least 1 of the claims challenged.” Id. § 314(a). Consequently, unlike in reexaminations, the Director need not
find a “new” question of patentability. Id. § 325(d). The
statute permits inter partes review even where the petitioner is a defendant in ongoing infringement litigation,
so long as it files the petition within the first year of litigation. Id. § 315(b).
Once instituted, inter partes review follows a procedure markedly different from reexamination. The statute provides for discovery, adversarial briefing, and contested hearings, with the challenger participating at
every stage. 35 U.S.C. § 316(a). Cases proceed, not
before patent examiners, but before a specialized adjudicative body: a Patent Trial and Appeal Board composed
largely of administrative patent judges appointed by the
Secretary of Commerce. Id. § 316(c); id. § 6(a), (b)(4).
Inter partes review is thus a “party-directed, adversarial”
process that “mimics civil litigation,” rather than the
“agency-led, inquisitorial” process for reexaminations.
SAS Inst., 138 S. Ct. at 1352, 1355. Even so, a petitioner
need only establish unpatentability by a “preponderance
of the evidence.” 35 U.S.C. § 316(e).

8
While patent owners had broad rights to amend their
claims in reexamination, inter partes review sharply curtails those rights. Patent owners must request permission to amend. 35 U.S.C. § 316(d)(1). They normally may
do so only once, id., and only early in the proceedings, 37
C.F.R. § 42.121(a). The Patent Office has almost always
denied leave to amend—nearly 90% of the time. U.S. Patent & Trademark Office, Motion To Amend Study 7 (Mar.
2019), https://www.uspto.gov/patents-application-process/
patent-trial-and-appeal-board/motions-amend-study.
At the end of an inter partes review, the Board issues
a final written decision. 35 U.S.C. § 318(a). The parties
can appeal directly to the Federal Circuit. Id. § 319. No
statute permits the Director to review Board decisions.
And according to the statute, Board members may be removed “only for such cause as will promote the efficiency
of the service.” 5 U.S.C. § 7513(a); see 35 U.S.C. § 3(c).
While Congress declined to apply inter partes reexamination retroactively, it took the opposite approach for
inter partes review. The new procedure applies “to any
patent issued before, on, or after th[e] effective date” of
the AIA. Pub. L. No. 112-29, § 6(c)(2)(A), 125 Stat. at 304.
That new regime has had a major impact. As of February 2020, more than 10,400 petitions for inter partes
review had been filed—more than 1,300 per year on average since inter partes reviews began in September 2012.
See U.S. Patent & Trademark Office, Trial Statistics: IPR,
PGR, CMB 3 (Feb. 2020), https://www.uspto.gov/sites/
default/files/documents/Trial_Statistics_2020_02_29.pdf.
Those petitions have resulted in invalidation of all challenged claims in 62% of final written decisions, and invalidation of at least some claims in 80% of final written
decisions. Id. at 10.

9
II. PROCEEDINGS BELOW
A. Arthrex’s Patent Application
Arthrex is a pioneer in the field of arthroscopy and a
leading developer of medical devices and procedures for
orthopedic surgery. More than 14 years ago, it developed a new suture anchor that surgeons can use to reattach torn soft tissue to bone. C.A. App. 802. The new
design overcame problems of detachment and abrasion of
sutures with existing anchors. Ibid. Arthrex filed several patent applications relating to different features of
its invention. See ibid.
In September 2006, Arthrex applied for what later
became U.S. Patent No. 8,821,541 (the “ ’541 patent”).
C.A. App. 790. The application contained the required
specification describing Arthrex’s invention “in such full,
clear, concise, and exact terms as to enable any person
skilled in the art * * * to make and use the same.” 35
U.S.C. § 112. It explained how to make a suture anchor
with a rigid support that was “molded into” the anchor
structure—a feature designed to prevent suture failure.
U.S. Patent Pub. No. 2007/0073299, ¶ 0014 (published
Mar. 29, 2007). It included detailed illustrations:

Id. figs. 5 & 7. The Patent Office made Arthrex’s application public in March 2007. C.A. App. 790.

10
Arthrex’s application remained pending for years.
Eventually, in September 2014, the Patent Office issued
the ’541 patent. C.A. App. 790. Claims 10 and 11 cover
two versions of the suture anchor that Arthrex had disclosed in its application—one with a helical thread, one
without. Id. at 805; App., infra, 3a-5a.
B. The Infringement Litigation
In June 2015, Arthrex sued Smith & Nephew, Inc.,
and subsidiary ArthroCare Corp., in the U.S. District
Court for the Eastern District of Texas for infringing
claims 10 and 11 of the ’541 patent, among others. See
Arthrex, Inc. v. Smith & Nephew, Inc., No. 15-cv-1047
(E.D. Tex. filed June 17, 2015); C.A. App. 4587. The case
proceeded to trial.
The jury found that Smith & Nephew and ArthroCare
willfully infringed, rejecting their defense that the claims
were invalid as anticipated or obvious. C.A. App. 45204521. The jury awarded over $12 million in damages. Id.
at 4521. Shortly thereafter, the case settled. Id. at 4524.
C. The Inter Partes Review
While the district court action was pending, Smith &
Nephew and ArthroCare sought inter partes review of
claims 10 and 11 of the ’541 patent. App., infra, 22a.
They argued, just as they had before the jury, that the
claims were anticipated or obvious. Ibid. Several of the
prior art references they invoked were the same ones the
jury had rejected. Compare ibid. with E.D. Tex. Dkt.
339, at 1599.
In November 2017, after the district court litigation
concluded, the Patent Trial and Appeal Board issued
a final written decision finding the challenged claims
unpatentable. App., infra, 21a, 23a. Both claims, the

11
Board held, were anticipated or obvious in light of prior
art. See id. at 88a, 94a, 98a.
D. The Federal Circuit’s Decision
The court of appeals affirmed.
1. The court first rejected Arthrex’s challenges to
the Board’s finding of unpatentability. App., infra, 9a18a. It held that the Board had not committed procedural error, even though the Board relied on a rationale
that Smith & Nephew had not advanced to find that
skilled artisans would have been motivated to combine
prior art references. Id. at 9a-13a. The court also held
that substantial evidence supported the Board’s decision,
while acknowledging that “some evidence arguably cuts
against the Board’s conclusion.” Id. at 14a-15a.
2. The court also rejected Arthrex’s constitutional
challenge. App., infra, 18a-20a. It acknowledged that
“the Supreme Court has not addressed the constitutionality of IPR as applied to patents issued prior to the
America Invents Act.” Id. at 18a (citing Oil States). But
the court saw no constitutional problem here because “the
’541 patent issued on September 2, 2014, almost three
years after passage of the AIA and almost two years
after the first IPR proceedings began.” Id. at 18a-19a.
In the court’s view, the fact that “Arthrex filed its
patent applications prior to passage of the AIA is immaterial.” App., infra, 19a (emphasis added). “[T]he
legal regime governing a particular patent,” it asserted,
“ ‘depend[s] on the law as it stood at the emanation of the
patent, together with such changes as have since been
made.’ ” Ibid. (quoting Eldred v. Ashcroft, 537 U.S. 186,
203 (2003)). The court therefore held that “application of
IPR to Arthrex’s patent cannot be characterized as retroactive.” Ibid.

12
Apart from that timing issue, the court observed that
it had “recently rejected arguments similar to Arthrex’s”
in Celgene Corp. v. Peter, 931 F.3d 1342 (Fed. Cir. 2019),
pet. for cert. filed, No. 19-1074 (Feb. 26, 2020). App.,
infra, 19a. Celgene held that Congress could apply inter
partes review even to patents issued before the AIA
because, even under the pre-AIA regime, patents were
“subject to both district court and Patent Office validity
proceedings.” Ibid. Although those prior proceedings
“differ[ed]” from inter partes review, Celgene ruled that
“the differences between IPRs and the district court and
Patent Office proceedings that existed prior to the AIA
are not so significant as to ‘create a constitutional issue.’ ”
Ibid. (quoting Celgene, 931 F.3d at 1362). Accordingly,
“even if Arthrex’s patent pre-dated the AIA, application
of IPR to the ’541 patent would not create a constitutional challenge.” Id. at 20a.
3. Arthrex sought rehearing and rehearing en banc.
C.A. Dkt. 70. While its petition was pending, the Federal
Circuit held—in another case between the same parties—that the administrative patent judges (“APJs”) who
oversee inter partes reviews hold office in violation of the
Appointments Clause. Arthrex, Inc. v. Smith & Nephew,
Inc., 941 F.3d 1320, 1335 (Fed. Cir. 2019) (“Arthrex
’907 ”) (citing U.S. Const. art. II, § 2), reh’g denied (Mar.
23, 2020). APJs are appointed by the Secretary of Commerce, an arrangement appropriate only for inferior
officers. Id. at 1327. The court held that APJs are principal rather than inferior officers due to “[t]he lack of any
presidentially-appointed officer who can review, vacate,
or correct [their] decisions” and the Secretary’s “limited
removal power.” Id. at 1335. As a remedy, the court
severed the removal restrictions and remanded the case

13
for a new hearing before a different panel of APJs. Id. at
1335-1340 (citing Lucia v. SEC, 138 S. Ct. 2044 (2018)).
Arthrex promptly filed a supplemental authority letter
in this case urging that Arthrex ’907 required a new
hearing here too. C.A. Dkt. 72. A week later, the court
denied rehearing. App., infra, 101a.
REASONS FOR GRANTING THE PETITION
This petition presents an important constitutional
question this Court expressly left open in Oil States
Energy Services, LLC v. Greene’s Energy Group, LLC,
138 S. Ct. 1365 (2018): whether Congress can apply inter
partes review retroactively to patents that predate the
statute’s enactment.
Hundreds of inter partes reviews are filed each year,
and more than 60% challenge patents issued before the
America Invents Act. Around 15% more challenge patents like Arthrex’s for which the application was filed
before the statute’s enactment but granted afterward.
Innovators like Arthrex disclosed their inventions to the
public in reliance on the patent regime that prevailed at
the time. Revoking patents through a new and far more
lethal mechanism is a classic bait and switch that violates
basic Fifth Amendment norms against retroactivity.
This Court already has before it another petition raising similar issues in Celgene Corp. v. Peter, No. 19-1074
(filed Feb. 26, 2020). But Celgene presents only a partial
picture. The inventor in Celgene both applied for and
received the patent before the AIA’s enactment. A decision in Celgene therefore would not necessarily resolve
the retroactivity question for the significant category of
cases such as Arthrex’s, in which the inventor applied for
a patent and disclosed his invention in reliance on the
pre-AIA regime, but received the patent only afterward.

14
This Court should grant review in both Celgene and this
case, and consolidate the two for argument, so it can
definitively resolve both factual permutations.
This petition also presents important questions about
the constitutionality of APJ appointments—and whether
a court can ignore such claims on forfeiture grounds
despite an intervening change of law. The Court should
grant review to address those questions, or at least hold
the case pending other related petitions.
I. THE COURT SHOULD GRANT REVIEW TO RESOLVE
WHETHER RETROACTIVE APPLICATION OF INTER
PARTES REVIEW VIOLATES THE FIFTH AMENDMENT
In Oil States, this Court held that inter partes review
does not violate Article III or the Seventh Amendment.
138 S. Ct. at 1379. But the Court “emphasize[d] the
narrowness of [its] holding.” Ibid. The petitioner in that
case did not argue that the AIA’s new inter partes review
scheme could not constitutionally be applied to patents
applied for or granted before the statute was enacted.
The Court thus “address[ed] only the precise constitutional challenges that [the petitioner] raised,” which did
not include a “challenge [to] the retroactive application of
inter partes review.” Ibid. This case now presents that
important and unresolved question.
A. The Issue Is Important
Because the Federal Circuit generally has exclusive
jurisdiction over patent appeals, circuit conflicts almost
never arise, and this Court evaluates petitions “largely on
the importance of the questions presented.” Stephen
Shapiro, et al., Supreme Court Practice § 4.21, at 289
(10th ed. 2013). The issue here is more than important
enough to warrant this Court’s review.

15
1. Whether Congress may apply inter partes review
retroactively is an important and recurring issue. As the
Federal Circuit recently observed, there is “a growing
number of retroactivity challenges following * * * Oil
States.” Celgene, 931 F.3d at 1356. This case is one of
several in recent months alone. See Genentech, Inc. v.
Hospira, Inc., 946 F.3d 1333, 1343 (Fed. Cir. 2020); OSI
Pharm., LLC v. Apotex Inc., 939 F.3d 1375, 1386 (Fed.
Cir. 2019); Enzo Life Scis., Inc. v. Becton, Dickinson &
Co., 780 F. App’x 903, 911 (Fed. Cir. 2019), pet. for cert.
filed, No. 19-1097 (Mar. 3, 2020); Collabo Innovations,
Inc. v. Sony Corp., 778 F. App’x 954, 960-961 (Fed. Cir.
2019), pet. for cert. filed, No. 19-601 (Nov. 4, 2019);
Celgene, 931 F.3d at 1355-1363.
The retroactivity issue will affect thousands of cases
for years to come. More than 10,400 petitions for inter
partes review have been filed since the proceedings
began in September 2012. See Trial Statistics, supra, at
3. Nearly 550 were filed in the last fiscal year alone. Id.
at 5. Even as late as 2018, more than 60% of those
petitions challenged patents issued before the AIA’s
effective date. See Saurabh Vishnubhakat, The Mixed
Case for a PTAB Off-Ramp, 18 Chi.-Kent J. Intell. Prop.
514, 520, 534 fig. 2 (2019). Ten percent involved “patents
so old that they would not have been eligible even for
inter partes reexamination.” Id. at 520.
Those statistics are no surprise. Patents have a term
of at least 20 years from the date of application. 35
U.S.C. § 154(a)(2). As a result, although inter partes
review has been available for nearly eight years, a large
portion of the challenged patents predate the statute.
That will not change any time soon.
Cases like Arthrex’s—where an inventor applied for a
patent before the AIA but received it after—are also

16
very common. When Congress enacted the AIA, the
average application was pending for more than 32
months. See U.S. Patent & Trademark Office, Performance and Accountability Report: Fiscal Year 2012, at
14, https://www.uspto.gov/sites/default/files/about/strat
plan/ar/USPTOFY2012PAR.pdf. Many were pending
much longer. It took eight years for the Patent Office
to grant Arthrex’s application. See pp. 9-10, supra.
Although the Patent Office does not publish statistics on
the number of inter partes reviews where the patent was
applied for before, but granted after, the statute’s enactment, a rough estimate indicates that nearly one in seven
cases falls into that category.1
Congress recognizes the important policy implications
of the often lengthy periods between the filing of an
application and the patent’s issuance. In 1994, Congress
provided for patent term extensions of up to five years
based on such delays. See Uruguay Round Agreements
Act, Pub. L. No. 103-465, § 532, 108 Stat. 4809, 4984
(1994) (codified as amended at 35 U.S.C. § 154(b)). In
1999, it eliminated the five-year cap on extensions. See
Patent Term Guarantee Act of 1999, Pub. L. No. 106-113,
§ 4402, 113 Stat. 1501A-557. Even a longer ten-year cap,
Congress explained, would be “too short in some cases.”
H.R. Conf. Rep. No. 106-464, at 125 (1999). Congress
understands that issuance delays are often lengthy and
deems them important enough to drive federal policy.

1

If patent application dates were distributed evenly over the twenty
years before an inter partes review and all applications were pending
for the average time, the portion with application and issuance dates
straddling the AIA’s enactment would be a 32-month subset of the
total. Thirty-two months divided by twenty years is 13.3%.

17
Those same delays underscore the importance of the
issue here. Whether inter partes review can constitutionally be applied to patents like Arthrex’s that were
applied for before, but granted after, the statute’s enactment is an important issue with ramifications for many
patents. That broad impact highlights the need for this
Court’s review.
2. Applying inter partes review retroactively has an
enormous impact on prior patent rights. That impact
was not part of the bargain when innovators like Arthrex
applied for their patents.
Before the AIA, third parties had only limited means
to challenge a patent at the Patent Office. Ex parte reexaminations gave third parties almost no role at all, and
even inter partes reexaminations permitted only “slightly
more” third-party involvement. SAS Inst., Inc. v. Iancu,
138 S. Ct. 1348, 1353 (2018); see Oil States, 138 S. Ct. at
1371 (third parties could “participate in a limited manner”).
Reexamination was an “agency-led, inquisitorial” process
modeled on initial examination. SAS Inst., 138 S. Ct. at
1355; see 35 U.S.C. § 305; 35 U.S.C. § 314(a) (2006).
Inter partes review is “fundamentally different.” Return Mail, Inc. v. Postal Serv., 139 S. Ct. 1853, 1865-1866
(2019). It is a “party-directed, adversarial” process that
“mimics civil litigation.” SAS Inst., 138 S. Ct. at 1352,
1355. It provides a new forum for an infringer to wage
contentious and expensive litigation challenging a patent’s validity.
Inter partes review is far more potent than its predecessors. In reexamination, the petitioner had to show a
“substantial new question of patentability.” 35 U.S.C.
§ 303(a) (emphasis added); 35 U.S.C. § 312(a) (2006); see
In re Recreative Techs. Corp., 83 F.3d 1394, 1396 (Fed.

18
Cir. 1996). In inter partes review, the Director can institute proceedings on grounds already rejected during the
initial application. 35 U.S.C. §§ 314(a), 325(d). Reexaminations were conducted by examiners who specialized in
the patent’s subject matter, see Manual of Patent Examining Procedure § 2636(I); inter partes reviews are heard
by panels of administrative judges who may be assigned
at the Director’s discretion, 35 U.S.C. § 6(c). In reexamination, the patent owner could appeal within the Patent
Office, 35 U.S.C. § 306; 35 U.S.C. § 315(a) (2006); in inter
partes review, the patent owner can appeal only to a
court that applies a deferential standard of review, 35
U.S.C. § 319; Belden Inc. v. Berk-Tek LLC, 805 F.3d
1064, 1073 (Fed. Cir. 2015).
In reexamination, moreover, patent owners could
amend their claims to remedy any defects, even after an
adverse ruling. 35 U.S.C. § 305; 35 U.S.C. § 314(a) (2006);
37 C.F.R. § 1.550(b); 37 C.F.R. § 1.937(b) (incorporating
37 C.F.R. § 1.116). Patent owners routinely exercised
that right, amending claims to avoid invalidation in 67%
of ex parte reexaminations and 60% of inter partes reexaminations. See Ex Parte Reexamination Filing
Data, supra; Inter Partes Reexamination Filing Data,
supra. Inter partes review sharply curtails that right, 35
U.S.C. § 316(d); 37 C.F.R. § 42.121(a), and the Patent
Office has denied the vast majority of motions to amend
to date, Motion To Amend Study, supra, at 7.
The results speak for themselves. Patents survived
88% of ex parte reexaminations and 66% of inter partes
reexaminations. See Ex Parte Reexamination Filing
Data, supra; Inter Partes Reexamination Filing Data,
supra. In inter partes review, that rate dropped to 38%.
Trial Statistics, supra, at 10. Inter partes review is thus
roughly twice as lethal as the old regime. Applying that

19
new regime retroactively to a large category of patents
dramatically increases the risk of invalidation and thus
substantially reduces the value of the patents.
3. The question presented also has broader implications. Inventors who make new discoveries face a choice:
They can “keep [the] invention secret and reap its fruits
indefinitely.” Bonito Boats, Inc. v. Thunder Craft Boats,
Inc., 489 U.S. 141, 151 (1989). Or they can disclose it to
the public in a patent application, enabling others to
“practice [the invention] and profit by its use” once the
patent expires. Ibid. Inventors inevitably consider how
much security a patent provides in making that choice—
they “rely on the promise of the law” in deciding whether
“to bring the[ir] invention[s] forth.” Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. 722, 731
(2002). A legal system where Congress can change the
rules after an inventor has already made that choice casts
a pall over others facing the same decision.
Companies invest hundreds of billions of dollars each
year creating new technologies. See Congressional Research Service, U.S. Research and Development Funding and Performance: Fact Sheet 3 (Jan. 24, 2020),
https://fas.org/sgp/crs/misc/R44307.pdf.
Innovation is
particularly costly in medical fields: Device makers like
Arthrex typically spend $31 to $94 million to bring a
single product to market. See Josh Makower, et al., FDA
Impact on U.S. Medical Technology Innovation 7 (2010),
https://www.advamed.org/sites/default/files/resource/30_
10_11_10_2010_Study_CAgenda_makowerreportfinal.pdf.
By one estimate, the mere
review has erased two-thirds
patents. See Dolin & Manta,
gress’s retroactive application

existence of inter partes
of the value of pre-AIA
supra, at 791-792. Conof that new regime dra-

20
matically undermines inventors’ incentives to innovate
and disclose new inventions to the public.
B. The Court of Appeals’ Decision Is Wrong
Retroactive application of inter partes review violates
longstanding constitutional principles.
1. “[T]he presumption against retroactive legislation
is deeply rooted in our jurisprudence, and embodies a
legal doctrine centuries older than our Republic.” Landgraf v. USI Film Prods., 511 U.S. 244, 265 (1994). “Elementary considerations of fairness” dictate that “settled
expectations should not be lightly disrupted.” Ibid.
Those principles “find[ ] expression in several provisions
of our Constitution”—the Fifth Amendment in particular
“protects the interests in fair notice and repose that may
be compromised by retroactive legislation.” Id. at 266.
Retroactive legislation raises special concerns for “contractual or property rights, matters in which predictability and stability are of prime importance.” Landgraf,
511 U.S. at 271. “[T]he Constitution places limits on the
sovereign’s ability to use its lawmaking power to modify
bargains it has made with its subjects.” Lynce v. Mathis,
519 U.S. 433, 440 (1997); see also Cherokee Nation v.
Leavitt, 543 U.S. 631, 646 (2005) (“A statute that retroactively repudiates the Government’s contractual obligation
may violate the Constitution.”); Perry v. United States,
294 U.S. 330, 353-354 (1935) (bond obligations); Lynch v.
United States, 292 U.S. 571, 579 (1934) (contracts).
Patents raise precisely those concerns. Patents “have
long been considered a species of property.” Fla. Prepaid Postsecondary Educ. Expense Bd. v. Coll. Sav.
Bank, 527 U.S. 627, 642 (1999); e.g., Ex parte Wood, 22
U.S. (9 Wheat.) 603, 608 (1824) (Story, J.). The Patent
Act expressly provides that patents are “personal prop-

21
erty.” 35 U.S.C. § 261. This Court’s cases thus sharply
limit Congress’s authority to diminish patent rights
retroactively. See, e.g., McClurg v. Kingsland, 42 U.S.
(1 How.) 202, 206 (1843) (statute may “not take away the
rights of property in existing patents” and “can have no
effect to impair the right of property then existing in a
patentee”); Richmond Screw Anchor Co. v. United
States, 275 U.S. 331, 345 (1928) (retroactive application of
statute restricting patent assignments “would seem to
raise a serious question as to the constitutionality of [the
statute] under the Fifth Amendment”).
Even before a patent issues, the promises the Government makes to induce an inventor to disclose his
invention raise similarly compelling concerns. Patents
are a “carefully crafted bargain” in which the inventor
irrevocably discloses his invention to the public in exchange for the promise of certain protections. Bonito
Boats, 489 U.S. at 150-151. Disclosure is the “quid pro
quo of the right to exclude.” J.E.M. Ag Supply, Inc. v.
Pioneer Hi-Bred Int’l, Inc., 534 U.S. 124, 142 (2001).
Altering that bargain after the fact implicates property
rights, just like diminishing rights in an already issued
patent. See, e.g., Regents of Univ. of N.M. v. Knight,
321 F.3d 1111, 1121 (Fed. Cir. 2003) (recognizing “legal
ownership rights in patent applications”); 35 U.S.C. § 183
(requiring “just compensation” for patents withheld from
applicants due to secrecy orders).
2. The AIA purports to do exactly that. Inter partes
review dramatically expands the opportunities for attacking a patent and thus diminishes the value of the rights
conferred. Sharply reducing the value of a patent after
an applicant has already made the irrevocable decision to
disclose the invention is exactly the sort of bait and
switch this Court’s precedents forbid.

22
Previously, an accused infringer seeking to challenge
a patent through adversarial proceedings had to litigate
in court and prove invalidity by clear and convincing evidence. See Microsoft Corp. v. i4i Ltd. P’ship, 564 U.S.
91, 95 (2011). Now, the infringer can contest the patent
in an adversarial proceeding at the Patent Office instead,
and show invalidity by a mere preponderance of the
evidence. 35 U.S.C. § 316(e). The infringer can resort
to that friendlier forum even if the patent owner has
already sued it for infringement in court. Id. § 315(b).
An infringer can pursue inter partes review even if it
loses in court on the same grounds. Because of the
different standards of proof, a jury verdict upholding a
patent has no preclusive effects in inter partes review.
See Novartis AG v. Noven Pharm. Inc., 853 F.3d 1289,
1294 (Fed. Cir. 2017). As a result, patent owners now
routinely face two rounds of contentious and expensive
litigation in different forums, brought by the same challenger asserting the same claims. The challenger may
win the second round even if it lost the first—exactly
what happened here. See pp. 10-11, supra.
To be sure, an infringer could request reexamination
before the AIA. But reexamination was “fundamentally
different.” Return Mail, 139 S. Ct. at 1865-1866. A
patent owner in inter partes review faces a fully adversarial, litigation-like proceeding in which its opponent
vigorously advocates for the patent’s demise at every
turn. 35 U.S.C. § 316(a). The standards and procedures
differ in many ways that make it far easier to challenge
the patent. See pp. 17-19, supra.
Those changes have had a profound effect. Inter
partes review has essentially doubled the fatality rate for
patents, from a regime where two-thirds survive to one
where two-thirds fail (not even counting partial invalida-

23
tions). See Ex Parte Reexamination Filing Data, supra;
Inter Partes Reexamination Filing Data, supra; Trial
Statistics, supra, at 10. Patents are now less secure and
therefore less valuable: By one estimate, inter partes
review has obliterated two-thirds of the value of pre-AIA
patents. See Dolin & Manta, supra, at 791-792.
The Fifth Amendment would obviously prohibit Congress from retroactively reducing patent terms from 20
years to 10. Reducing patent values by allowing competitors to challenge patents through a new and far more potent process violates retroactivity principles for the same
reasons. That is not what inventors signed up for when
they agreed to disclose their inventions to the public.
3. The court of appeals opined that “application of
IPR to Arthrex’s patent cannot be characterized as retroactive” because the Patent Office issued the patent after
the statute was enacted. App., infra, 19a. But whether a
statute is retroactive turns on “whether it would impair
rights a party possessed when he acted.” Landgraf, 511
U.S. at 280 (emphasis added); see also Martin v. Hadix,
527 U.S. 343, 358 (1999) (statute had “retroactive effect”
where party “performed a specific task * * * in reasonable reliance” on prior law). Arthrex relied on prior law
when it chose to apply for a patent and disclose how to
make and use its invention in return for the protections
Congress promised at the time. That the Patent Office
took eight years to grant the application does not change
the bait-and-switch nature of what happened.
The court of appeals cited Eldred v. Ashcroft, 537 U.S.
186, 203 (2003), for the proposition that “the legal regime
governing a particular patent ‘depend[s] on the law as it
stood at the emanation of the patent, together with such
changes as have since been made.’ ” App., infra, 19a.
But Eldred was addressing a law that “expanded patent

24
protection to an existing patent”—not one that diminished patent rights. 537 U.S. at 202-203 & n.9 (emphasis
added) (discussing McClurg, 42 U.S. (1 How.) at 206).
Moreover, Eldred distinguished patents from copyrights
on the ground that “immediate disclosure is not the objective of, but is exacted from, the patentee,” and “is the
price paid for the exclusivity secured.” Id. at 216. That
bargain is precisely why the application date matters.
Congress recognized the application date’s central role
throughout the Patent Act. A patent term runs from the
“date on which the application for the patent was filed.”
35 U.S.C. § 154(a)(2). Patent owners can recover damages for certain infringements after the “date of publication of the application.” Id. § 154(d)(1). And the application date determines which prior art affects the patent’s
validity. Id. § 102(a). Congress repeatedly invoked the
application date because that is the one that matters to
the basic bargain on which patent protection stands.
When Congress made inter partes reexamination prospective only, it limited the statute to “patent[s] that
issue[ ] from an original application filed * * * on or after
th[e] date” of enactment. Pub. L. No. 106-113, § 4608(a),
113 Stat. at 1501A-572 (emphasis added). Even within
the AIA, Congress made other provisions applicable only
where the application was filed on or after the statute’s
effective date. See Pub. L. No. 112-29, § 3(n)(1), 125 Stat.
284, 293 (2011) (first-to-file regime); id. § 6(f )(2)(A), 125
Stat. at 311 (post-grant review). Congress clearly appreciated that it was legislating retroactively when it made
inter partes review applicable to prior patents, whether
issued or merely applied for before the statute.
The court of appeals finally reasoned that, even if
Arthrex had obtained its patent before the AIA, “the
differences between IPRs and the * * * proceedings that

25
existed prior to the AIA are not so significant as to
‘create a constitutional issue.’ ” App., infra, 19a (quoting
Celgene, 931 F.3d at 1362). In fact, the differences are
vast, as shown above. If the differences were “not so
significant,” they would not have caused survival rates to
plummet from 66% to 38% and reduced the value of
patents by two-thirds.
Congress retroactively impaired the value of Arthrex’s
patent by giving competitors greatly enhanced tools to
attack it. The Fifth Amendment does not permit Congress to renege on its bargain in that manner.
C. The Court Should Grant Review in This Case
and in Celgene and Consolidate the Two Cases
Even on its own, this case would be a good vehicle for
deciding whether Congress can apply inter partes review
retroactively. But this Court already has the same
question before it in Celgene, the case on which the court
relied below. See Celgene Corp. v. Peter, No. 19-1074
(filed Feb. 26, 2020). The same question is also presented
in two other post-Celgene cases, Collabo Innovations,
Inc. v. Sony Corp., No. 19-601 (filed Nov. 4, 2019); and
Enzo Life Sciences, Inc. v. Becton, Dickinson & Co., No.
19-1097 (filed Mar. 3, 2020).2
Those cases, however, present the issue in a different
posture. In those cases, the inventor both applied for and
received the patent before the AIA. See Celgene Pet. 1415; Collabo Pet. 4-5; Enzo Pet. 13. Arthrex, by contrast,
applied for its patent and disclosed its invention to the

2

Collabo was initially scheduled for the March 20, 2020, conference,
but the Court rescheduled the case, presumably to consider it
together with Celgene.

26
public before the statute, but the Patent Office issued the
patent only afterward. See pp. 9-10, supra.
Given those circumstances, the Court should grant
review in both this case and Celgene and consolidate the
two for argument. The two postures raise arguably
different issues: The court below rejected Arthrex’s
retroactivity challenge in part for reasons unrelated to
Celgene. App., infra, 19a. A ruling from this Court in
Celgene’s favor would not necessarily resolve the issue
for cases like Arthrex’s where the inventor applied for
the patent before the statute but received it afterward.
Those cases are numerous. Many of the hundreds of
inter partes reviews each year—nearly one in seven—
involve application and issuance dates that straddle the
AIA’s enactment. See p. 16 & n.1, supra. Those patents,
moreover, are more recent than ones like Celgene’s. As a
result, they will continue to be a substantial category even
as the share of patents like Celgene’s recedes. It does
not make sense to decide the retroactivity issue for cases
like Celgene but leave this important category unresolved.
This Court often grants multiple cases to address different permutations of an issue. In United States v. Stitt,
No. 17-765, the Government sought review of a federal
sentence enhancement statute for prior state offenses,
and suggested granting certiorari in two cases so the
Court could “review the issue in the context of multiple
state statutes.” Pet. in No. 17-765 at 21-22. The Court
agreed, granting two cases and consolidating them for
argument, and then reversing in one while vacating and
remanding in the other. See United States v. Stitt, 139 S.
Ct. 399, 407-408 (2018).

27
In Abbott v. United States, No. 09-479, the petitioner
sought review of a firearm conviction. He noted that the
same issue arose in a related “predicate offense” context,
and “[b]ecause predicate offense and firearm cases present different factual contexts and slightly different statutory contexts, the Court might wish to consolidate a
firearm and a predicate offense case.” Pet. in No. 09-479,
at 27. The Court granted and consolidated two cases.
See Abbott v. United States, 562 U.S. 8, 15, 28 (2010).
The Court should follow the same approach here.
Granting review solely in Celgene would leave a large and
important category of cases unresolved, even though
patent owners like Arthrex relied on prior law when
applying for and disclosing their inventions. The Court
should grant review in both this case and Celgene and
consolidate the two cases for argument.
II. THE COURT SHOULD ADDRESS WHETHER ARTHREX
’907 ’S APPOINTMENTS CLAUSE HOLDING APPLIES TO
ALL CASES PENDING ON APPEAL
While Arthrex’s petition for rehearing was pending,
the Federal Circuit decided, in another case between the
same parties, that the statutory method for appointing
administrative patent judges violates the Appointments
Clause. See Arthrex, Inc. v. Smith & Nephew, Inc., 941
F.3d 1320 (Fed. Cir. 2019) (“Arthrex ’907 ”), reh’g denied
(Mar. 23, 2020). That decision’s reasoning applies equally
here, and Arthrex promptly brought the decision to the
Federal Circuit’s attention. C.A. Dkt. 72. The court,
however, refused to apply Arthrex ’907 to this case,
evidently because Arthrex had not argued the issue in its
opening brief. App., infra, 101a. That ruling, too, raises
important issues that warrant review.

28
A. Administrative Patent Judges Are Appointed in
Violation of the Appointments Clause
Under the Appointments Clause, principal officers
must be nominated by the President and confirmed by
the Senate, while inferior officers may be appointed by a
department head. U.S. Const. art. II, § 2. The Secretary
of Commerce appoints APJs—an approach permissible
only if they are inferior officers. 35 U.S.C. § 6(a).
Arthrex ’907 correctly held that they are not. “ ‘[I]nferior officers’ are officers whose work is directed and supervised at some level” by a principal officer. Edmond v.
United States, 520 U.S. 651, 662-663 (1997). No principal
officer reviews APJ decisions—they are appealable only
to Article III courts. Arthrex ’907, 941 F.3d at 1329-1331.
And no principal officer can remove APJs from federal
service at will—they are removable only under the same
strict civil-service standard that governs federal employees. Id. at 1332-1334 (citing 5 U.S.C. § 7513(a)).
Arthrex ’907 purported to remedy the defect by severing APJs’ tenure protections. 941 F.3d at 1335-1340. All
parties sought rehearing en banc. Smith & Nephew and
the Government denied any constitutional violation. No.
18-2140, Dkt. Nos. 77, 79 (Fed. Cir. filed Dec. 16, 2019).
Arthrex urged that severance was not an appropriate
remedy because Congress intended APJs to be impartial
and independent—and that severance was insufficient to
cure the violation in any event. No. 18-2140, Dkt. No. 78
(Fed. Cir. filed Dec. 16, 2019).
The court of appeals denied all three petitions on
March 23, 2020, with four judges dissenting. Arthrex,
Inc. v. Smith & Nephew, Inc., No. 18-2140, 2020 WL
1328925 (Fed. Cir. Mar. 23, 2020). The dissents agreed
with Arthrex that severing the removal restrictions was
not an appropriate remedy. See id. at *7-10 (Dyk., J.,

29
dissenting); id. at *22 (Hughes, J., dissenting). Arthrex
plans to seek this Court’s review, and the Government
and Smith & Nephew may do so as well.
B. Arthrex ’907 ’s Applicability to Pending Cases Is
an Important and Recurring Issue
The proceedings in this case suffered from the same
defect as in Arthrex ’907—the APJs who presided held
office in violation of the Constitution. App., infra, 21a.
The Federal Circuit, however, refused to grant Arthrex
any relief. App., infra, 101a. That court has repeatedly
refused to apply Arthrex ’907 to cases like this where the
appellant did not raise the Appointments Clause issue in
its opening brief. Whether a court may refuse to consider
a constitutional claim on forfeiture grounds despite an
intervening change of law is another recurring issue that
warrants this Court’s review.
One day after Arthrex ’907, a different Federal Circuit
panel refused to apply the decision where the appellant
had not preserved the argument in its opening brief,
denying a motion to vacate and remand. See Customedia
Techs., LLC v. Dish Network Corp., 941 F.3d 1173, 1174
(Fed. Cir. 2019). The court opined that it was “well
established that arguments not raised in the opening brief
are waived.” Ibid. The court denied reconsideration en
banc over Judge Newman’s dissent on December 23, 2019,
No. 19-1001, Dkt. 63, and denied rehearing en banc of the
decision on the merits on March 5, 2020, id. Dkt. 73.
Meanwhile, another Federal Circuit panel confronted
the same issue in Sanofi-Aventis Deutschland GmbH v.
Mylan Pharmaceuticals Inc., 791 F. App’x 916 (Fed. Cir.
2019). The majority refused to consider the constitutional
claim, citing Customedia. Id. at 928 n.4. Judge Newman
dissented, reasoning that, “at the time these appeals
were filed, there was no holding of illegality of appoint-

30
ments of the PTAB’s Administrative Patent Judges,” and
“[i]t is well established that when the law changes while a
case is on appeal, the changed law applies.” Id. at 932
(Newman, J., dissenting) (citing Thorpe v. Hous. Auth. of
Durham, 393 U.S. 268, 282 (1969)). The court denied
rehearing en banc on January 28, 2020. No. 19-1368, Dkt.
69. Sanofi sought a stay from this Court, which the Chief
Justice initially granted but which the Court later denied
after the respondent argued, among other things, that
there was no threat of irreparable harm. No. 19A886.
Many other appellants are in the same situation. The
Federal Circuit has continued to reject their challenges,
sometimes in divided decisions. See Bos. Sci. Neuromodulation Corp. v. Nevro Corp., No. 19-1582, Dkt. 56
(Fed. Cir. Nov. 22, 2019) (denying leave to file supplemental brief ); id. Dkt. 73 (Fed. Cir. Jan. 23, 2020) (denying
reconsideration en banc over Judge Newman’s dissent);
cf. Ciena Corp. v. Oyster Optics, LLC, No. 19-2117, Dkt.
31 (Fed. Cir. Jan. 28, 2020) (finding forfeiture where
party claiming violation instituted inter partes review).
The recurring nature of the question is no surprise: The
Appointments Clause flaw affects every appeal from an
inter partes review that was still pending when the court
decided Arthrex ’907. Although a few appellants were
prescient enough to predict the decision, see, e.g., Polaris
Innovations Ltd. v. Kingston Tech. Co., No. 18-1768,
Dkt. 90 (Fed. Cir. Nov. 8, 2019), most were not. Whether
forfeiture applies in such cases is thus a widely recurring
and important issue.
C. The Federal Circuit’s Approach Is Wrong
The Federal Circuit’s approach defies this Court’s
precedents. While ordinary forfeiture principles may
require a party to raise all arguments in its opening brief,

31
that rule does not apply where there is an intervening
change of law while the appeal is pending.
This Court has repeatedly refused to find forfeiture
where there was an intervening change of law. “[T]he
mere failure to interpose [a constitutional] defense prior
to the announcement of a decision which might support it
cannot prevent a litigant from later invoking such a
ground.” Curtis Publ’g Co. v. Butts, 388 U.S. 130, 143
(1967); see also Hormel v. Helvering, 312 U.S. 552, 558559 (1941) (no forfeiture where “there have been judicial
interpretations * * * pending appeal * * * which if applied
might have materially altered the result”). In such cases,
the “failure to raise the claim in an opening brief reflects
not a lack of diligence, but merely a want of clairvoyance.” Joseph v. United States, 135 S. Ct. 705, 706 (2014)
(Kagan, J., dissenting from denial of certiorari).
This case involves precisely the sort of intervening
change of law to which that rule applies. Arthrex ’907
dramatically changed the law. Before that decision, the
Federal Circuit had indicated that the current appointment scheme is constitutional. See In re DBC, 545 F.3d
1373, 1380 (Fed. Cir. 2008) (holding that Congress’s 2008
vesting of appointment authority in the Secretary of
Commerce “eliminat[ed] the issue of unconstitutional
appointments going forward”), cert. denied, 558 U.S. 816
(2009). The Federal Circuit had rejected a challenge like
Arthrex’s in a non-precedential decision. See Trading
Techs. Int’l, Inc. v. IBG LLC, No. 18-1489, 771 F. App’x
493 (Fed. Cir. 2019). This Court had similarly denied
review of the issue. See Smartflash LLC v. Samsung
Elecs. Am., Inc., No. 18-189 (cert. denied Oct. 1, 2018).
Arthrex ’907 completely upended that legal landscape.
This Court has reviewed structural constitutional challenges to an adjudicator’s authority despite a failure to

32
preserve the argument, even absent a change in the law.
See, e.g., Nguyen v. United States, 539 U.S. 69, 73, 80-81
(2003) (addressing challenge to territorial judge’s participation on appellate panel raised for the first time in petition for certiorari); Freytag v. Comm’r, 501 U.S. 868, 879
(1991) (reviewing Appointments Clause challenge despite
waiver due to “the strong interest of the federal judiciary
in maintaining the constitutional plan of separation of
powers”); Glidden Co. v. Zdanok, 370 U.S. 530, 536 (1962)
(plurality) (addressing challenge despite forfeiture and
noting that Court had previously entertained a claim not
raised “until the filing of a supplemental brief upon a
second request for review”). Those principles apply a
fortiori where the only reason for the alleged forfeiture
was that the law changed while the appeal was pending.
D. The Court Should Either Grant the Petition or
Hold the Case Pending Sanofi, Customedia, and
Arthrex ’907
The Court should grant review in this case to decide
whether the intervening change of law in Arthrex ’907
applies to all cases pending on appeal. At a minimum, the
Court should hold this case for the forthcoming petitions
in Sanofi and Customedia raising the same issue.
Alternatively, the Court should hold this case pending
the forthcoming petitions in Arthrex ’907. Because the
Federal Circuit held a provision of federal law unconstitutional, there is a substantial possibility the Court will
grant review. See Maricopa County v. Lopez-Valenzuela,
135 S. Ct. 428, 428 (2014) (Thomas, J., respecting denial
of stay) (noting the “strong presumption” of review for
decisions holding a federal statute unconstitutional).
This Court’s decision in Arthrex ’907 could have significant implications for the Federal Circuit’s decision here.
For example, if this Court agrees with Arthrex’s position

33
on the appropriate remedy and declares the entire statute
unconstitutional while deferring to Congress to address
the problem, that new legal ruling may well cause the
court of appeals to exercise its discretion differently in
considering an allegedly forfeited challenge. The Court
should therefore hold the petition not only for Sanofi and
Customedia, but for Arthrex ’907 as well.
CONCLUSION
With respect to the first question presented, the Court
should grant the petitions in this case and in Celgene
Corp. v. Peter, No. 19-1074, and consolidate the two for
argument. With respect to the second question presented,
the Court should grant the petition, or in the alternative,
hold this case for the petitions in Sanofi-Aventis Deutschland GmbH v. Mylan Pharmaceuticals Inc., 791 F.
App’x 916 (Fed. Cir. 2019); Customedia Technologies,
LLC v. Dish Network Corp., 941 F.3d 1173 (Fed. Cir.
2019); and Arthrex, Inc. v. Smith & Nephew, Inc., 941
F.3d 1320 (Fed. Cir. 2019); and then dispose of the petition in light of the Court’s decisions in those cases.

Respectfully submitted.
ANTHONY P. CHO
DAVID J. GASKEY
JESSICA E. FLEETHAM
DAVID L. ATALLAH
CARLSON, GASKEY
& OLDS, P.C.
400 West Maple Road,
Suite 350
Birmingham, MI 48009
(248) 988-8360

JEFFREY A. LAMKEN
Counsel of Record
ROBERT K. KRY
JAMES A. BARTA
MOLOLAMKEN LLP
The Watergate, Suite 500
600 New Hampshire Ave., N.W.
Washington, D.C. 20037
(202) 556-2000
jlamken@mololamken.com

CHARLES W. SABER
SALVATORE P. TAMBURO
BLANK ROME LLP
1825 Eye Street, N.W.
Washington, D.C. 20006
(202) 420-2200

JOHN W. SCHMIEDING
TREVOR ARNOLD
ARTHREX, INC.
1370 Creekside Blvd.
Naples, FL 34108
(239) 643-5553

Counsel for Petitioner
APRIL 2020

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
²²²²
NO. 2018-1584
²²²²
ARTHREX, INC.,
Appellant,
v.
SMITH & NEPHEW, INC.,
ARTHROCARE CORP.,
Appellees,
UNITED STATES,
Intervenor.
²²²²
Appeal from the United States Patent
and Trademark Office, Patent Trial and Appeal
Board in No. IPR2016-00918.
²²²²
OPINION
²²²²
August 21, 2019
²²²²
ANTHONY P. CHO, Carlson, Gaskey & Olds, PC, Birmingham, MI, argued for appellant. Also represented by
DAVID J. GASKEY, JESSICA E. ZILBERBERG.
NATHAN R. SPEED, Wolf, Greenfield & Sacks, PC,
Boston, MA, argued for appellees. Also represented by
RICHARD GIUNTA; MICHAEL N. RADER, New York, NY.
(1a)

2a
DENNIS FAN, Appellate Staff, Civil Division, United
States Department of Justice, Washington, DC, argued
for intervenor. Also represented by SCOTT R. MCINTOSH, JOSEPH H. HUNT, KATHERINE TWOMEY ALLEN;
THOMAS W. KRAUSE, JOSEPH MATAL, FARHEENA YASMEEN RASHEED, Office of the Solicitor, United States
Patent and Trademark Office, Alexandria, VA.
————
Before DYK, CHEN, and STOLL, Circuit Judges.
STOLL, Circuit Judge.
In an inter partes review, the Patent Trial and Appeal
Board ruled claims 10 and 11 of Arthrex, Inc.’s U.S. Patent No. 8,821,541 invalid. In doing so, the Board employed different language than Smith & Nephew, Inc.’s
petition to explain why a person of ordinary skill in the art
would have been motivated to combine the teachings of
the prior art. Arthrex asserts that this warrants reversal, but the Board’s minor variation in wording
does not violate the safeguards of the Administrative
Procedure Act (APA) and did not deprive Arthrex of an
opportunity to be heard. Accordingly, we hold that the
Board did not violate Arthrex’s procedural rights. And
because the Board’s findings have substantial evidence
support, its claim constructions are correct, and Arthrex has not articulated a cognizable constitutional
challenge to IPR for its patent, we affirm the Board.
BACKGROUND
I
The ’541 patent describes a surgical suture anchor
used to reattach soft tissue to bone. ’541 patent col. 1
ll. 25-35. The disclosed “fully threaded suture anchor”
includes “an eyelet shield that is molded into the distal
part of the biodegradable suture anchor.” Id. at col. 2 ll.

3a
31-35. The eyelet shield acts as a rigid support for the
sutures needed to hold the soft tissue, “provid[ing] the
strength necessary to secure the sutures.” Id. at col. 5 ll.
41-42, 51-57. The patent explains that because the support is molded into the anchor structure (as opposed to
being a separate component), it “provides greater security to prevent pull-out of the suture.” Id. at col. 5 ll. 52-56.
Figure 5 of the ’541 patent illustrates the helical
threading on body 3 and the integral rigid support (eyelet
shield 9) of the suture anchor 1:

Independent claims 10 and 11 are at issue here. They
recite:
10. A suture anchor assembly comprising:
an anchor body including a longitudinal axis, a proximal end, a distal end, and a central passage extending along the longitudinal axis from an opening at
the proximal end of the anchor body through a portion of a length of the anchor body, wherein the
opening is a first suture opening, the anchor body

4a
including a second suture opening disposed distal of
the first suture opening, and a third suture opening
disposed distal of the second suture opening,
wherein a helical thread defines a perimeter at
least around the proximal end of the anchor body;
a rigid support extending across the central passage, the rigid support having a first portion and a
second portion spaced from the first portion, the
first portion branching from a first wall portion of
the anchor body and the second portion branching
from a second wall portion of the anchor body,
wherein the third suture opening is disposed distal
of the rigid support;
at least one suture strand having a suture length
threaded into the central passage, supported by the
rigid support, and threaded past the proximal end
of the anchor body, wherein at least a portion of the
at least one suture strand is disposed in the central
passage between the rigid support and the opening
at the proximal end, and the at least one suture
strand is disposed in the first suture opening, the
second suture opening, and the third suture opening; and
a driver including a shaft having a shaft length,
wherein the shaft engages the anchor body, and the
suture length of the at least one suture strand is
greater than the shaft length of the shaft.
11. A suture anchor assembly comprising:
an anchor body including a distal end, a proximal
end having an opening, a central longitudinal axis, a
first wall portion, a second wall portion spaced opposite to the first wall portion, and a suture passage beginning at the proximal end of the anchor

5a
body, wherein the suture passage extends about the
central longitudinal axis, and the suture passage extends from the opening located at the proximal end
of the anchor body and at least partially along a
length of the anchor body, wherein the opening is a
first suture opening that is encircled by a perimeter
of the anchor body, a second suture opening extends through a portion of the anchor body, and a
third suture opening extends through the anchor
body, wherein the third suture opening is disposed
distal of the second suture opening;
a rigid support integral with the anchor body to define a single-piece component, wherein the rigid
support extends across the suture passage and has
a first portion and a second portion spaced from the
first portion, the first portion branching from the
first wall portion of the anchor body and the second
portion branching from the second wall portion of
the anchor body, and the rigid support is spaced axially away from the opening at the proximal end
along the central longitudinal axis; and
at least one suture strand threaded into the suture
passage, supported by the rigid support, and having
ends that extend past the proximal end of the anchor body, and the at least one suture strand is disposed in the first suture opening, the second suture
opening, and the third suture opening.
Id. at col. 7 l. 58-col. 8 l. 59 (as amended by Certificate of
Correction) (emphases added to disputed claim terms).
II
Smith & Nephew sought IPR of claims 10 and 11 of
the ’541 patent. It challenged both claims as obvious over

6a
U.S. Pub. No. 2006/0271060 (“Gordon”) and U.S. Patent
No. 7,322,978 (“West”).
Gordon discloses a bone anchor in which a suture loops
about a pulley 182 positioned within the anchor body.
J.A. 1758, ¶¶ [0084]-[0086]. Figure 23 illustrates the pulley 182 held in place in holes 184a, b.

J.A. 1747. Smith & Nephew asserted that Gordon disclosed nearly all of the claimed features, including the
rigid support, which Smith & Nephew identified as pulley
182. As relevant here, however, Smith & Nephew
acknowledged that Gordon did not expressly disclose that
the pulley was “integral with the anchor body to define a
single-piece component,” as required by claim 11. J.A.
228. For that feature, Smith & Nephew relied on West.

7a
West also describes a bone anchor 10, as shown in
Figure 1, reproduced below.

J.A. 1762. In West’s anchor, “[o]ne or more pins [23a and
23b] are fixed within the bore of the anchor body [12].
One or more sutures can be looped on the pins [23a and
23b].” J.A. 1760, Abstract. West explains that to manufacture the bone anchor, “anchor body 12 and posts 23
can be cast and formed in a die. Alternatively anchor
body 12 can be cast or formed and posts 23a and 23b inserted later.” J.A. 1768 at col. 7 ll. 41-44; see also J.A.
1767 at col. 5 ll. 58-60. Smith & Nephew argued that this
disclosure would have motivated one of ordinary skill to
manufacture the Gordon anchor using a casting process,
creating a “rigid support integral with the anchor body to
define a single-piece component,” as recited in claim 11.
J.A. 217-19. Relying on its expert’s testimony, Smith &
Nephew asserted that using the West casting process
would minimize the materials used in the anchor, thus
facilitating regulatory approval, and would reduce the
likelihood of the pulley separating from the anchor body.

8a
J.A. 218-19. It also asserted that the casting process was
“a well-known and accepted technique for creating medical implants” and “would have been a simple design
choice.” J.A. 218.
Smith & Nephew further argued that claim 11 was
anticipated by U.S. Patent No. 5,464,427 (“Curtis”),
which describes another bone anchor, and that claim 10
would have been obvious over a combination of Curtis
and other references. Curtis discloses a threaded anchor
that expands to lodge into the bone rather than being
rotated into the bone. J.A. 1776-77 at col. 2 ll. 29-33, col. 3
ll. 12-16.
Among other things, Arthrex disputed whether a person of ordinary skill would have been motivated to modify
Gordon in view of West to achieve the invention of claim
11, and it asserted that the Curtis ground did not include
the “helical thread” of claim 10 under the correct construction of that term. In its final written decision, the
Board disagreed and ruled that Smith & Nephew had
shown both claims unpatentable on both the Gordon and
West and the Curtis grounds. Arthrex appeals.
DISCUSSION
On review of the Board’s final written decisions, we
evaluate whether the Board’s factual findings are supported by substantial evidence. See Belden Inc. v. BerkTek LLC, 805 F.3d 1064, 1073 (Fed. Cir. 2015). We review the Board’s legal determinations de novo. Id. And
we ensure the Board complies with statutory and constitutional requirements. Wi-Fi One, LLC v. Broadcom
Corp., 878 F.3d 1364, 1374 (Fed. Cir. 2018) (en banc)
(“Enforcing statutory limits on an agency’s authority to
act is precisely the type of issue that courts have historically reviewed.”); Belden, 805 F.3d at 1080 (reviewing alleged denial of procedural due process rights).

9a
Arthrex challenges the Board’s determination that
Smith & Nephew proved claims 11 and 10 unpatentable,
and it attacks the constitutionality of IPRs as applied to
its patent. We address each argument in turn.
I
We begin with claim 11. The Board determined that
one of ordinary skill would have found the claimed invention obvious over Gordon and West, a conclusion Arthrex
attacks both procedurally and substantively. Because
the Board did not violate Arthrex’s procedural rights,
and because substantial evidence supports the Board’s
conclusion that a person of ordinary skill would have
been motivated to combine the teachings of Gordon and
West to achieve the claimed invention, we affirm. Because we affirm the Board’s finding of unpatentability
based on Gordon in view of West, we do not reach Arthrex’s challenges to the Board’s finding that claim 11 is
anticipated by Curtis.
A
Arthrex first contends that the Board impermissibly
relied on a new theory of motivation to combine in its
final written decision. As we have often explained, IPR
proceedings are formal administrative adjudications subject to the procedural requirements of the APA. See,
e.g., Dell Inc. v. Acceleron, LLC, 818 F.3d 1293, 1298
(Fed. Cir. 2016); Belden, 805 F.3d at 1080. One of these
requirements is that “ ‘an agency may not change theories in midstream without giving respondents reasonable
notice of the change’ and ‘the opportunity to present argument under the new theory.’ ” Belden, 805 F.3d at
1080 (quoting Rodale Press, Inc. v. FTC, 407 F.2d 1252,
1256-57 (D.C. Cir. 1968)); see also 5 U.S.C. § 554(b)(3).
Nor may the Board craft new grounds of unpatentability
not advanced by the petitioner. See In re NuVasive,

10a
Inc., 841 F.3d 966, 971-72 (Fed. Cir. 2016); In re Magnum Oil Tools Int’l, Ltd., 829 F.3d 1364, 1381 (Fed.
Cir. 2016).
Arthrex argues that by describing West’s casting
method as “preferred,” a characterization not found in
Smith & Nephew’s petition, the Board crafted a new reason for combining Gordon and West and violated its procedural rights. We disagree. Though the Board used different language than the petition in its discussion of
whether one of ordinary skill would have been motivated
to combine Gordon and West, it did not introduce new
issues or theories into the proceeding. Rather, the Board
properly resolved the parties’ dispute about the scope
and content of West’s disclosure in order to evaluate
the theory of obviousness raised in Smith & Nephew’s
petition.
West describes that an “anchor body 12 and posts 23
can be cast and formed in a die. Alternatively anchor
body 12 can be cast or formed and posts 23a and 23b inserted later.” J.A. 1768 at col. 7 ll. 41-47 (emphasis added). Pointing to this statement, the petition proposed
that a person of ordinary skill would have had “several
reasons” to combine West and Gordon, including that the
casting process disclosed by West was a “well-known
technique [whose use] would have been a simple design
choice.” J.A. 218. Smith & Nephew’s expert relied on
the same passage as support for his opinion that a person
of ordinary skill would have found it obvious to implement Gordon’s anchor using West’s casting method. See
J.A. 1648-50. Throughout the proceeding, the parties
disputed how a person of ordinary skill would have understood that specific portion of West’s disclosure and
whether that disclosure would have motivated a person of
ordinary skill to combine West and Gordon as Smith &

11a
Nephew proposed. Arthrex had—and took—the opportunity to argue these issues, asserting that West’s casting
method would be inherently problematic. J.A. 402-05,
421-30.
In the final written decision, the Board examined the
parties’ arguments and the portion of West’s disclosure
cited in the petition. In considering that disclosure, the
Board noted that West’s presentation of two manufacturing options suggests that the first option, casting, is
“primary” and “preferred.” See Smith & Nephew, Inc. v.
Arthrex, Inc., No. IPR2016-00918, 2017 WL 4677229, at
*22, *27 (P.T.A.B. Oct. 16, 2017). It concluded that, as
the petition had argued, one of ordinary skill, reviewing
West, would have applied West’s casting method to Gordon because choosing the “preferred option” presented
by West “would have been an obvious choice of the designer.” Id. at *27.
Arthrex is correct that the Board’s use of “preferred”
differs from the petition’s characterization of West’s casting as “well-known,” “accepted,” and “simple.” J.A. 218.
But in finding motivation to combine, the Board relied on
the same few lines of West as the petition. It considered
the same proposed combination of West’s casting technique and Gordon’s anchor. And it ruled on the same
theory of obviousness presented in the petition—that one
of ordinary skill would have recognized that using West’s
casting with Gordon’s anchor was a “simple design
choice.” See id.; Smith & Nephew, 2017 WL 4677229, at
*27 (determining that use of casting “would have been an
obvious choice of the designer”).
In these circumstances, the mere fact that the Board
did not use the exact language of the petition in the final
written decision does not mean it changed theories in a
manner inconsistent with the APA and our case law. In

12a
Sirona Dental Systems GmbH v. Institut Straumann
AG, for example, we affirmed the Board even though it
characterized a reference as providing “geometry data”
rather than as providing 3-D plaster model data, as the
petition had. 892 F.3d 1349, 1356 (Fed. Cir. 2018). We
explained that, as in this case, the Board had cited the
same disclosure as the petition and the parties had disputed the meaning of that disclosure throughout the trial.
Id. As a result, the petition provided the patent owner
with notice and an opportunity to address the portions of
the reference relied on by the Board, and we found no
APA violation. Id.; see also Genzyme Therapeutic Prod.
Ltd. P’ship v. Biomarin Pharm. Inc., 825 F.3d 1360,
1366 (Fed. Cir. 2016) (finding no violation where “[t]he
Board’s final written decisions were based on the same
combinations of references that were set forth in its institution decisions”). The same outcome follows here.
Though Arthrex argues otherwise, this case is unlike
those in which we have found an APA issue. In Magnum
Oil Tools, we found an APA violation where the Board
mixed arguments raised in two different grounds of obviousness in the petition to craft its own new theory of unpatentability. 829 F.3d at 1372-73, 1377. Similarly, in
SAS Institute v. ComplementSoft, LLC, we faulted the
Board for announcing a claim construction that “varie[d]
significantly” from the uncontested construction announced in the institution decision. 825 F.3d 1341, 1351
(Fed. Cir. 2016) (emphasis added), rev’d and remanded
on other grounds sub nom. SAS Inst., Inc. v. Iancu, 138
S. Ct. 1348 (2018). And in NuVasive, we found error
where the Board relied on portions of the prior art different than those presented in the petition as an “essential part of its obviousness findings.” 841 F.3d at 971. In
all three cases, the Board departed markedly from the

13a
evidence and theories presented by the petition or institution decision, creating unfair surprise. Here, however,
the Board properly relied on the same references, the
same disclosures, and the same obviousness theories advanced by the petition and debated by the parties to conclude claim 11 would have been obvious.
Nor is this, as Arthrex elsewhere suggests, a case in
which the Board’s decision is so divorced from the arguments presented by the petitioner as to impair appellate
review. See Rovalma, S.A. v. Bohler-Edelstahl GmbH &
Co. KG, 856 F.3d 1019, 1029 (Fed. Cir. 2017) (vacating
and remanding where the Board’s decision did not allow
“determin[ation of] how the Board reached the conclusion that the challenged claims would have been . . . [or]
whether the Board’s actions complied with the APA’s
procedural requirements”). Rather, the Board clearly
identified the portion of West it relied on, explained the
evidence and arguments, and agreed with Smith &
Nephew that the claims would have been obvious over
Gordon in view of West. See Outdry Techs. Corp. v. Geox
S.p.A., 859 F.3d 1364, 1369-70 (Fed. Cir. 2017) (finding
the Board’s decision sufficient where it “clearly articulated [party’s] arguments,” “engaged in reasoned decisionmaking,” and “sufficiently articulated its analysis in
its opinion to permit our review”). We therefore reject
Arthrex’s assertion that the Board violated its procedural
rights.
B
Arthrex also contends that even if the Board’s decision
was procedurally proper, the Board erred in finding
Smith & Nephew had shown a motivation to combine
Gordon and West by a preponderance of the evidence.
We review this question of fact for substantial evidence.
In re Kahn, 441 F.3d 977, 985 (Fed. Cir. 2006). When

14a
considering whether the teachings of multiple references
render a claim obvious, courts “determine whether there
was an apparent reason to combine the known elements
in the fashion claimed by the patent at issue.” KSR Int’l
Co. v. Teleflex Inc., 550 U.S. 398, 418 (2007). The analysis
is a flexible one, accounting for “the inferences and creative steps that a person of ordinary skill in the art would
employ.” Id.
Substantial evidence supports the Board’s determination that a person of ordinary skill would have been motivated to apply West’s casting method to Gordon’s anchor.
The Board correctly found that West expressly identifies
two possible methods for making a rigid support. See
Smith & Nephew, 2017 WL 4677229, at *26. West states
that “anchor body 12 and posts 23 can be cast and formed
in a die. Alternatively anchor body 12 can be cast or
formed and posts 23a and 23b inserted later.” J.A. 1768
at col. 7 ll. 41-47 (emphasis added). As the Board found,
this wording suggests that the default or preferred option disclosed by West is die casting. See Smith & Nephew, 2017 WL 4677229, at *27; see also id. at *22 (noting
that West describes casting as the “primary” option).
Given these two options, the Board reasonably determined that forming the entire anchor integrally, as a single piece, “would have been an obvious choice of the designer.” Id. at *27.
Additional record evidence supports this result. Smith
& Nephew’s expert, Mr. Mark Ritchart, offered detailed
testimony explaining that using a casting process would
result in a stronger anchor more likely to receive regulatory approval. J.A. 1649-50. Professor Alexander Slocum testified similarly, stating that the design would also
“decrease . . . manufacturing costs,” “prevent the suture
anchor from appearing in and obscuring the bone in

15a
x-rays,” and “reduce[ ] . . . stress concentrations” on the
anchor. J.A. 2869-70.
Arthrex correctly notes that some evidence arguably
cuts against the Board’s conclusion. Mr. Ritchart acknowledged potential complexities of casting, J.A. 3839,
and Arthrex’s expert, Dr. Kenneth Gall, argued at length
that a person of ordinary skill would not have applied
West to Gordon as Smith & Nephew argued, see, e.g.,
J.A. 3747-49. But the presence of evidence supporting
the opposite outcome does not preclude substantial evidence from supporting the Board’s fact finding. See, e.g.,
Falkner v. Inglis, 448 F.3d 1357, 1364 (Fed. Cir. 2006)
(“An agency decision can be supported by substantial
evidence, even where the record will support several reasonable but contradictory conclusions.”). And our task on
appeal is simply to evaluate whether substantial evidence
supports the Board’s fact finding; “[w]e may not reweigh
. . . evidence.” In re Warsaw Orthopedic, Inc., 832 F.3d
1327, 1333 (Fed. Cir. 2016). Because the Board’s finding
of motivation to combine is supported by such evidence
as “a reasonable mind might accept as adequate,” and, as
noted above, the Board did not err procedurally, we
affirm the Board’s conclusion that claim 11 would have
been obvious over Gordon in view of West. Kahn, 441
F.3d at 985.
II
We next address claim 10. Arthrex challenges the
Board’s construction of “helical thread,” asserting that
this term should have been construed to require that the
helical thread “facilitates rotary insertion of the anchor
into bone.” Appellant’s Br. 55. Because the Board correctly construed the term and Arthrex does not otherwise challenge the Board’s finding that the Curtis ground
renders claim 10 unpatentable, we affirm without consid-

16a
ering whether claim 10 is also unpatentable based on
Gordon and West.
We review the Board’s ultimate claim constructions de
novo, In re Man Mach. Interface Techs. LLC, 822 F.3d
1282, 1285 (Fed. Cir. 2016), and we review any subsidiary
factual findings involving extrinsic evidence for substantial evidence, Teva Pharm. USA, Inc. v. Sandoz, Inc., 135
S. Ct. 831, 841 (2015). The broadest reasonable interpretation standard applies to this IPR.1 Thus, the Board’s
construction must be reasonable in light of the record
evidence and the understanding of one skilled in the art.
See Microsoft Corp. v. Proxyconn, Inc., 789 F.3d 1292,
1298 (Fed. Cir. 2015), overruled on other grounds by
Aqua Prods., Inc. v. Matal, 872 F.3d 1290 (Fed. Cir.
2017) (en banc).
Here, the Board correctly construed “helical thread”
as “a helical ridge or raised surface that serves to retain
the anchor in bone” without limiting the term to threads
used to facilitate rotary insertion. Smith & Nephew, 2017
WL 4677229, at *19. Claim 10 recites “a helical thread
defines a perimeter at least around the proximal end of
the anchor body.” This plain claim language suggests
that the “helical thread” is a structural feature that “defines a perimeter.” ’541 patent col. 8 ll. 7-8. Consistent
with the Board’s construction, the claim does not include
any functional limitations. A single sentence in the “de1

Per recent regulation, the Board applies the Phillips claim construction standard to petitions filed on or after November 13, 2018.
See Changes to the Claim Construction Standard for Interpreting
Claims in Trial Proceedings Before the Patent Trial and Appeal
Board, 83 Fed. Reg. 51,340 (Oct. 11, 2018) (to be codified at 37
C.F.R. pt. 42). Because Smith & Nephew filed its petition before
November 13, 2018, we apply the broadest reasonable interpretation
standard.

17a
tailed description of the preferred embodiments” in the
specification describes rotating threaded anchors into
bone using a driver. Id. at col. 6 ll. 4-8. But our case law
counsels against incorporating a feature of a preferred
embodiment into the claims, particularly where, as here,
the feature at issue is mentioned only tangentially. See,
e.g., In re Van Geuns, 988 F.2d 1181, 1184 (Fed. Cir.
1993) (“[L]imitations are not to be read into the claims
from the specification.”). Nowhere does the specification
mandate that threaded anchors must be rotated into
bone. Rather, the specification acknowledges that only
“[s]ome threaded suture anchors are designed to be inserted into a pre-drilled hole.” ’541 patent col. 1 ll. 36-39
(emphasis added).
The prosecution history further supports the Board’s
decision not to limit the claimed “helical thread[s]” to
those used for rotational insertion. As Arthrex concedes,
Appellant’s Br. 60-61 & n.10, three references cited during prosecution describe threaded anchors that are not
rotated into the bone. As we have explained, art “cited in
the prosecution history of the patent constitutes intrinsic
evidence.” V-Formation, Inc. v. Benetton Grp. SpA, 401
F.3d 1307, 1311 (Fed. Cir. 2005) (quoting Kumar v.
Ovonic Battery Co., 351 F.3d 1364, 1368 (Fed. Cir. 2003))
(explaining that a claim term may be construed based on
its “usage in the prior art that was cited in the patent”).
These references confirm that the broadest reasonable
construction of the term “helical thread” is not limited to
threads used for rotatory insertion. Though Arthrex
cites dictionaries that may support a narrower interpretation, see Appellant’s Br. 57, that extrinsic evidence
does not outweigh the intrinsic record. See Finisar
Corp. v. DirecTV Grp., Inc., 523 F.3d 1323, 1328 (Fed.
Cir. 2008) (“When construing claims, the claims and the

18a
rest of the patent, along with the patent’s prosecution
history . . . are the primary resources; while helpful, extrinsic sources like dictionaries and expert testimony
cannot overcome more persuasive intrinsic evidence.”).
We thus affirm the Board’s construction.
III
Finally, we address Arthrex’s challenge to the constitutionality of certain IPRs. Arthrex notes that the Supreme Court has not addressed the constitutionality of
IPR as applied to patents issued prior to the America
Invents Act (AIA), which created IPRs. See Oil States
Energy Servs., LLC v. Greene’s Energy Grp., LLC, 138
S. Ct. 1365, 1379 (2018) (“Oil States does not challenge
the retroactive application of inter partes review, even
though that procedure was not in place when its patent
issued.”). It asks us to hold that IPR is unconstitutional
when applied retroactively to pre-AIA patents.2 See
Appellant’s Br. 62.
We exercise our discretion and reach Arthrex’s argument rather than finding that Arthrex waived this issue
by failing to present it to the Board. See e.g., In re DBC,
545 F.3d 1373, 1378-79 (Fed. Cir. 2008) (noting “discretion to reach issues raised for the first time on appeal”
but holding party waived constitutional challenge based
on Appointments Clause by failing to raise it before the
Board); Harris Corp. v. Ericsson Inc., 417 F.3d 1241,
1251 (Fed. Cir. 2005) (“An appellate court retains caseby-case discretion over whether to apply waiver.”). We
need not reach the merits of the issue, however, because
2

To the extent Arthrex intends to raise a general due process challenge unrelated to retroactivity, the single paragraph of conclusory
assertions presented in its opening brief is “insufficient to preserve
the issue for appeal.” See Trading Techs. Int’l, Inc. v. IBG LLC, 921
F.3d 1378, 1385 (Fed. Cir. 2019).

19a
the ’541 patent issued on September 2, 2014, almost three
years after passage of the AIA and almost two years
after the first IPR proceedings began. See Leahy-Smith
America Invents Act, Pub. L. No. 112-29, § 6(c)(2)(A), 125
Stat. 284, 304 (2011) (providing that IPR “shall take
effect upon the expiration of the 1-year period beginning
on the date of the enactment of this Act [Sept. 16, 2011]”).
That Arthrex filed its patent applications prior to passage of the AIA is immaterial. As the Supreme Court
has explained, “the legal regime governing a particular
patent ‘depend[s] on the law as it stood at the emanation
of the patent, together with such changes as have since
been made.’ ” Eldred v. Ashcroft, 537 U.S. 186, 203
(2003) (quoting McClurg v. Kingsland, 42 U.S. 202, 206
(1843)). Accordingly, application of IPR to Arthrex’s
patent cannot be characterized as retroactive.
In any event, even if Arthrex’s patent had issued prior
to the passage of the AIA, our court recently rejected
arguments similar to Arthrex’s in Celgene Corp. v. Peter,
No. 18-1167, 2019 WL 3418549, at *12-16 (Fed. Cir. July
30, 2019). As we explained, pre-AIA patents issued subject to both district court and Patent Office validity proceedings. Though IPR differs from these existing proceedings, we held that the differences between IPRs and
the district court and Patent Office proceedings that
existed prior to the AIA are not so significant as to
“create a constitutional issue” when IPR is applied to
pre-AIA patents. Id. at *15; see also id. at *12 & n.13
(affirming that our prior decisions ruling that retroactive
application of reexamination does not violate the Fifth
Amendment, the Seventh Amendment, or Article III
“control the outcome” of similar challenges to IPR).
When Arthrex’s patent issued, it is beyond dispute that
patent owners expected that “the [Patent Office] could

20a
reconsider the validity of issued patents on particular
grounds, applying a preponderance of the evidence
standard.” Id. at *16. Consequently, even if Arthrex’s
patent pre-dated the AIA, application of IPR to the ’541
patent would not create a constitutional challenge.
CONCLUSION
We have reviewed the parties’ remaining arguments
and find them unpersuasive. We therefore affirm the
Board.
AFFIRMED

21a
APPENDIX B
UNITED STATES PATENT
AND TRADEMARK OFFICE
————
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
————
SMITH & NEPHEW, INC.
AND ARTHROCARE CORP.,

Petitioner,
v.
ARTHREX, INC.,
Patent Owner.
————
Case IPR2016-00918
Patent 8,821,541 B2
————
FINAL WRITTEN DECISION
35 U.S.C. § 318(a); 37 C.F.R. § 42.73
Incorporating Decision on
PATENT OWNER’S MOTION
TO EXCLUDE EVIDENCE
35 U.S.C. § 318(a); 37 C.F.R. § 42.73
Paper 42
————
Entered: October 16, 2017
————
Before WILLIAM V. SAINDON, BARRY L.
GROSSMAN, and TIMOTHY J. GOODSON,
Administrative Patent Judges.

22a
GROSSMAN, Administrative Patent Judge.
I. INTRODUCTION
Petitioner requested an inter partes review of claims
10 and 11 of U.S. Patent No. 8,821,541 B2 (Ex. 1101, “the
’541 patent”). Paper 2 (“Petition” or “Pet.”). Patent
Owner filed a Preliminary Response to the Petition.
Paper 8 (“Prelim. Resp.”). Claims 10 and/or 11 were
challenged under four separate and distinct grounds.
Pet. 8-9. We instituted review on three of the four
grounds. Paper 9, 14 (“Dec. Inst.”). We instituted a trial
on the following grounds:
1. Whether claims 10 and 11 would have been obvious under 35 U.S.C. § 103(a)1 in view of Gordon2 and
West3;
2. Whether claim 11 is anticipated under 35 U.S.C.
§ 102(b) by Curtis4; and
3. Whether claim 10 would have been obvious under
35 U.S.C. § 103(a) in view of Curtis, Overaker5, and DiPoto6.

1

The Leahy-Smith America Invents Act (“AIA”), Pub. L. No. 112-29,
125 Stat. 284, 296-07 (2011), took effect on September 16, 2012. Because the application for the patent at issue in this proceeding has an
effective filing date before that date, we refer to the pre-AIA versions of the statute.
2
U.S. Pub. No. 2006/0271060 A1, published Nov. 30, 2006, filed May
26, 2006 (Ex. 1105).
3
U.S. Patent No. 7,322,978 B2, issued Jan. 29, 2008, filed June 22,
2004 (Ex. 1106).
4
U.S. Patent No. 5,464,427, issued Nov. 7, 1995 (Ex. 1107).
5
U.S. Pub. No. 2003/0187444 A1, pub. Oct. 2, 2003, filed Mar. 29,
2002 (Ex. 1124).
6
U.S. Patent No. 5,690,676, issued Nov. 25, 1997 (Ex. 1125).

23a
Patent Owner filed a Response to the Petition (Paper
15, “PO Resp.”), and Petitioner filed a Reply (Paper 19,
“Pet. Reply”).
Petitioner submitted 77 exhibits, including demonstratives used at the hearing (Exs. 1101-1170, 1172-1178).
Paper 36. Patent Owner submitted 52 exhibits, including
demonstratives used at the hearing (Exs. 2001-2043,
2045-2053). Paper 31.
Patent Owner filed a Motion to Exclude Certain Evidence. Paper 32. Petitioner filed an Opposition to the
Motion to Exclude. Paper 35. Patent Owner Filed a
Reply. Paper 35.
A hearing was held July 19, 2017. Paper 38 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. We enter
this Final Written Decision pursuant to 35 U.S.C. § 318(a)
and 37 C.F.R. § 42.73.
Petitioner has the burden of proving unpatentability
by a preponderance of the evidence. 35 U.S.C. § 316(e).
Based on the findings and conclusions below, we determine that Petitioner has met its burden to establish that
claims 10 and 11 are unpatentable.
We deny Patent Owner’s Motion to Exclude as moot.
A. Related Matters
As required by 37 C.F.R. § 42.8, the parties informed
us that the ’541 patent has been asserted in the U.S. District Court for the Eastern District of Texas, Arthrex,
Inc. v. Smith & Nephew, Inc., Civil Action No. 2:2015-cv01047 (E.D. Tex. Filed June 17, 2015) Pet. 7; Paper 5, 2.
In its Response, Patent Owner informed us of a change in
the status of this litigation. Patent Owner stated that:
Since the institution of this Inter Partes Review, the
District Court for the Eastern District of Texas en-

24a
tered judgment (Ex. 2030) holding challenged claims
10 and 11 of U.S. Patent 8,821,541 (“the ’541 Patent”)
willfully infringed by Petitioners and valid over the
Gordon, West and Curtis prior art asserted against
the ’541 Patent here.
PO Resp. 6. Patent Owner’s Response was filed January
13, 2017. Exhibit 2030, cited by Patent Owner, is a onepage Judgment from the District Court, entered December 12, 2016, stating, in part, that “[c]laims 10 and 11 of
the ’541 Patent . . . are found not invalid.” Ex. 2030. The
Judgment was entered following a jury verdict. Ex. 3001.
Patent Owner, however, has not directed us to any evidence in this inter partes review proceeding supporting
its assertion that the evidence and arguments before the
District Court were the same evidence and arguments
asserted by Petitioner in this inter partes review proceeding.
Following the jury verdict, all claims and counterclaims asserted between Plaintiff Arthrex, Inc. (Patent
Owner in this inter partes review) and Defendants Smith
& Nephew, Inc. and ArthroCare Corp. (Petitioners in
this inter partes review) were dismissed with prejudice.
Ex. 3002 (“Dismissal”). The Dismissal was based on a
Joint Stipulated Motion for Dismissal with Prejudice
filed by the parties on February 13, 2017. Ex. 3003. The
Joint Stipulated Motion was filed while post-trial motions
were pending. See e.g., Ex. 3004, 10 (Sealed Motion—
Defendants’ Renewed Motion for Judgment as a Matter
of Law, or in the Alternative, for a New Trial, as to Patent Invalidity by ArthroCare, Corp., Smith & Nephew,
Inc., District Court docket entry No. 328, entered January 9, 2017). Thus, the Judgment from the District Court
entered December 12, 2016 (Exhibit 2030) effectively

25a
was replaced by the Dismissal entered February 13, 2017
(Ex. 3002).
At the July 19, 2017 hearing, approximately five
months after the February 13, 2017 settlement and dismissal in the District Court, Counsel for Patent Owner
referred to the District Court Judgment but failed to inform us that the Judgment entered December 12, 2016
(Exhibit 2030) effectively was replaced by the Dismissal
entered February 13, 2017 (Ex. 3002). See Tr. 53:10-12
(“I will say that we do have a judgment from the court in
Texas . . .”).
There are several related petitions for inter partes
review: IPR2016-00505 (involving U.S. Patent No.
8,343,186, the parent of the ’541 patent), IPR2016-00506
(involving U.S. Patent No. 8,623,052, a child of the ’186
patent), and IPR2016-00507 and 508 (involving U.S.
Patent No. 8,801,755, a child of the ’052 patent). Pet. 7;
Paper 5, 1. All four of these related proceedings were
terminated as a result of a settlement. See, e.g., Smith &
Nephew, Inc. et al v. Arthrex, Inc., IPR201 6-00505,
Order Granting Joint Motion to Terminate (PTAB Oct.
19, 2016) (Paper 18).
There are also a number of related patents and patent
applications not presently at issue. Pet. 7; Paper 5, 2.
B. The ’541 Patent
The ’541 patent discloses and claims a suture anchor.
A suture anchor is a medical-grade device that mechanically reattaches soft tissue, such as tendons and ligaments, to its supporting bone. Ex. 1101, 1:32-33; Ex.
2010 ¶ 47. Suture anchors are a sophisticated, nuanced,
and highly developed medical technology. Id. at 1:40-57;
see also id. at 2-4 (listing under “References Cited” 3

26a
pages, with 2 columns per page, of U.S. and foreign patent documents and other publications).
In general use, all suture anchors perform a similar
function: one end of the anchor is screwed into or otherwise connected to the supporting bone; suture material is
threaded through or otherwise attached to the anchor;
and the suture material is connected to the soft tissue.
Ex. 1103 ¶ 33, 44. In general, all suture anchors also have
a similar structure: a mechanism for holding the suture
anchor in the bone, such as threads or barbs; and a
mechanism for attaching the suture material to the
anchor, such as suture passages, connecting posts, or
frictional locks. See id. at ¶¶ 39-43 (illustrating and discussing numerous prior suture anchor designs). Four
such exemplary prior art suture anchors are shown below.

Excerpt from Ex. 1103 ¶ 39 showing
four prior art suture anchors.
The following illustration shows a commercially available implanted suture anchor using sutures to connect
soft tissue to bone. See Ex. 1158, 2.7
7

Ex. 1158 is a brochure illustrating a Smith & Nephew SpeedScrew
suture anchor. It is cited to illustrate a suture anchor in use. It is
not cited to illustrate features of the claimed invention. We have not

27a

Illustration from Ex. 1158, 2 showing an implanted
suture anchor connecting soft tissue to bone.
The suture anchor used in the illustration above is
shown in the two illustrations below.

Commercial suture
anchor. Ex. 1158, 3.8

Commercial suture
anchor threaded with
suture mounted on
implantation device.
Ex. 1158, 1.

been directed to any evidence in the record before us of any similar
illustration for a commercial product sold by Patent Owner that illustrates the claimed invention in use.
8
See also Ex. 2010 ¶ 86 (showing images of two products commercialized by Patent Owner on top of a U.S. penny to show relative size of
a suture anchor).

28a
We now turn to the suture anchor disclosed in the ’541
patent.
The ’541 patent discloses three distinct embodiments.
A first embodiment is illustrated in Figures 1-4 (e.g., Ex.
1101, 2:53-67); a second embodiment is illustrated in Figures 5-8 (e.g., id. at 2:1-10); and a third embodiment is
illustrated in Figures 9-12 (e.g., id. at 11-18).
Petitioner asserts, without dispute by Patent Owner,
that the challenged claims are directed only to the second
embodiment, disclosed in Figures 5-8 and the related text
of the Specification. E.g., Pet. 2 (“the challenged claims
are directed to a second embodiment,” citing “Figs. 5-8”);
see also PO Resp. 9-10 (acknowledging that claims 10 and
11 do not read on the first embodiment).
Challenged claims 10 and 11 each recite first, second,
and third suture openings. See Ex. 1101, 8:3-7; 8:38-44.
As explained below, the second embodiment is the only
embodiment with first, second, and third suture openings, as claimed.
The first embodiment is disclosed in Figures 1-4. E.g.,
id. at 3:31-33 (“FIG. 1 illustrates a suture anchor according to a first preferred embodiment”). The first embodiment describes a suture anchor that includes central
cylindrical bore 136 that mates with central “polygonally
shaped bore 134” to form a single continuous bore. E.g.,
id. at 3:55-4:10. Anchor pin 120 extends across the central bore and is supported within diametrically opposite
bores 118 formed in anchor body 108. E.g., id. at 4:14-17.
One or more sutures are threaded into the central bore
134/136 and loop around anchor pin 120, as shown in
Figure 4a. Id. at 4:21-23. The suture enters and exits
anchor body 108 through proximal opening 112 (see Fig.
3), “polygonally shaped bore 134” (Ex. 1101, 3:55-60), and
cylindrical bore 136 (id. at 4:5-10). See also id. at Figs. 4a

29a
and 4c (showing the suture entering and exiting through
the central bore). Opening 112 is the outer edge or lip of
bore 134, and bore 134 mates with bore 136. Thus, there is
only a single opening in anchor body 108, which is the central bore formed by opening 112 and bores 134, 136. This
first embodiment does not have first, second, and third
suture openings, as recited in challenged claims 10 and 11.
The third embodiment is a push-in suture anchor having
suture molded directly into its body. Ex. 1101, 6:9-12.
The anchor is solid and has no suture openings through
which a suture is threaded. See id. at Fig. 10. Thus, this
third embodiment does not have first, second, and third
suture openings, as recited in challenged claims 10 and 11.
Figure 5, shown below, illustrates the second embodiment of a suture anchor according to the disclosed
invention.

Fig. 5 of the ’541 patent is a perspective
view of a suture anchor.
As shown in Figure 5, suture anchor 1 includes
threaded body 3. Rigid support or eyelet shield 9 is
molded transversely into distal part 11 of threaded body

30a
3. Eyelet shield 9 can include a length of suture 90 molded
into threaded body 3. Ex. 1101, 5:18-31. As explained
in the Specification, rather than having an anchor pin
120, as discussed in the first embodiment above, suture
anchor 1 in the second embodiment has eyelet shield 9
molded transversely into distal part 11 of threaded body
3. Id. at 5:23-26. “Eyelet shield 9 is shown as a bar.” Id.
at 5:26-27.
In the disclosed second embodiment, two strands of
sutures 5, 7 are threaded around eyelet shield 9 and
threaded into suture passage 94. Id. at 5:37-39. Suture
passage 94 may be on opposing sides of shield 9. Id. at
5:40-41, Figure 7a.
Petitioner provides the following annotated versions of
Figures 5 and 7a of the ’541 patent, illustrating the first
second and third openings recited in the challenged
claims:

Pet. 4. The annotations identify three openings through
which suture passes. The first opening is bore 15 or
opening 92. Ex. 1101, 5:42-48 (“The bore 15 extends from
the proximal end 92 of the suture anchor 1 to a location

31a
roughly halfway along the anchor body 1. . . . the bore
15 has an opening at the proximal end 92 of the suture
anchor”). The second and third openings are suture passages 94 on opposing sides of shield 9.
Shield 9 provides a bearing surface around which sutures are threaded. Id. at 5:41-42. Sutures are threaded
through central bore 15 (see Figs. 7a and 8) and disposed
about shield 9, with suture ends 306 and 308 extending
out of proximal end 92 of anchor 1. Id. at 5:42-45; see
Fig. 7b. Bore 15 has an opening at proximal end 92, with
the opening shaped to accommodate driver 300 for driving
the suture anchor. Id. at 5:47-50.
C. Challenged Claims
Petitioner challenges independent claims 10 and 11.
Claim 10 is reproduced below.
10. A structure anchor assembly comprising an anchor body including a longitudinal axis, a proximal
end, a distal end, and a central passage extending
along the longitudinal axis from an opening at the
proximal end of the anchor body through a portion of
a length of the anchor body, wherein the opening is a
first suture opening, the anchor body including a second suture opening disposed distal of the first suture
opening, and a third suture opening disposed distal of
the second suture opening, wherein a helical thread
defines a perimeter at least around the proximal end
of the anchor body;
a rigid support extending across the central passage,
the rigid support having a first portion and a second
portion spaced from the first portion, the first portion
branching from a first wall portion of the anchor
body and the second portion branching from a second

32a
wall portion of the anchor body, wherein the third
suture opening is disposed distal of the rigid support;
at least one suture strand having a suture length
threaded into the central passage, supported by the
rigid support, and threaded past the proximal end of
the anchor body, wherein at least a portion of the at
least one suture strand is disposed in the central passage between the rigid support and the opening at
the proximal end, and the at least one suture strand
is disposed in the first suture opening, the second suture opening, and the third suture opening; and
a driver including a shaft having a shaft length,
wherein the shaft engages the anchor body, and the
suture length of the at least one suture strand is
greater than the shaft length of the shaft.
Ex. 1101, 7:58-8:28.
Independent claim 11 is similar to claim 10. There are
three substantive differences between claims 10 and 11:
(1) Claim 10 recites a “helical thread” around the
proximal end of the anchor body (id. at 8:7-8); claim 11
does not recite a “helical thread;”
(2) Claim 11 recites that the “rigid support” is “integral with the anchor body” (id. at 8:45); claim 10 does not
recite an “integral” relationship between the rigid support and anchor body;
(3) Claim 11 does not recite the “driver” recited in the
last clause of claim 10.
II. ANALYSIS
A. Claim Construction
We interpret the claims of an unexpired patent using
the broadest reasonable interpretation in light of the
specification of the patent. 37 C.F.R. § 42.100(b); Cuozzo

33a
Speed Techs., LLC v. Lee, 136 S. Ct. 2131, 2144-46 (2016).
Under that standard, and absent any special definitions,
we give claim terms their ordinary and customary meaning, as would be understood by one of ordinary skill in
the art at the time of the invention. In re Translogic
Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007). The correct inquiry in giving a claim term its broadest reasonable interpretation in light of the specification is “an
interpretation that corresponds with what and how the
inventor describes his invention in the specification, i.e.,
an interpretation that is ‘consistent with the specification.’ ” In re Smith Int’l, Inc., No. 2016-2303, 2017 WL
4247407, at *5 (Fed. Cir. Sept. 26, 2017). The broadest
reasonable interpretation differs from the “broadest possible interpretation.” Id. Any special definitions for
claim terms must be set forth with reasonable clarity,
deliberateness, and precision. In re Paulsen, 30 F.3d
1475, 1480 (Fed. Cir. 1994).
We are careful, however, not to cross that “fine line”
that exists between properly construing a claim in light
of the specification and improperly importing into the
claim a limitation from the specification. Comark Commc’ns, Inc. v. Harris Corp., 156 F.3d 1182, 1186 (Fed. Cir.
1998) (“We recognize that there is sometimes a fine line
between reading a claim in light of the specification,
and reading a limitation into the claim from the specification.”).
Petitioner proposes constructions for the terms, “suture opening,” “rigid support,” “central passage,” “suture
passage,” “branching from,” and “a rigid support integral
with the anchor body to define a single-piece component.”
Pet. 19-24. Patent Owner agrees that construing several
of these terms “is necessary to resolve the controversy.”
PO Resp. 8; see also id. at 8-17 (proposing constructions

34a
for the terms “rigid support,” “branching from,” and
“rigid support integral” proposed by Petitioner, as well
as the term “helical thread”).
We did not specifically construe any claim terms in our
Decision to Institute. Dec. Inst. 6.
Because claim construction is based on how a term
would be understood by a person of ordinary skill in the
art, we first determine the ordinary skill level.
1. Level of Ordinary Skill
The level of skill in the art is “a prism or lens” through
which we view the prior art and the claimed invention.
Okajima v. Bourdeau, 261 F.3d 1350, 1355 (Fed. Cir. 2001).
Factors pertinent to a determination of the level of
ordinary skill in the art include: (1) educational level of
the inventor; (2) type of problems encountered in the art;
(3) prior art solutions to those problems; (4) rapidity with
which innovations are made; (5) sophistication of the
technology, and (6) educational level of workers active in
the field. Environmental Designs, Ltd. v. Union Oil Co.,
713 F.2d 693, 696-697 (Fed. Cir. 1983) (citing Orthopedic
Equip. Co. v. All Orthopedic Appliances, Inc., 707 F.2d
1376, 1381-82 (Fed. Cir. 1983)). Not all such factors may
be present in every case, and one or more of these or
other factors may predominate in a particular case. Id.
Moreover, these factors are not exhaustive but are merely
a guide to determining the level of ordinary skill in the
art. Daiichi Sankyo Co. Ltd, Inc. v. Apotex, Inc., 501
F.3d 1254, 1256 (Fed. Cir. 2007). Additionally, the Supreme Court informs us that “[a] person of ordinary skill
is also a person of ordinary creativity, not an automaton.”
KSR Int’l v. Teleflex Inc., 550 U.S. 398, 421 (2007).

35a
Neither party presents a detailed evidentiary showing
of factors typically considered in determining the level of
ordinary skill.
Petitioner asserts that a person of ordinary skill in the
relevant technology would have had “(a) a master’s degree in mechanical engineering or a bachelor’s degree in
mechanical engineering along with two or more years of
experience designing suture anchors; or (b) a medical
degree and several years of experience performing surgeries that involve suture anchors and/or advising engineers on suture anchor design.” Pet. 18-19 (citing Ex.
1103 ¶¶ 24-26). Exhibit 1103 is a 152 page declaration
from Mark A. Ritchart.9 Mr. Ritchart’s declaration testimony merely repeats the level of skill asserted by Petitioner without any analysis or discussion of the underlying facts or data on which his opinion is based. We give
his testimony some, but little, evidentiary weight. 37
C.F.R. § 42.65(a).
Patent Owner does not assert a level of ordinary skill
to apply in this proceeding, nor does Patent Owner comment on Petitioner’s proposed level of ordinary skill.
At the hearing, Counsel for Petitioner stated his understanding that “there is no dispute over the [ordinary level
of skill] standard that, as we set forth in pages 18 and 19
9

Mr. Ritchart holds a degree in mechanical engineering. He has
been involved in all aspects of designing and testing suture anchors
since at least 1993. Id. ¶ 4. He also served as the President and
Chief Technology Officer of Opus Medical, Inc., a medical device
company that designed, manufactured and marketed soft-tissue-tobone and tissue-to-tissue repair systems, including suture anchors.
Id. ¶ 3. Mr. Ritchart is a named inventor on numerous patents related
to medical devices, including suture anchors. Id. ¶ 4. We determine
that Mr. Ritchart is qualified as an expert by his knowledge, skill,
experience, training, and education to testify in the form of an opinion in this proceeding. Fed. R. Evid. 702.

36a
of our petition, that is the standard.” Tr. 28:19-22. Counsel for Patent Owner did not dispute at the hearing that
the parties agree on Petitioner’s proposed level of ordinary skill. See also Ex. 2010 ¶ 9 (testimony of Patent
Owner’s expert Dr. Ken Gall, Ph.D., testifying that “I
qualify for the POSA standard set forth by Petitioners.”).
In determining a level of ordinary skill, we may also
look to the prior art, which may reflect an appropriate
skill level. Okajima, 261 F.3d at 1355.
Based on the record before us, we adopt Petitioner’s
proposed level of skill. A person of ordinary skill in the
relevant technology would have had (a) a master’s degree
in mechanical engineering or a bachelor’s degree in
mechanical engineering along with two or more years of
experience designing suture anchors; or (b) a medical degree and several years of experience performing surgeries that involve suture anchors and/or advising engineers on suture anchor design.
We now turn to construction of disputed claim terms.
2. Suture Opening
Petitioner asserts that the broadest reasonable interpretation of “suture opening” is “an open space serving
as a passage or gap, or a breach or aperture, through
which a suture passes.” Pet. 19. Patent Owner does not
propose a specific construction for this term, nor does
Patent Owner comment on Petitioner’s proposed construction.
a. The Claims
The claim construction inquiry “begins and ends in all
cases with the actual words of the claim.” Renishaw PLC
v. Marposs Società per Azioni, 158 F.3d 1243, 1248 (Fed.
Cir. 1998) (citations omitted). “[T]he resulting claim
interpretation must, in the end, accord with the words

37a
chosen by the patentee to stake out the boundary of the
claimed property.” Id. Thus, we begin with the words of
the claims.
The term “suture opening” is used numerous times
throughout both claims 10 and 11. For example, Claim
10 recites distinct “first,” “second,” and “third” suture
openings:
an anchor body including a longitudinal axis, a proximal end, a distal end, and a central passage extending along the longitudinal axis from an opening at the
proximal end of the anchor body through a portion of
a length of the anchor body, wherein the opening is a
first suture opening, the anchor body including a
second suture opening disposed distal of the first
suture opening, and a third suture opening disposed
distal of the second suture opening,
Ex. 1101, 7:58-8:7 (emphases added). Claim 11 recites
these same three distinct “first,” “second,” and “third”
suture openings. Id. at 8:38-44, 57-59. Although the first,
second, and third suture openings are important elements in issued claims 10 and 11, they are not an emphasized element in the Specification. Other than in the
claims, the term “suture opening” does not appear in the
’541 Specification.
b. The Specification
Although the written description does not use the
term “suture opening,” it refers twice to “suture passages
94.” Id. at 5:37-41 (“. . . sutures 5, 7 are threaded around
the eyelet shield 9 of the distal end 11 of the suture
anchor 1 and threaded into a suture passage 94. In one
example, there is a suture passage 94 on opposing sides
of the shield 9.” (emphases added)). The written descrip-

38a
tion provides no structural or functional distinction between a “passage” and an “opening.”
Petitioner equates “suture openings” with the disclosure of “suture passages.” Pet. 19-20 (“The patent’s description of suture passages 94 is consistent with that
ordinary meaning, and the remainder of the patent contains no disclosure or description that would compel a
narrower meaning of the term ‘opening’ as it is used
in the claims.” (citing Ex. 1103 ¶¶ 121-23)). Mr. Ritchart
essentially repeats Petitioner’s argument without any
additional analysis.
In construing the claims, “[t]he construction that stays
true to the claim language and most naturally aligns with
the patent’s description of the invention will be, in the
end, the correct construction.” Renishaw, 158 F.3d at
1250. Thus, Petitioner’s assertion that the claimed
“openings” are disclosed by passages 94 has some evidentiary support.
Claim 11, however, uses both the term “suture openings” (id. at 8:38-44) and “suture passages” (id. at 8:3844). This suggests that the term “suture opening” has a
meaning separate and distinct from the term “suture
passage.” This is based on “the common sense notion
that different words or phrases used in separate claims
are presumed to indicate that the claims have different
meanings and scope.” Andersen Corp. v. Fiber Composites, LLC, 474 F.3d 1361, 1369 (Fed. Cir. 2007) (quoting
Karlin Tech. Inc. v. Surgical Dynamics, Inc., 177 F.3d
968, 971-72 (Fed. Cir. 1999)); see also Merck & Co. v.
Teva Pharm. USA, Inc., 395 F.3d 1364, 1372 (Fed. Cir.
2005) (“A claim construction that gives meaning to all the
terms of the claim is preferred over one that does not do
so.” (citations omitted)). The preference for giving meaning to all terms, however, is not an inflexible rule that

39a
supersedes all other principles of claim construction.
SimpleAir, Inc. v. Sony Ericsson Mobile Commc’ns AB,
820 F.3d 419, 429 (Fed. Cir. 2016). The prosecution history, which we discuss below, sheds some light on this
issue.
c. Prosecution History
The proceedings in the Patent and Trademark Office
suggest that Applicants used the terms “suture opening”
and “suture passage” interchangeably. During prosecution, Applicants identified suture passages 94 shown
in Fig. 7a as “suture openings.” Pet. 19 (citing Ex. 1102
at 630).
An Amendment submitted on May 21, 2014 (Ex. 1102,
617-633) laid the substantial foundation for the eventually
issued claims. In this amendment, new application claims
55 and 59 were submitted, which eventually became patent claims 10 and 11, respectively. Id. at 627-628; see also
id. at 727 (showing the concordance between the application (“Original”) claims and the issued (“Final”) claims).
In the May 21 amendment, Applicants also amended
application paragraph 46 to add two references to “suture passage 94.” Ex. 1102, 620 (emphasis added). These
are the same two references to “suture passages 94” that
now appear in the issued patent. See Ex. 1101, 5:37-41.
As filed, neither application paragraph 46, nor any other
portion of the written description, referred to suture passages 94. See, e.g., Ex. 1102, 9-10.
The May 21 amendment also amended Figures 5 and
7a “to show suture strands 5 and 7 threaded through a
suture passage 94.” Id. at 630. The drawings as filed did
not include reference numeral 94. See Id. at 29-33, 36-43.
In describing these drawing changes, Applicants stated
“[r]egarding claims 43 to 44, two suture openings 94 are

40a
shown in Figure 7A. Figures 7a10 and 7b show the path
of claim 44.” Id. at 630 (emphasis added).
Regarding a rejection under Section 11211, Applicants
also stated that “[r]egarding claim 43-44, Figure 7A
shows two suture openings. The suture openings 94 are
disclosed in paragraph 46.” Id. (emphasis added). Here,
Applicants interchange the word “openings” for “passages” in describing element 94. Amended application
claim 43 recited first, second, and third “suture openings.” Id. at 626. Amended application claim 44 recited
first and second “suture openings.” Ex. 1102 at 630. It is
these suture openings that Applicants asserted were
illustrated by suture passages/openings 94.
“The very nature of words would make a clear and unambiguous claim a rare occurrence.” Autogiro Co. of
Am. v. United States, 384 F.2d 391, 396 (Ct. Cl. 1967).
Using different words for the same element compounds
the difficulties of claim interpretation.
d. Construction of “Suture Opening”
Based on our analysis above, including the claims,
written description, and prosecution history, we conclude
that the terms “suture opening” and “suture passage”
represent a distinction without a substantive difference.
We determine that the broadest reasonable interpreta-

10

The issued ’541 patent, like these quoted sentences, refers to both
“Figure 7a” (see Ex. 1101, drawing figures) and to “Figure 7A” (see
id. at 3:4-5, 5:66).
11
The Office Action mailed February 21, 2014, to which Applicants
were responding, rejected claims 42-44 under 35 U.S.C. § 112, first
paragraph, because “[c]laims 42-44 recite a second suture opening
which is not found in the original disclosure therefore it is considered
new matter.” The Examiner did not repeat this rejection in subsequent Office Actions.

41a
tion of both terms is a space through which a suture
passes.
3. Rigid Support
Claims 10 and 11 each recite “a rigid support.” Ex.
1101, 8:9, 8:45.
Petitioner asserts that the broadest reasonable interpretation of the term “rigid support” is “an inflexible part
of the suture anchor that supports a tissue securing
suture.” Pet. 20 (citing Ex. 1103, the testimony of its
expert Mr. Ritchart).
Patent Owner appears generally to agree with Petitioner’s proffered construction. PO Resp. 9 (“Patent
Owner’s expert agrees with Petitioner’s expert regarding
the broadest reasonable construction for the term ‘rigid
support.’ ”). This apparent agreement, however, is based
on Patent Owner’s inaccurate summary of its expert’s,
Dr. Ken Gall’s, testimony12. Patent Owner asserts “Dr.
Gall explains that a ‘rigid support’ as that term is used in
claims 10 and 11 requires an inflexible structure that
withstands the loading on the sutures used to secure tissue after the anchor has been implanted in the patient.”
Id. (citing Ex. 2010 ¶¶ 103-106). In fact, Dr. Gall did not
provide any such explanation or opinion concerning the
construction of the term “rigid support” at the cited para12

Dr. Gall is Chair of the Mechanical Engineering and Materials Science Department at Duke University and a Professor of Orthopedic
Surgery in the School of Medicine. Ex. 2010 ¶ 3. He has a Ph.D. in
mechanical engineering. Id. His publications include peer-reviewed
journal articles on the mechanics of suture anchors. Id. at ¶ 4. Dr.
Gall also has experience in the commercialization of orthopedic medical devices, including a suture anchor. Id. at ¶ 6. We determine that
Dr. Gall is qualified as an expert by his knowledge, skill, experience,
training, and education to testify in the form of an opinion in this
proceeding. Fed. R. Evid. 702.

42a
graphs of Exhibit 2010 on which Patent Owner relies to
support its argument.
Paragraph 103 of Dr. Gall’s testimony summarizes Petitioner’s proposed construction of the term “rigid support.” Ex. 2010 ¶103. Dr. Gall does not state in this paragraph any opinion as to whether he agrees or disagrees
with Petitioner’s proposed construction, whether he
agrees or disagrees with Mr. Ritchart’s declaration testimony concerning the construction of “rigid support,”
nor does he provide his own opinion on the construction
of the term “rigid support.” Id.
Paragraph 104 of Dr. Gall’s testimony summarizes
excerpts from Mr. Ritchart’s deposition testimony. Id.
at ¶ 104. Dr. Gall does not state in this paragraph any
opinion as to whether he agrees or disagrees with Mr.
Ritchart’s deposition testimony, whether he agrees or
disagrees with Mr. Ritchart’s declaration testimony concerning the construction of “rigid support,” nor does he
provide his own opinion on the construction of the term
“rigid support.” Id.
Paragraph 105 of Dr. Gall’s testimony summarizes his
understanding of Petitioner’s Exhibit 1136. Id. at ¶ 105.
Exhibit 1136 is a five page article titled “Cyclic Loading
of Anchor-Based Rotator Cuff Repairs: Confirmation of
the Tension Overload Phenomenon and Comparison of
Suture Anchor Fixation With Transosseous Fixation.”
Ex. 1136, 1. Dr. Gall does not state in Paragraph 105 of
his testimony any opinion as to whether he agrees or disagrees with Petitioner’s proposed construction of “rigid
support,” whether he agrees or disagrees with Mr.
Ritchart’s declaration testimony concerning the construction of “rigid support,” nor does he provide his own
opinion on the construction of this term. Ex. 2010 ¶ 105.

43a
Paragraph 106 of Dr. Gall’s testimony summarizes trial
testimony in a district court of “Petitioners’ expert Dr.
McAllister” regarding the “Curtis support.” Id. at ¶ 106
(citing Ex. 2012, 1268:1-13). Dr. Gall does not state in
Paragraph 106 of his testimony whether he agrees or
disagrees with Petitioner’s proposed construction of “rigid
support” in this inter partes review, whether he agrees
or disagrees with Mr. Ritchart’s declaration testimony
concerning the construction of “rigid support,” nor does
he provide his own opinion on the construction of this
term. Id.
Whether the experts agree or not, Patent Owner asserts a slightly different construction of the term “rigid
support” than asserted by Petitioner. According to Patent Owner, the broadest reasonable interpretation of the
term “rigid support” is “an inflexible, or stiff part that
bears the loading on the tissue securing suture.” PO
Resp. 9 (emphases added). The only evidence cited by
Patent Owner to support its asserted construction is the
testimony of Dr. Gall in paragraphs 103-106 of his Declaration (Ex. 2010), discussed above. Id. As discussed
above, the cited testimony is not persuasive evidence
supporting Patent Owner’s asserted construction of the
term “rigid support.”
In its Reply, Petitioner asserts that “[t]he parties
agree ‘rigid support’ is an ‘inflexible part of the suture
anchor’ that supports the suture.” Pet. Reply 5. It is
Petitioner’s position that the parties “disagree about
whether it [the rigid support] alone must bear the full
load on the suture at all times (Arthrex’s [Patent Owner’s] position), or simply bear some load on the suture at
any time (S&N’s [Petitioner’s] position).” Id. (emphasis
added). Petitioner, however, has not directed us to any
persuasive evidence supporting Petitioner’s characteri-

44a
zation of Patent Owner’s position. We have not been
directed to any persuasive evidence that Patent Owner
argues that the rigid support alone must bear the full
load on the suture at all times. In this proceeding,
Patent Owner has asserted that the meaning of the term
the term “rigid support” is “an inflexible, or stiff part
that bears the loading on the tissue securing suture.” PO
Resp. 9; see also Ex. 1165 ¶ 27 (testimony of Petitioner’s
expert Alexander H. Slocum, Ph.D.13, testifying that in
the Patent Owner Response, Patent Owner “argues that
the BRI of ‘rigid support’ is ‘an inflexible, or stiff part
that bears the loading on the tissue securing tissue”
(citing PO Resp. 9)).
At the hearing, Counsel for Patent Owner appeared to
agree with Petitioner’s construction of the term “rigid
support.” Tr. 55:13-17 (“When I looked at these claim
constructions [on slide 10 of Patent Owner’s demonstrative exhibits [Ex. 2053)]] and read them over and over
again, I didn’t discern much of a difference, if any.”); see
also id. at 56:13-59:12 (Patent Owner’s discussion of claim
construction concluding, for the term “rigid support,”

13

Dr. Slocum is a Professor of Mechanical Engineering at the Massachusetts Institute of Technology (“MIT”). Ex. 1165 ¶ 3. He received
his Bachelor’s, Master’s, and Ph.D. degrees in Mechanical Engineering from MIT. Id. Dr. Slocum has approximately 30 years of experience in casting and molding. Id. at ¶ 6. He has published several
articles and received many patents directed to designs and processes
for casting and molding various components. Id. He also has designed molds for forming components through molding and casting,
ranging in size from fractions of a millimeter (e.g., medical devices,
razor blade edges) to meters in diameter. Id. We determine that
Dr. Slocum is qualified as an expert by his knowledge, skill, experience, training, and education to testify in the form of an opinion in
this proceeding. Fed. R. Evid. 702.

45a
that “I don’t know if there’s much of a difference in terms
of the construction”).
We interpret the term “rigid support” in light of the
Specification, which is a basic tool in reaching a proper
claim construction. In re Smith Int’l, 2017 WL 4247407,
at *5 (“The correct inquiry . . . is an interpretation that
corresponds with what and how the inventor describes
his invention in the specification, i.e., an interpretation
that is ‘consistent with the specification.’ ”) (emphases
added); Retractable Techs., Inc. v. Becton, Dickinson &
Co., 653 F.3d 1296, 1305 (Fed. Cir. 2011) (“In reviewing
the intrinsic record to construe the claims, we strive to
capture the scope of the actual invention, rather than
strictly limit the scope of claims to disclosed embodiments or allow the claim language to become divorced
from what the specification conveys is the invention.”).
This focus on the Specification helps to avoid what has
been called “the curse of . . . claims divorced from the
written description.” Retractable Techs., 653 F.3d at
1311 (Plager, Circuit Judge, concurring). Before considering the Specification, however, we start with the actual
words of the claim. Renishaw, 158 F.3d at 1248.
a. The Claims
Claim 10 recites the location and function of the rigid
support as “a rigid support extending across the central
passage . . . [with] at least one suture strand having a suture length threaded into the central passage, supported
by the rigid support.” Ex. 1101, 8:9, 8:16-17.
Claim 11 similarly recites “a rigid support integral
with the anchor body to define a single-piece component,
wherein the rigid support extends across the suture passage . . . [with] at least one suture strand threaded into
the suture passage, supported by the rigid support.” Id.
at 8:45-47, 8:54-55.

46a
Thus, the recited objective of the “rigid support” is to
support a strand of suture.
b. The Specification
The term “rigid support” is used only in the claims. It
is not used in the Specification.
In the first disclosed embodiment, the structure that
supports the strands of suture is metal anchor pin 120.
Ex. 1101, 4:21-23 (“One or more sutures 200 are secured
to the anchor by looping the suture(s) around metal
anchor pin 120 as shown in FIG. 4a”). Thus, the rigid
support must support the sutures so that they are secured
to the anchor.
In the third embodiment, the suture strands are molded
into the body of the anchor, and thus do not have a separate support equivalent to anchor pin 120 or eyelet shield 9.
In the second disclosed embodiment, rather than having anchor pin 120 as a rigid support for supporting
suture strands, as discussed above, suture anchor 1 has
eyelet shield 9 molded transversely into a distal part 11
of the threaded body 3. Ex. 1101, 5:23-26. Shield 9 provides a bearing surface around which sutures 5, 7 are
threaded and disposed. Id. at 5:41-42. As explained in
the Specification:
The eyelet shield 9 resists suture cut-[sic]. Further,
the shield 9 provides the strength necessary to secure
the sutures 5, 7. In addition, because the eyelet
shield is molded transversely into the distal end of
the suture anchor, this provides greater security to
prevent pull-out of the suture from within the suture
anchor or from an anchor pin, which could loosen.
The eyelet shield also prevents the suture from
fraying.

47a
Id. at 5:51-57 (emphasis added). Thus, eyelet shield 9,
the claimed rigid support, “provides the strength necessary to secure the sutures.” Id. at 5:51-52.
Counsel for Patent Owner acknowledged that nothing
in the Specification or claims establishes how rigid or
flexible the rigid support may be. Tr. 63:19-64:1.
c. Construction of “Rigid Support”
We determine that the construction of the term “rigid
support” that stays true to the claim language, most
naturally aligns with the patent’s written description of
the invention, and is consistent with the other evidence
discussed above is the construction proposed by Petitioner—an inflexible part of the suture anchor that supports a tissue securing suture.
4. Central Passage
The term “central passage” is recited only in claim 10.
Petitioner asserts that the broadest reasonable interpretation of this term is “a central path, channel, or duct of
the anchor body.” Pet. 20. For evidentiary support,
Petitioner relies on the declaration testimony of Mr.
Ritchart (Ex. 1103) and a dictionary definition (Ex. 1121).
Id. at 20-21. Because the proposed interpretation uses
the word “central” to define a “central passage,” Petitioner essentially is asserting a construction of the word
“passage.” Patent Owner does not assert a construction
for this term, nor does Patent Owner comment on the
construction proposed by Petitioner.
a. The Claims
Claim 10 refers to a “central passage” four times. It
recites:
(1) “an anchor body including a longitudinal axis, a
proximal end, a distal end, and a central passage extending along the longitudinal axis from an opening at the

48a
proximal end of the anchor body through a portion of a
length of the anchor body” (Ex. 1101, 7:59-8:3 (emphasis
added));
(2) “a rigid support extending across the central passage” (id. at 8:9 (emphasis added));
(3) “at least one suture strand having a suture length
threaded into the central passage” (id. at 8:16-17 (emphasis added)); and
(4) “wherein at least a portion of the at least one suture strand is disposed in the central passage between
the rigid support and the opening at the proximal end”
(id. at 8:19-21 (emphasis added)).
b. The Specification
The term “central passage” does not appear in the
Specification. The written description of the first embodiment refers to a “central opening” at the proximal end of
the anchor. Ex. 1101, 3:62.
The word “passage” appears only twice in the Specification, referring to “passage 94” disclosed in the context
of the second embodiment. Id. at 5:39-41. The Specification also states that sutures 5, 7 are threaded through
bore 15, are disposed about shield 9, and have ends 306
and 308 that extend out of proximal end 92 of the anchor
1. Id. at 5:42-45; see Figures 7a and 7b. Bore 15 extends
from proximal end 92 of suture anchor 1 to a location
roughly halfway along anchor body 1. Id. at 5:45-47; see
Figures 7a and 8.
c. Construction of “Central Passage”
We determine that the construction of the term “central passage” that stays true to the claim language, most
naturally aligns with the patent’s written description of
the invention, and is consistent with the other evidence
discussed above is a pathway through the center of the

49a
anchor body. The additional claim language in claim 10
locates the central passage along the longitudinal axis of
the anchor body extending from a proximal end opening
through a portion of the anchor body. See id. at 8:1-3.
5. Suture Passage
The term “suture passage” appears only in claim 11.
E.g., see Ex. 1101, 8:33-35. In our analysis of the term
“suture opening” we determined that the terms “suture
opening” and “suture passage” represent a distinction
without a substantive difference. We determined that
the broadest reasonable interpretation of both terms is a
space through which a suture passes.
6. Branching
Claims 10 and 11 each recite first and second portions
of the claimed rigid support “branching” from first and
second wall portions of the anchor body, respectively.
Petitioner asserts the broadest reasonable interpretation
of this “branching” term is “extending.” Pet. 21.
Patent Owner takes a contrary position. According to
Patent Owner, the correct construction of the “branching” limitation is “continuous with the anchor body and
the branching first and second portions of the rigid support spread out or diverge from the respective wall portions.” PO Resp. 14. Patent Owner argues that Petitioner’s proposed construction is wrong because claim 10
already recites “a rigid support extending across the central passage.” PO Resp. 12. According to Patent Owner,
if “branching” simply means “extending” across a gap
then the “extending across a passage” clause in claim 10
becomes redundant, and thus superfluous. Id. Patent
Owner asserts that a claim construction that makes a limitation superfluous or redundant is not proper. Id.

50a
Petitioner argues that interpreting “branching to require the rigid support to be “continuous” is “inconsistent
with the intrinsic evidence and Arthrex’s prior positions.”
Pet. Reply 3. According to Petitioner, if the rigid support
is “continuous” with the anchor body, as recited in both
claims 10 and 11, the additional recitation in claim 11 that
the rigid support also is “integral with the anchor body”
(Ex. 1101, 8:45) becomes redundant and thus superfluous.
Tr. 39, 14-16 (“in our opinion, their construction would
render the integral limitation of Claim 11 entirely superfluous.”).
Thus, the only agreement between the parties is that a
claim construction that renders a claim term redundant
and superfluous is neither correct nor reasonable.
We evaluate these issues and arguments by starting
with the language of the claims.
a. The Claims
Claim 10 recites:
a rigid support extending across the central passage,
the rigid support having a first portion and a second
portion spaced from the first portion, the first portion
branching from a first wall portion of the anchor
body and the second portion branching from a second wall portion of the anchor body.
Ex. 1101, 8:9-14 (emphasis added). Claim 11 is similar,
but additionally recites that the rigid support is “integral
with the anchor body to define a single-piece component.”
Id. at 8:45-46. Thus, claims 10 and 11 each require the
rigid support to have first and second portions that
“branch” from first and second wall portions of the
anchor body, respectively. Claims 10 and 11 also each
require the rigid support to extend across the central or
suture passage. Id. at 8:9, 8:47.

51a
Patent Owner misconstrues Petitioner’s proposed construction. Petitioner’s construction is more limited than
argued by Patent Owner. Petitioner is asserting simply
that the term “ ‘branching’ means ‘extending.’ ” Pet. 21.
Thus, under Petitioner’s construction, the first and second portions of the rigid support branch or extend from
first and second wall portions of the anchor body. Claim
10 and 11 also recites that the first and second portions of
the rigid support extend across the central or suture passage. These two terms are neither redundant nor superfluous, as explained by counsel for Petitioner:
JUDGE SAINDON: Counsel, let me ask you this.
So if you have a hollow cylinder, branching means
it’s coming out from. Under your construction here,
extending across means the two branches connect?
MR. SPEED: Right.
JUDGE SAINDON: And integral means formed all
from the same material?
MR. SPEED: Exactly.
JUDGE SAINDON: Okay.
MR. SPEED: So you could have a pin that branches
from one wall to another and extends across the
entire center of the hollow cylinder. You could conceivably have a pin that only extends partially across
or something along those lines.
JUDGE SAINDON: Okay. So that’s what across
adds[, it’s] that they’re connected as opposed to not?
MR. SPEED: Right. Exactly.
Tr. 37, 5-20 (emphases added).

52a
b. The Specification
The Specification does not use the term “branching
from,” “branching,” “branch,” or a similar word in describing the relationship of the rigid support to the walls
of the anchor body. The written description also does not
refer to first and second portions of the rigid support or
first and second wall portions. Indeed, neither party
directs us to any persuasive evidence in the written
description supporting their position.
Regarding the first disclosed embodiment, the written
description states “[t]wo longitudinal, diametrically opposite apertures 118 are formed in anchor body 108, the
apertures 118 supporting a metal transverse anchor pin
120 which extends across cylindrical bore 136.” Ex. 1101,
4:14-17. Anchor pin 120 is the claimed rigid support in
this embodiment. The only disclosed relationship between anchor pin 120 and the walls of anchor body 108 is
that anchor body 120 is supported by opposing apertures
118 in the anchor body walls.
Regarding the second disclosed embodiment, as discussed above, anchor pin 120 is replaced with eyelet
shield 9 “molded transversely into” anchor body 3. Id. at
5:23-26. There is no disclosure of eyelet shield 9 having
first and second portions. The only disclosed relationship
between eyelet shield 9 and the walls of the anchor body
is that shield 9 is “molded into” anchor body 3. Id. at 5:30.
Figures 1-8 illustrate the rigid support (120 or 9) that
extends from opposing side walls of the anchor body, and
also extends across the central passage or suture passage
i.e., bore 134 or bore 15).
c. Prosecution History
The reference to “branching” and the claim language
about first and second portions of the rigid support and

53a
anchor body walls first appeared in claims in an amendment submitted on May 21, 2014, responding to an Office
Action mailed February 21, 2014. Ex. 1102, 617-636. In
this amendment, the Specification was supplemented extensively. Id. at 618-621. The pending claims also were
amended extensively, some claims were cancelled, and
new claims 50-67 were added. Id. at 622-629. Pending
application claims 1 (id. at 622), 12 (id. at 623), and 39 (id.
at 625) were amended to include the “branching” and
first and second portion language.
In arguing that the amended claims were not anticipated by the Colleran reference (Ex. 1109), Applicants
argued that “Colleran discloses a winding post 62 [a rigid
support] that extends from a single wall 61.” Ex. 1102,
632 (emphasis added). Colleran discloses winding post 62
that extends from wall 61. Ex. 1109, 5:8-9, see in Figs.
2A, 2D. As shown, post 62 is cantilevered from wall 61.
See PO Resp. 11 (“That argument was based on the fact
that Colleran’s winding post 62 is cantilevered from a
single wall 61.”). Thus, the argued distinction is the difference between a rigid support that extends from one
wall portion versus a claimed structure that extends from
two wall portions. This asserted distinction does not require that the broadest reasonable interpretation of the
disputed claim language is that the rigid support is “continuous” with the walls, as proposed by Patent Owner’s
construction.
In arguing that the claims were not anticipated by the
Grafton reference (Ex. 1110), Applicants argued that a
suture “molded inside the suture body” to form an eyelet,
as disclosed in Grafton, was not a structure that included
portions of a rigid body branching from wall portions, as
recited in the claims. Ex. 1102, 632; see also Ex. 1110,
¶ 24 (disclosing that “a strand of suture 8 [is] molded into

54a
the anchor body 4 during manufacture”). This asserted
distinction also does not require that the broadest reasonable interpretation of the disputed claim language is
that the rigid support is “continuous” with the walls, as
proposed by Patent Owner’s construction.
Applicants also argued the Dreyfuss reference14 did
not disclose a structure that included portions of a rigid
body branching from wall portions, as recited in the
claims. Ex. 1102, 632-633. Applicants simply stated this
conclusion without further elaboration.
d. Construction of “Branching”
We determine that the construction of the term
“branching” that stays true to the claim language, most
naturally aligns with the patent’s written description of
the invention, and is consistent with the other evidence
discussed above is simply “extending.”
7. Integral to Define a Single-Piece Component
We addressed the construction of the term “rigid support” above. Claim 11 recites that the claimed “rigid
support” is “integral with the anchor body to define a
single-piece component.” Ex. 1101, 8:45-46. Claim 10
does not have a similar limitation. We now address the
construction of an “integral . . . single-piece component.”

14

For reasons not explained in the materials filed by Petitioner, the
Dreyfuss reference submitted by Petitioner as an exhibit in this proceeding (Ex. 1111) is U.S. Patent App. Pub. No. 2003/0065361. See,
e.g., Paper 33, 2. The Dreyfuss reference applied by the Examiner,
however, was U.S. Patent No. 6,652,563, the patent that issued from
U.S. Patent App. Pub. No. 2003/0065361. Ex. 1102, 494 (“Claims 1,
12, 13, 22, 24, and 28-37 are rejected under pre-AIA 35 U.S.C. 103(a)
as being unpatentable over Dreyfuss (6,652,563) in view of Grafton et
al. (5,964,783).” (emphasis added)). We have added the Dreyfuss
patent to our record as Ex. 3005.

55a
Petitioner asserts that the broadest reasonable interpretation of the phrase “a rigid support integral with
the anchor body to define a single-piece component” is “a
rigid support formed together with the anchor body as a
unitary structure.” Pet. 22. Petitioner relies on the
prosecution history for evidentiary support, asserting
that the Applicants argued that this phrase “cannot cover
separately formed components that are somehow joined
together, even by ultrasonic welding, and instead requires the stated elements to be formed as a unitary
structure.” Id. at 23-24 (citing Ex. 1103 ¶¶ 133-36). The
cited testimony of Mr. Ritchart merely repeats Petitioner’s
argument.
Patent Owner agrees with Petitioner’s proposed construction and prosecution history analysis (PO Resp. 16-17).
Accordingly, we adopt the agreed upon construction.
The phrase “a rigid support integral with the anchor
body to define a single-piece component” means a rigid
support formed together with the anchor body as a unitary structure.
8. Helical Thread
Claim 10 recites that “a helical thread defines a perimeter at least around the proximal end of the anchor
body.” Ex. 1101, 8:7-8. Claim 11 does not include the
“helical thread” term.
Mr. Ritchart testifies as to the basic types of insertion
and fixation mechanisms used in suture anchors at the
time of the claimed invention. Ex.1103 ¶¶ 46-58. These
included screw-type anchors, which used helical threads,
“much like the threads of a wood screw” (id. at ¶¶ 47-55);
tap-in anchors, which are tapped into a predrilled hole in
the bone with a hammer or by hand (id. at ¶¶ 56-57); and
other anchors, which used a toggle-bolt design inserted

56a
into a pre-drilled hole in the bone, and a portion of the
anchor rotated to lock the suture anchor within the bone
hole (id. at ¶ 58).
a. Patent Owner’s Proposal
Patent Owner proposes that the term “helical thread”
should be interpreted to require a helical ridge or raised
surface that facilitates rotary insertion of the anchor
body into bone and serves to retain the anchor in bone.
PO Resp. 15 (citing Ex. 2010 ¶ 119 (emphasis added)).
The cited testimony of Dr. Gall is that “ ‘[t]hread’ is understood by those skilled in the art as an inclined surface
that facilitates advancing one object (e.g., a screw) into
another (e.g., a hole) using a relative rotary motion to
achieve longitudinal displacement.” Ex. 2010 ¶ 119. Dr.
Gall concludes that the term “helical thread” means “a
helical ridge or raised surface that facilitates rotary insertion of the anchor body into bone and serves to retain
the anchor in bone.” Id. at ¶ 120.
Dr. Gall also testifies that he has reviewed the Oxford
Dictionary (Ex. 2008) and the Machinery Handbook (Ex.
2009) definitions of “thread”, which he found to be “consistent with my understanding of how a POSA interprets
that term.” Ex. 2010 ¶ 118.
Relevant to the claimed technology, the Oxford Dictionary defines thread as “a spiral ridge on the outside of
a screw or bolt or on the inside of a hole to allow two parts
to be screwed together.” Ex. 2008 (emphases added).
The Machinery Handbook defines thread as “a portion
of a screw thread encompassed by one pitch.” Ex. 2009
(emphasis added).
b. Petitioner’s Proposal
Petitioner agrees that “ ‘helical thread’ means a ‘helical
ridge or raised surface’ that ‘serves to retain the anchor

57a
in bone,’ but [Petitioner] disagrees with [Patent Owner’s]
assertion that it must ‘facilitate rotary insertion.’ ” Pet.
Reply 1. Petitioner also relies on dictionary definitions
(Id. at 2 (citing Ex. 2009 and Exhibit 1155, 338)) and the
declaration testimony of Dr. Slocum. Id. at 3 (citing Ex.
1165 ¶¶ 34-57).
The definition in Exhibit 2009, the Machinery Handbook, is stated above (“a portion of a screw thread encompassed by one pitch.”). The cited page (338) of Exhibit 1155 is a dictionary definition of “screw thread.” It
defines “screw thread” as “[t]he ridge on the surface of a
cylinder or cone produced by forming a continuous helical or spiral groove of uniform section and such that the
distance between two corresponding points on its contour
measured parallel to the axis is proportional to their relative angular displacement about the axis.” Ex. 1155, 338
(emphasis added).
These various dictionary definitions suggest that, in
the context of the relevant technology, the word “thread”
is generally understood to suggest a spiral or helical
thread of a screw. Although dictionaries may be helpful
in claim interpretation in some cases, the use of a dictionary definition can conflict with a correct claim construction because “there may be a disconnect between the
patentee’s responsibility to describe and claim his invention, and the dictionary editors’ objective of aggregating all possible definitions for particular words. Phillips v. AWH Corp., 415 F.3d 1303, 1321 (Fed. Cir. 2005)
(emphasis added). The broadest reasonable interpretation differs from the “broadest possible interpretation.”
In re Smith Int’l, No. 2016-2303, slip op. at 13.
Dr. Slocum’s testimony on behalf of Petitioner relies
on the dictionaries cited above and other dictionaries.
Ex. 1165 ¶¶ 54-57. He also relies on three prior art pat-

58a
ents. Id. at 34-53. Dr. Slocum concludes that although “a
helical thread may be used to facilitate rotary insertion of
an anchor body into bone, the BRI of helical thread is not
limited to that particular function.” Ex. 1165 ¶ 36. Dr.
Slocum states that it was “known in the art that helical
threads were appropriate for use with suture anchors
that were not rotated into bone.” Id. (emphasis added).
(1)Dr. Slocum’s Review of Prior Patents
Dr. Slocum testified about three prior art patents that
he states support his opinion that it was “known in the
art that helical threads were appropriate for use with suture anchors that were not rotated into bone.” The three
patents are Curtis (Ex. 1107), McDevitt (Ex. 1149), and
Nicholson (Ex. 1161). We discuss Dr. Slocum’s analysis
of these three patents below.
Curtis (Ex. 1107) is asserted as a reference in this proceeding. Curtis is discussed in detail below in Section
II.C.1. Curtis discloses a suture anchor that “presses”
protrusions or barbs into bone to thereby fix the anchor
in the bone. Ex. 1107, 2:34-38. Dr. Slocum (Petitioner’s
expert) testifies that he agrees with Dr. Gall (Patent
Owner’s expert) that Curtis discloses anchors that “are
intended to be inserted, not rotated, into a bone hole.”
Ex. 1165 ¶ 40 (emphasis added). Dr. Slocum notes that
although Curtis is not rotated, Curtis discloses the use of
“protrusions” that may be “threads or barbs.” Id. at ¶ 41
(citing Ex. 1107, claim 7 (emphasis added)).
Curtis discloses “protrusions 5, in the form of barbs
distributed over the full length of the main body to facilitate retention of the suture anchor in cortical bone or
cortical and cancellous bone.” Ex. 1107, 2:20-23. The
written description in Curtis does not disclose that the
“protrusions” can take any form other than “barbs.” The
written description does not mention “threads.” None-

59a
theless, claim 7 in Curtis claims that the “protrusions”
recited in claim 6 are “threads or barbs.” Id. t 4:9-12.
Neither the drawings nor the written description in Curtis show or describe protrusions, whether considered to
be threads or barbs, that are “helical,” as recited in challenged claim 10 of the ’541 patent.
As described above, the cited dictionary definitions
suggest that a person of ordinary skill would understand
that the word “thread” in Curtis’ claim 7 is a spiral or helical thread.
Thus, we find that Curtis supports Dr. Slocum’s opinion that it was known in the art that helical threads were
appropriate for use with suture anchors that were
pressed, not rotated, into bone.
Dr. Slocum also testifies that the McDevitt patent (Ex.
1149), which is “a two part device with an interior stem
(2) and an outer or expanding sleeve (4)” (Ex. 1165 ¶ 44),
and uses “protrusions” in the form of “threads” (id.
at ¶ 45) to secure the anchor in a “predrilled bone hole”
(id. at ¶ 46). We note that McDevitt discloses that the
anchoring element 4, which is the expanding sleeve, may
have “protrusions 53 that may take the form of ribs,
threads, a plurality of raised points or other shapes.” Ex.
1149, 6:39-42 (emphasis added). According to Dr. Slocum, the McDevitt patent “is secured in the bone hole
when the stem is pulled proximally drawing the larger
diameter portion of the stem into the sleeve thereby forcing the sleeve to expand into contact with the surrounding bone.” Id. at ¶ 44.
As discussed above, the cited dictionary definitions
suggest that a person of ordinary skill would understand
that the word “thread” in McDevitt is a spiral or helical
thread.

60a
Thus, we find that McDevitt also supports Dr. Slocum’s opinion that it was known in the art that helical
threads were appropriate for use with suture anchors
that were not rotated into bone.
Dr. Slocum states that Nicholson (Ex. 1161) discloses
an expandable suture anchor that uses screw threads to
engage the bone. Ex. 1165 ¶ 51. As summarized by Dr.
Slocum, Nicholson states that “the threads are not used
for turning the expandable member into the bore.” Id.
(citing Ex. 1161, 18:39-40 (emphasis added)). Rather
than turning the screw threads to facilitate engagement
of bone, the screw threads “facilitate deformation of the
outer portion of the member [only after] the member is
expanded within the bone hole.” Id. (citing Ex. 1161 at
18:39-46).
Thus, we find that Nicholson supports Dr. Slocum’s
opinion that it was known in the art that helical screw
threads were appropriate for use with suture anchors
that were not rotated into bone.
Based on this analysis, Dr. Slocum opines that a person of ordinary skill in the relevant technology would
understand that the “helical thread” recited in claim 10
“need not facilitate rotational insertion of an anchor into
bone.” Id. at ¶ 53 (emphasis added). We agree with this
analysis.
Neither Petitioner nor Dr. Slocum discuss the Specification of the ’541 patent in their claim construction analysis of “helical thread.”
We turn to the claim language and the Specification
for guidance in completing our interpretation of the term
“helical thread.”

61a
c. The Claim
Claim 10 does not refer to “rotary insertion.” It does,
however, refer to a structural feature that facilitates insertion. Specifically, claim 10 recites “a driver including
a shaft having a shaft length” that engages the anchor
body. Ex. 1101, 8:25-26. Claim 10 does not recite the
purpose or function of the driver. To understand the
purpose or function of the claimed driver, we turn to the
written description in the Specification.
d. The Specification
The phrase “helical thread” or the word “helical” does
not appear in the written description. Figures 1 and 5,
however, shown below, clearly illustrate a thread that is
helical.

Figures 1 and 5 of the ’541 patent illustrating a helical
thread around the perimeter of a suture anchor body.
The helical thread shown in Figures 1 and 5 illustrate
one form of retaining the anchor in bone. An alternative
embodiment, shown in Figures 9-12, discloses “a push-in
suture anchor 20” as an alternative to rotary insertion
using helical threads. Id. at 6:9-10.
As explained in the written description, suture anchor
110, shown in Figure 1, is installed using driver 202 “to
drive the anchor into bone.” Ex. 1101, 4:11-13. The written description also states that “driver 202 is rotated to
drive the anchor 110 into the bone until the proximal sur-

62a
face of the anchor 110 is flush with the surface of the
bone.” Id. at 5:3-5 (emphasis added). As an alternative
retaining structure, the suture anchor “need not be
formed as a threaded device, but can also be formed as a
tap-in type anchor.” Id. at 4:35-37. Thus, the Specification, like Mr. Ritchart’s testimony discussed above,
draws a distinction between a screw-type anchor with
helical threads, and a tap-in type anchor.
A similar description is provided for retaining suture
anchor 1, shown in Figure 5. Suture anchor 1 is installed
using driver 300. Id. at 5:64. The distal end of driver 300
is inserted into proximal end 92 of anchor 1, and driver
300 is rotated to drive anchor 1 into the bone until the
proximal surface of anchor 1 is flush with the surface of
the bone. Id. at 6:4-8. The same alternative retaining
structure is disclosed for suture anchor 1 in Figure 5. Id.
at 5:58-62 (“the suture anchor also need not be a threaded
device, but can also be formed as a tap-in type anchor.”).
In light of the alternative “tap-in” insertion disclosed
in the Specification, and the substantial evidence discussed above from Dr. Slocum regarding threaded anchors
that are not inserted by a rotary motion, we are not
persuaded that the “rotational” driver disclosed in the
Specification should be read into the claim term “helical
thread” to require rotary insertion of the claimed anchor.
Various drivers were known in the art. Curtis discloses
the use of a “manipulation instrument” for installing the
suture anchor, but does not provide details about its use
or structure. Ex. 1107, 2:23-26. Non-rotary drivers were
known in the art for inserting anchors. See DiPoto, Ex.
1125, 6:12-16 (“The anchor 16 is then forced axially into
the hole by, for example, the surgeon tapping on the end
of the driver with a mallet or the like. It is not necessary
to rotate the assembly in order to install it in position.”).

63a
DiPoto (Ex. 1125) is discussed in detail in Section II.D.2
below.
In accord with settled practice, “we construe the claim
as written, not as the patentees wish they had written it.”
Chef America, Inc. v. Lamb-Weston, Inc., 358 F.3d 1371,
1374 (Fed. Cir. 2004).
e. Construction of “Helical Threads”
We determine that the construction of the term “helical threads” that stays true to the claim language, most
naturally aligns with the patent’s written description of
the invention, and is consistent with the other evidence
discussed above is the construction proposed by Petitioner—a helical ridge or raised surface that serves to
retain the anchor in bone.
9. Summary of Claim Constructions
The following is a summary of our claim constructions:
“suture opening” and “suture passage”—a space
through which a suture passes;
“rigid support”—an inflexible part of the suture
anchor that supports a tissue securing suture;
“central passage”—a pathway through the center of
the anchor body;
“branching”—extending;
a rigid support “integral with the anchor body to define a single-piece component”—a rigid support formed
together with the anchor body as a unitary structure; and
“helical threads”—a helical ridge or raised surface
that serves to retain the anchor in bone.
We now address the grounds of unpatentability on
which we instituted trial.

64a
B. Obviousness in View of Gordon and West
(Claims 10 and 11)
Petitioner asserts that the subject matter of claims 10
and 11 would have been obvious to a person of ordinary
skill in the art in view of Gordon and West. Pet. 24-43.
Section 103(a) “forbids issuance” of a patent when “the
differences between the subject matter sought to be patented and the prior art are such that the subject matter
as a whole would have been obvious at the time the invention was made to a person having ordinary skill in the art
to which said subject matter pertains.” KSR Int’l Co. v.
Teleflex Inc., 550 U.S. 398, 406 (2007). The question of
obviousness is resolved on the basis of underlying factual
determinations, including: (1) the scope and content of
the prior art; (2) any differences between the claimed
subject matter and the prior art; (3) the level of ordinary
skill in the art; and (4) when available, secondary considerations, such as commercial success, long felt but
unsolved needs, and failure of others. Graham v. John
Deere Co., 383 U.S. 1, 17-18 (1966); see KSR, 550 U.S. at
407 (“While the sequence of these questions might be reordered in any particular case, the [Graham] factors continue to define the inquiry that controls.”). The Court in
Graham explained that these factual inquiries promote
“uniformity and definiteness,” for “[w]hat is obvious is
not a question upon which there is likely to be uniformity
of thought in every given factual context.” Id. at 18.
The Supreme Court made clear that we apply “an expansive and flexible approach” to the question of obviousness. KSR, 550 U.S. at 415. Whether a patent claiming the combination of prior art elements would have
been obvious is determined by whether the improvement
is more than the predictable use of prior art elements
according to their established functions. Id. at 417. To

65a
reach this conclusion, however, it is not enough to show
merely that the prior art includes separate references
covering each separate limitation in a challenged claim.
Unigene Labs., Inc. v. Apotex, Inc., 655 F.3d 1352, 1360
(Fed. Cir. 2011). Rather, obviousness additionally requires that a person of ordinary skill at the time of the
invention “would have selected and combined those prior
art elements in the normal course of research and development to yield the claimed invention.” Id.
Moreover, in determining the differences between the
prior art and the claims, the question under 35 U.S.C.
§ 103 is not whether the differences themselves would
have been obvious, but whether the claimed invention as
a whole would have been obvious. Litton Indus. Products, Inc. v. Solid State Systems Corp., 755 F.2d 158
(Fed. Cir. 1985) (“It is elementary that the claimed invention must be considered as a whole in deciding the
question of obviousness.”); see also Stratoflex, Inc. v.
Aeroquip Corp., 713 F.2d 1530, 1537 (Fed. Cir. 1983)
(“the question under 35 U.S.C. § 103 is not whether the
differences themselves would have been obvious. Consideration of differences, like each of the findings set
forth in Graham, is but an aid in reaching the ultimate
determination of whether the claimed invention as a
whole would have been obvious.”).
“A reference must be considered for everything it
teaches by way of technology and is not limited to the
particular invention it is describing and attempting to
protect.” EWP Corp. v. Reliance Universal Inc., 755
F.2d 898, 907 (Fed. Cir. 1985).
As a factfinder, we also must be aware “of the distortion caused by hindsight bias and must be cautious of
arguments reliant upon ex post reasoning.” KSR, 550

66a
U.S. at 421. This does not deny us, however, “recourse to
common sense” or to that which the prior art teaches. Id.
Against this general background, we consider the references, other evidence, and arguments on which the
parties rely.
1. Scope and Content of the Prior Art
a. Gordon (Ex. 1105)
Gordon discloses devices and methods for securing
sutures to a bone anchor without the requirement of knot
tying. Ex. 1105 ¶ 24. The disclosed knotless anchor includes a bone engaging mechanism, a suture tensioning
mechanism, and a suture locking mechanism. Id. at ¶ 26.
The bone engaging mechanism includes a helical
threaded surface on its distal end that is rotatable to engage adjacent bone. Id. at ¶ 31. Figure 23 from Gordon
is shown below.

Figure 23 from Gordon is a perspective view of a suture
anchor. As shown, the suture anchor includes anchor
body 170 and a “lumen” or bore 172 formed through

67a
anchor body 170. Ex. 1105 ¶ 84. Bore 172 is shown more
clearly in Figure 25A, which is reproduced below.

Figure 25A from Gordon is a cross-sectional view
of the suture anchor shown in Figure 23.
As shown in the figures above, the Gordon suture
anchor includes screw threads 174, “suture locking plug”
176, and “suture lock cable” 178. Id. Suture anchor
body 170 also includes “pulley” 182. Id. Pulley 182 is
disposed in holes 184a and 184b (see Fig. 23). Gordon
does not elaborate further on the specific structure of
pulley 182. Further elaboration of the pulley structure is
provided, however, in then pending patent application
No. 09/781,793, which Gordon incorporates by reference.
Id. at ¶¶ 25, 83. This application was published as U.S.
Pub. No. 2002/0111653 (“Foerster”), which is Exhibit
1108 in this proceeding.
Foerster, incorporated by reference into Gordon, discloses a suture pulley fixed with respect to the anchor
body such that a length of suture may be introduced into
the lumen from the proximal end, looped around pulley,
and passed out of lumen through the proximal end. Ex.
1108 ¶ 22. The suture pulley may be “formed in” a sidewall of the lumen. Id. at ¶ 24 (emphasis added). Where

68a
the anchor body is tubular, the suture pulley is desirably
disposed at a distal end of the tubular body as a rod
transverse to the lumen axis. Id. The rod may rotate
with respect to the anchor body, or may be fixed. Id. Instead of a rod, the pulley may comprise a bridge formed
between two spaced apertures at the distal end of the
tubular body. Id.
Foerster, incorporated by reference into Gordon, discloses specifically that pulley 70 “comprises a pin oriented
transversely to the axis of the suture anchor 46 and located along a sidewall thereof.” Ex. 1108 ¶ 70. As shown
in Figure 4A of Foerster, pin 70 may span axial slot 100
or lumen in a sidewall of anchor body 54. Id. Foerster
also discloses that, alternatively, two axially spaced holes
with chamfered or rounded edges may be formed in the
sidewall of the anchor body 54 through which the free
ends 34a, 34b can be threaded. Id. Foerster also discloses
that pin-type pulley 70 can be formed separately from
anchor body 54, and then be inserted within a pair of facing holes in the edges of the slot or lumen 100 so that pintype pulley 70 rotates within the holes, thus reducing
friction between the free ends 34a, 34b and the pulley. Id.
Returning to the Gordon reference, Gordon discloses
that a driver, such as hex drive 186, is used to screw
suture anchor 168 into bone for the purpose of creating a
suture attachment point. Ex. 1105 ¶ 84. Screw threads
174 retain suture anchor 168 in the bone. Id.
The suture material, shown as suture strand 198, is
threaded in lumen or bore 172 and around pulley 182.
Ex. 1105 ¶ 86. As shown in Figure 25A, there is clearance
between the walls of lumen 172 and suture strand 198
that allow suture strand 198 to move freely within lumen
172 and around the pulley 182. Id. at ¶ 87.

69a
The next step in Gordon is to provide tension to the
suture strand using the suture tensioning mechanism. In
this step, the suture may be “tensioned” to approximate
the soft tissues to be attached to the bone. Id. The tensioning step involves the surgeon tensioning the suture
“in order to approximate the tendon 22 to the adjacent
bone.” Id. at ¶ 74; see also id. at ¶ 75 (“thus cinching the
suture in order to tension it and therefore approximate
the tendon 22 to the bone 26”). When the suture is
cinched to a desired level, the “suture cinching mechanism” will “maintain the suture tension.” Id. at ¶ 75. Thus,
a tension load is applied and maintained on the pulley.
The next step is to lock the suture stands in place with
the suture locking mechanism. Suture locking plug 176
includes tapered locking surface 192 (see Figs. 25A, B,
C), weld hole 194, and travel stop 196. Ex. 1105 ¶ 85.
Suture lock cable 178 is inserted into locking plug 176 so
that the distal end of cable 178 is visible through weld
hole 194. Id. Suture lock cable 178 and locking plug 176
may be joined together using a weld in weld hole 194 or
by other suitable means. Id. As described below, however, the connection between lock cable 178 and locking
plug 176 is breakable; the two parts separate on actuation of the suture locking mechanism.
The suture locking mechanism is actuated by pulling
on suture lock cable 178. Id. The suture locking plug is
movable within the lumen from a first position to a second
position. The suture locking plug does not interfere with
axial movement of the length of suture in the first position and does interfere with axial movement of the length
of suture in the second position, by compressing the
length of suture against the anchor body.
As shown in figure 25B, when actuated, locking plug
176 is forced into the lumen 172. At this point, tapered

70a
locking surface 192 is in intimate contact with suture
strand 198. Id. Locking plug 176 fills lumen 172 such
that a frictional lock between lumen 172, plug 176, and
suture 198 is created. Id.
As indicated in Figure 25C by the absence of suture
lock cable 178, cable 178 includes a point of tensile weakness permitting it to be detached from the locking plug.
Once actuated and pulled as described above, suture lock
cable 178 is no longer attached to plug 176. Ex. 1105 ¶ 88.
The frictional force between lumen 172, plug 176, and
suture 198 overcomes the tensile strength of the weld or
other attachment, described above, between lock cable
178 and plug 176. Id. This leaves knotless suture anchor
168 and suture 198 in place, securing the tissues. Id.
Travel stop 196 is disposed on plug 176 to prevent it from
being pulled completely through lumen 172. Id.
b. West (Ex.1106)
Figure 1 of West is shown below.

Figure 1 from West is a perspective
view of a suture anchor.

71a
As shown in Figure 1, West discloses suture anchor 10
having hollow anchor body 12 that extends between proximal end 14 and a distal end 16. Ex. 1106, 4:39-41. Distal
end 16 has a non-threaded portion that forms stabilizing
extension 18 that prevents lateral movement of anchor
body 12 within bone tissue. Id. at 4:41-44. Anchor body
12 also has a threaded portion, which includes threads 20
for engaging bone tissue. Id. at 4:44-46.
Proximal end 14 includes opening 30, which provides
access to hollow interior bone 30 of anchor body 12. Id.
at 4:4447-48. Hex socket 22 is formed in bore 30, which
allows suture anchor 10 to be driven into a bone using a
hex driver. Id. at 4:48-51.
Transverse pins 23a and 23b are disposed through
anchor body 12 and provide attachment points for sutures. Id. at 4:53-55. Pins 23a and 23b are formed or
inserted in anchor body 12 lying across bore 30. Id. at
5:58-60 (emphasis added). West discloses that in manufacturing bone anchor 10,
anchor body 12 and posts 23 can be cast and formed
in a die. Alternatively anchor body 12 can be cast or
formed and posts 23a and 23b inserted later. For
instance, anchor body 12 can be cast and formed
from PLLA. Anchor body 12 can then be drilled to
prepare holes for stainless steel pins 23a and 23b.
Id. at 7:41-47 (emphases added). The alternative option
described in the second sentence, that the pins are “inserted later,” suggests that the primary option, described
in the first sentence, does not have the pins inserted later.
Pins 23a and 23b are placed below hex socket 22 so a
hex driver can be inserted without hitting the pins. Id. at
6:20-22. An advantage of this position for the pins is that
forces applied by sutures 36 are transferred to a more

72a
central location within anchor body 12, and thus these
forces are less likely to cause anchor 10 to become loosened or dislodged. Id. at 6:17-20. Although West discloses and illustrates the use of two pins, West also discloses more or fewer pins may be used depending on the
required number of sutures and/or the space available
within bore 30 for placing more sutures. Id. at 6:26-36.
2. Differences Between the Claimed Subject Matter and the Prior Art
Petitioner asserts that Gordon discloses a suture
anchor having an anchor body with a central passage, a
rigid support for the suture, a suture, and three openings, as depicted in Petitioner’s annotated versions of
Figures 25B and 23 of Gordon, reproduced below:

Pet. 33. Petitioner’s annotated version of Figure 25B
depicts a cross section of Gordon’s anchor. Petitioner’s
annotated version of Figure 23 depicts a perspective view
of Gordon’s anchor.
According to Petitioner, two claim elements are missing from Gordon. The first missing element is helical
threads defining a perimeter at least around the proximal
end of the anchor body. Pet. 28. In Gordon, the proximal
end of the anchor body is a male drive head, precluding
the presence of threads at the proximal end. Id.; see, e.g.,

73a
Ex. 1105, Fig. 23. Petitioner asserts that substituting an
internal hex drive socket, as shown in West, would allow
for the presence of threads on the proximal end, and
would have been a known and predictable substitution.
Pet. 28. Further, the socket in West “provides the bone
anchor with the ability to better engage the cortical bone
near the surface of the bone,” due to the extra threads.
Ex. 1106, 2:65-67; Ex. 1103 ¶¶ 162-166.
The second missing element, according to Petitioner,
is to manufacture Gordon using a casting process, such as
to make the rigid support (the pin around which the
suture is threaded) an integral component of the anchor
body. Pet. 28-30. This identified difference is relevant
only to claim 11, which recites that the rigid support is
“integral with the anchor body to define a single-piece
component.” Petitioner asserts it would have been obvious to manufacture Gordon’s suture anchor by forming
anchor body 170 and pulley 182 in Gordon (i.e., the
asserted “rigid support”) using a casting process. Id. at
28. According to Petitioner, the “casting process” would
have resulted in pulley 182 being “integral” with anchor
body 170 and a pulley integral with the anchor body as a
“fixed structure.” Id. at 29 (citing Ex. 1103 ¶ 167).
We note, however, that claim 11 does not recite or otherwise refer to a “casting process.” It recites only “a rigid
support integral with the anchor body to define a singlepiece component.” Ex. 1101, 8:45-46. The only reference
to casting in the Specification is that “[i]n manufacturing
the suture anchor 110 in accordance with the present
invention, the anchor body 108 is cast in a die, with the
bores, passageways and apertures described above either
being formed during the casting process or formed afterwards.” Id. 4:42-46.

74a
According to Petitioner, West describes a similar anchor
body having pins over which sutures are threaded, and
that West describes making the anchor using a casting
process. Id. at 28-29. Petitioner also asserts that this
implementation is consistent with Gordon because Gordon incorporates Foerster, which describes how a pulley
(like Gordon) may be a “fixed structure.” Id.
Concerning a rationale for the proposed modifications,
Petitioner asserts several other reasons to cast the structures, because it would minimize the materials used
(allegedly useful in FDA approvals), because casting was
well known, and because this would be more secure than
an attached support. Id. at 29-30 (citing Ex. 1103 ¶¶ 169171, 210).
Patent Owner takes a different view of the scope and
content of the asserted references, the differences between the asserted references and the claimed invention,
and the asserted reasons for combining the references,
which we address in detail below.
3. Discussion
a. Helical Threads Around the Proximal End
(Claim 10)
Claim 10 recites that “a helical thread defines a perimeter at least around the proximal end of the anchor
body.” According to Petitioner, “[t]he only feature [recited
in claim 10] arguably not expressly disclosed in Gordon”
is the “helical thread” limitation. Pet. 30.15
To provide screw threads at the proximal end requires
an internal hex drive, as disclosed in West, rather than an
external hex drive as disclosed in Gordon. See Ex. 2010
15

Petitioner also asserts that “this limitation is arguably met by
Gordon alone” (Pet. 30, fn3) but, nonetheless, challenges patentability of claim 10 in this ground only based on Gordon and West.

75a
¶ 162 (Petitioners’ proposed modification “seeks to replace the external hex drive 186 from Gordon with an
internal hex socket 22 from West. Petitioners make this
modification in order to incorporate the threads 20 from
West at the proximal end of the anchor 168 in Gordon.”
(citations omitted)).
The benefits of having a proximal end socket are
known. The background portion of West explains:
Bone anchors can fail for various reasons. One reason is that existing bone anchors are not threaded to
the proximal end of the anchor where the anchor
meets the surface of the bone in the hard cortical
bone region. In existing bone screws, the proximal
end is not threaded because the driver tool used to
insert the bone anchor fits over a hex shaped protrusion. The hex protrusion cannot extend above the
bone surface so the screw is driven into the bone until
the protrusion is below the surface. Since the protrusion has no threads, the bone anchor does not
engage the bone near the surface, but only the soft
cancellous bone beneath the cortical bone layer. This
feature of existing bone anchors is very problematic
because it prevents a practitioner from placing the
threads of the bone anchor in the harder cortical
bone, which is near the bone surface.
Ex. 1106, 1:50-64.
Patent Owner asserts Gordon is limited to inserting
the suture anchor in “cancellous bone” completely below
the “cortical bone” surface. PO Resp. 19. Cortical bone
is the tough, dense outer layer of bone, whereas cancellous bone is the less dense, airy and somewhat vascular
interior of the bone. Ex. 1105 ¶ 10. There is a clear
demarcation between the cortical bone and cancellous
bone; the cortical bone presents a hard shell over the less

76a
dense cancellous bone. Id. Patent Owner’s clear implication is that there is no reason for Gordon to have threads
around the proximal end of the anchor body.
We note that the ’541 patent does not mention the
word “cortical” or “cancellous” in the Specification or
claims. The ’541 patent written description refers only to
“bone.” E.g., Ex. 1101, 1:25-26 (“The present invention
relates to an apparatus for anchoring surgical suture to
bone.”). The ’541 patent does not differentiate between
cortical and cancellous bone. The word “bone” does not
appear in either claim 10 or 11.
The patentability issue presented is not solely on what
Gordon or West discloses or requires individually. The
patentability issue is whether claim 10 would have been
obvious based on the combined teachings of Gordon and
West.
Gordon and West each disclose a “suture anchor”
assembly, which is what is claimed. Gordon and West
also each disclose the use of screw threads to retain the
suture anchor in bone; they each disclose the use of a
suture strand threaded through a central passage of the
anchor body; they each disclose use of a driver for inserting the screw anchor; and they each disclose a structure
for supporting the suture strand within the anchor body.
Patent Owner’s criticism of the proposed combination
fails to consider that the determination of whether a
claimed invention would have been obvious is based on
what the combined teachings of the references would
have suggested to those of ordinary skill in the art.
MCM Portfolio LLC v. Hewlett-Packard Co., 812 F.3d
1284, 1294 (Fed. Cir. 2015) (“[W]e have consistently held,
as the Board recognized, that ‘[t]he test for obviousness
is not whether the features of a secondary reference may
be bodily incorporated into the structure of the primary

77a
reference; nor is it that the claimed invention must be
expressly suggested in any one or all of the references.
Rather, the test is what the combined teachings of the
references would have suggested to those of ordinary
skill in the art.’ ” (citations omitted; emphasis added)).
Moreover, KSR does not require that a combination
only unite old elements without changing their respective
functions. KSR, 550 U.S. at 416. Instead, KSR teaches
that “[a] person of ordinary skill is also a person of ordinary creativity, not an automaton.” Id. at 421. And it explains that the ordinary artisan recognizes “that familiar
items may have obvious uses beyond their primary purposes, and in many cases a person of ordinary skill will be
able to fit the teachings of multiple patents together like
pieces of a puzzle.” Id. at 420. The rationale of KSR does
not support a theory that a person of ordinary skill can
only perform combinations of a puzzle element A with
a perfectly fitting puzzle element B. ClassCo, Inc. v.
Apple, Inc., 838 F.3d 1214, 1219 (Fed. Cir. 2016). To the
contrary, KSR instructs that the obviousness inquiry requires a flexible approach. KSR, 550 U.S. at 415. When
we apply this flexible approach to the evidence discussed
above, we find that the combination of Gordon and West
would have resulted in no more than a predictable result.
Id. at 417 (“a court must ask whether the improvement is
more than the predictable use of prior art elements
according to their established functions.”).
Also, we consider the proposed combination from the
viewpoint of a person of ordinary skill in the relevant
technology. Here, that person is highly educated and
skilled; an engineer or a medical doctor. The evidence
does not support that such a highly skilled person would
ignore a disclosure based on whether it was directed
primarily to a suture anchor for cortical bone or a suture

78a
anchor for cancellous bone. Both are suture anchors, as
is the claimed invention. We are persuaded that a suture
anchor designer of ordinary skill and creativity, facing
the wide range of needs and design options known in this
technological field, would have found it would have been
obvious, based on the disclosure in West, to provide Gordon with helical threads that define a perimeter at least
around the proximal end of the anchor body, as recited in
claim 10.
b. Rigid Support
Patent Owner asserts that “the rigid support of claim
10 is missing from Petitioners’ proposed combination because Gordon’s pulley is not a rigid support as required
by claim 10. Without that in the proposed combination,
Claim 10 cannot be considered obvious.” PO Resp. 21.
Patent Owner asserts two reasons why the claimed rigid
support is missing from Gordon.
First, Patent Owner asserts that Gordon’s pulley 182
does not meet the “branching” requirement of claim 10.
Id. We disagree.
Patent Owner acknowledges that Gordon’s pulley 182
“extends across the central passage (lumen 172) and has
a first portion (one end of pulley 182) and a second portion spaced from the first portion (the other end of pulley
182).” Id. Patent Owner asserts, however, that “[s]imply
extending across a gap is not enough to satisfy the more
specific claim language.” Id. at 22 (citing Ex. 2010 ¶¶ 11516). In our claim construction of the term “branching,”
we reached a contrary determination. We found that
“branching” means “extending.” Applying this construction to Patent Owner’s recognition that Gordon’s pulley
82 extends across the central passage defined by lumen
172 establishes that Gordon’s pulley or rigid support

79a
meets the requirements for the claimed “branching” of
the rigid support from sidewalls of the anchor body.
Second, Patent Owner asserts that Gordon’s pulley
182 does not, in fact, support any load placed on it by the
suture. PO Resp. 24. According to Patent Owner, after
Gordon’s anchor is installed, locking plug 176 clamps and
frictionally locks the suture strand in place. Id. Patent
Owner asserts that this results in the portion of suture
that is looped around pulley 182 being isolated from any
load on the suture. Id. We disagree. Pulley 182 is not
isolated from any load on the suture.
Based on the clear disclosure in Gordon, discussed
above, the suture in Gordon is placed under tension in
order to approximate the tension existing when a tendon
is connected to the adjacent bone, and this tension is
maintained on the pulley. Ex. 1105 ¶¶ 74-75; see also id.
¶ 87 (describing that in the configuration in which suture
strand 198 has been positioned around pulley 182, “the
suture may be tensioned as previously described to
approximate the soft tissues to be repaired to the bone or
other tissues.”). Thus, the pulley clearly is able to support this load.
We defined “rigid support” to mean an inflexible part
of the suture anchor that supports a tissue securing
suture. We also explained that by including the phrase
“tissue securing,” the adopted construction recognizes
the fundamental purpose of the disclosed and claimed invention is to mechanically reattach soft tissue to its supporting bone. Thus, the support provided to the suture is
support sufficient for that suture to secure tissue to bone.
This is the tension or load applied to pulley 182 in Gordon—a load that approximates the load sufficient to
secure tissue to bone.

80a
The experts disagree as to whether Gordon’s pulley
does, or does not, provide support sufficient for the
suture to secure tissue to bone.
Petitioner’s expert, Mr. Ritchart testified that Gordon’s pulley “is inflexible in order to keep a suture in a
fixed position and to withstand the cyclical loads placed
upon the pulley after the anchor has been installed in a
patient. He concluded that pulley 182 is thus a “ ‘rigid
support’ under the BRI.” Ex. 1103 ¶ 187 (emphasis added).
We note that the claims do not recite any requirement
that the rigid support is the structure that keeps a suture
in a fixed position or that the rigid support withstand
cyclical loads.
Patent Owner’s expert, Dr. Gall, is of the opinion that
“[t]he pulley 182 in Gordon is not intended to bear any
load from the suture to secure the suture and soft tissue
after the locking plug has been installed.” Ex. 2010 ¶ 159
(emphasis added). Dr. Gall explains that “[t]his is the result of the locking plug 176 clamping and frictionally locking the suture against the inside of the anchor body in a
position between the pulley and the tissue that is being
secured by the suture.” Id. (citing Ex. 1105, ¶ 87). Dr. Gall
concludes that “pulley 182 is not a ‘rigid support.’ ” Id.
As explained above, Gordon discloses that the suture
looping around pulley 182 is placed and maintained in
tension to approximate the load between the tissue and
bone. Thus, it is not accurate to state that pulley 182 in
Gordon does not bear any load.
Thus, we agree with Petitioner that Gordon discloses a
rigid support as claimed.
c. Integral (Claim 11)
Claim 11 recites “a rigid support integral with the
anchor body to define a single-piece component.” We

81a
construed this to mean a rigid support formed together
with the anchor body as a unitary structure.
Patent Owner asserts that pulley 182 in Gordon is a
separate piece attached to anchor body 170 and, therefore, is not integral with the anchor body to define a
single-piece component. PO Resp. 36. Petitioner relies
on West’s disclosure that West’s “anchor body 12 and
posts 23 can be cast and formed in a die.” Pet. 42-43
(citing Ex. 1106, 7:41-43; Ex. 1103, ¶¶ 205-10).
As stated above, West states clearly that “[i]n manufacturing bone anchor 10, in accordance with the present
invention, anchor body 12 and posts 23 can be cast and
formed in a die. Alternatively anchor body 12 can be cast
or formed and posts 23a and 23b inserted later.” This
presents two clear alternatives—form anchor body 12
and posts 23 together, i.e., as an integral component, or,
alternatively, create them as separate components and
insert the posts after the body is formed. Forming them
integrally is consistent with the disclosure in Foerster,
incorporated into Gordon, that the suture pulley may be
“formed in” a sidewall of the lumen. Ex. 1108 ¶ 24
(emphasis added).
Thus, we determine that West suggests that pulley
182 of Gordon can be formed integral with the suture
anchor body, as recited in claim 11.
d. Rationale
Petitioner asserts that it would have been obvious to a
person of ordinary skill to modify Gordon’s suture anchor
168 to replace the external hex drive head 186 of Gordon
with an internal hex drive socket, as taught by West.
Pet. 28 (citing Ex. 1103 ¶¶ 162-71). The reason why this
change would be made, according to Petitioner, is because it would allow Gordon’s screw threads 174 to ex-

82a
tend all the way to the proximal end of anchor body 170
and thus provide the bone anchor with the ability to better engage the cortical bone. Id. (citing Ex. 1106, 2:6567). As we discussed above, West discloses the benefits
of having a proximal end socket. See Ex. 1106, 1:50-64.
West also discloses the option of forming the rigid
support, that is the pulley in Gordon or pins in West,
integral with the body, or inserting the pins in the body
after the body is formed. Choosing the preferred option
would have been an obvious choice of the designer.
Patent Owner asserts that “the legally required rationale for the combination is missing.” PO Resp. 21.
According to Patent Owner, the proposed modification
would interfere with Gordon’s intended operation and
result; there is no reasonable expectation of success; and
there is no benefit to making the modification. Id. This
assertion is based, in part, on Patent Owner’s argument
that Gordon is intended to be secured in the cancellous
bone, not cortical bone. This argument is not persuasive
for reasons we have addressed above.
Patent Owner also argues that Gordon could not function if modified as proposed. Id. at 26-34. As we stated
above, whether a claimed invention would have been
obvious is based on what the combined teachings of the
references would have suggested to those of ordinary
skill in the art. MCM Portfolio, 812 F.3d at 1294. The
test for obviousness is not whether the features of a
secondary reference may be bodily incorporated into the
structure of the primary reference; nor is it that the
claimed invention must be expressly suggested in any
one or all of the references. Id. Rather, the test is what
the combined teachings of the references would have
suggested to those of ordinary skill in the art. Id. Moreover, a person of ordinary skill and creativity would rec-

83a
ognize that familiar items may have obvious uses beyond
their primary purposes, KSR, 550 U.S. at 420.
We recognize that “a patent composed of several elements is not proved obvious merely by demonstrating
that each of its elements was, independently, known in
the prior art.” KSR, 550 U.S. at 418. This is so because
inventions in most, if not all, instances rely upon building
blocks long since uncovered, and claimed discoveries
almost of necessity will be combinations of what, in some
sense, is already known. Id. at 418-419; see also Metalcraft of Mayville, Inc. v. The Toro Company, 848 F.3d
1358, 1367 (Fed. Cir. 2017) (holding it is not enough “to
merely demonstrate that elements of the claimed invention were independently known in the prior art. Often,
every element of a claimed invention can be found in the
prior art.”). For this reason, it is necessary to identify
“why” a person of ordinary skill would have selectively
gleaned some elements or structure from the references
relied on to come up with the limitations in the challenged claims. Metalcraft v. Toro, at 1366 (“In determining whether there would have been a motivation to
combine prior art references to arrive at the claimed
invention, it is insufficient to simply conclude the combination would have been obvious without identifying any
reason why a person of skill in the art would have made
the combination.”).
Here, as discussed above, West provides a persuasive
rationale for “why” the proposed features would have
been combined.
Before determining patentability under Section 103,
we consider the objective evidence presented by Patent
Owner.

84a
e. Objective Evidence
Patent Owner asserts that “secondary considerations”
establish that the claims 10 and 11 would not have been
obvious. PO Resp. 65-69.
Objective indicia of non-obviousness play an important
role as a guard against the statutorily proscribed hindsight reasoning in the obviousness analysis. WBIP, LLC
v. Kohler Co., 829 F.3d 1317, 1328 (Fed. Cir. 2016).
“[E]vidence of secondary considerations may often be
the most probative and cogent evidence in the record.”
Stratoflex, Inc. v. Aeroquip Corp., 713 F.2d 1530, 1538
(Fed. Cir. 1983). “[E]vidence rising out of the so-called
‘secondary considerations’ must always when present be
considered en route to a determination of obviousness.”
Id. at 1538. “For objective evidence . . . to be accorded
substantial weight, its proponent must establish a nexus
between the evidence and the merits of the claimed invention.” In re Kao, 639 F.3d 1057, 1068 (Fed. Cir. 2011)
(quoting Wyers v. Master Lock Co., 616 F.3d 1231, 1246
(Fed. Cir. 2010)) (emphasis omitted) (internal quotation
marks omitted).
Patent Owner offers evidence it asserts shows objective evidence of non-obviousness in the form of copying
by competitors (PO Resp. 65-68), licensing (id. at 68-69),
and commercial success (id. at 69).
(1)Copying
Patent Owner asserts seven competitors introduced
suture anchors having the combination of features in the
challenged claims after Patent Owner began selling its
patented anchors: PO Resp. 65. To support its assertion,
Patent Owner provides a chart comparing a figure from
the ’541 patent to pictures of alleged “copied designs.”
Id. at 66-67 (citing Ex. 2014). Exhibit 2014 is a claim
chart comparing the alleged products that copied the ’541

85a
patented invention to claims 10 and 11. There is no identification of the source of this chart or the authenticity of
the products identified on the chart.
Patent Owner states that each of the copied designs
includes first, second, and third suture openings, threads
to a proximal end, and a rigid support integral with the
anchor body. Id. at 67 (citing “Gall ¶ __.” [sic]). Patent
Owner also states there is a nexus (id.) but provides no
evidence to support this argument. Garrido v. Holt, 547
F. App’x 974, 979 n.3 (Fed. Cir. 2013) (citing In re Schulze,
346 F.2d 600, 602 (CCPA 1965) (“Argument in the brief
does not take the place of evidence in the record.”)).
Moreover, for copying to be effective in showing nonobviousness, there must be more than simply a competing version of the product. Iron Grip Barbell Co. v.
USA Sports, Inc., 392 F.3d 1317, 1325 (Fed. Cir. 2004)
(“Not every competing product that arguably falls within
the scope of a patent is evidence of copying. Otherwise
every infringement suit would automatically confirm the
nonobviousness of the patent.”). Evidence of copying
can be particularly persuasive when a competitor had
tried and failed to introduce a competing product until
the patented product became available. Vandenberg v.
Dairy Equipment Co., a Div. of DEC Int’l, Inc., 740 F.2d
1560, 1567 (Fed. Cir. 1984). We have no such evidence
in this case.
Merely offering competing products or alleging infringement are not signs of non-obviousness. Wyers, 616
F.3d at 1246. The secondary consideration of copying is
very specific—“evidence of efforts to replicate a specific
product.” Id. This specifically is not evidence of efforts
to provide a competing product or evidence of a product
having the same features, or we would be reading out the
crux of the basis for the court’s reasoning in Wyers, that

86a
“[n]ot every competing product that arguably falls within
the scope of a patent is evidence of copying.” Id. Patent
Owner’s timeline of when competing products were introduced (PO Resp. 68) is not persuasive evidence of copying because the timeline does not indicate that the later
introduced competing products were intended to replicate the subject matter of the ’541 patent. Indeed, the
timeline could just as readily support the notion that the
competing products were intended to replicate features
from Gordon (see Ex. 1105, Fig. 23) or other suture
anchors (see Ex. 1103 ¶¶ 39-43 (illustrating and discussing numerous prior suture anchor designs)).
Here, we have no evidence of a nexus or of efforts to
replicate a specific product. Thus, the evidence on which
Patent Owner relies has no probative weight of copying.
(2)Licensing
Patent Owner argues we should “infer” from the fact
that one license to Parcus Medical has been granted
under the ’541 patent that the one license “was taken
based on the merits of the claimed invention.” PO Resp.
68. Again, Patent Owner provides no evidence to support
this argued inference. Petitioner states Parcus’s CEO
testified that the license was executed to resolve litigation and “ninety-five percent” of the motivation was to
avoid legal fees. Pet. Reply 31 (citing Ex. 1169).
Here, we have no evidence of a nexus of the one
license to claims 10 and 11 of the ’541 patent. Thus, the
evidence on which Patent Owner relies has no probative
weight of copying.
(3)Commercial Success
Patent Owner asserts the “ ’541 Anchors” were commercially successful. PO Resp. 69 (citing Ex. 2029 and
“Ex. 2025, ¶ #-#.” [sic]). Exhibit 2029 is a Declaration of

87a
Christopher Holter, Patent Owner’s Senior Director of
Commercial Finance that reports quarterly sales data for
certain product codes. No market share information is
included, and there is no illustration or description of the
products. Exhibit 2025 is a Declaration of Christopher
Vellturo, a consultant retained by Patent Owner to “provide summaries and charts of sales data (as provided to
[him] by Arthrex) for Arthrex suture anchor products
made under U.S. Patent No. 8,821,541 (Claims 10 and
11).” Ex. 2025 ¶ 2. The graph and chart in Mr. Vellturo’s
declaration list the products that he “understand[s] . . .
practice the ’541 patent,” but there is no depiction or description of those products, nor is there any analysis or
explanation of why those products embody claims 10 or
11 of the ’541 patent. Id. at 17-18. The only “[s]ource”
listed for Mr. Vellturo’s chart and graph is “Holter Declaration, Exhibit 1.” Id.
Patent Owner also asserts “a nexus should be presumed because each of the ’541 Anchors at issue are coextensive with at least one of claims 10 and 11.” PO
Resp. 69. But Patent Owner does not point us to evidence or explanation supporting its contention that the
anchors embody claim 10 or 11 of the ’541 patent. We
have not been directed to persuasive evidence of any
nexus between the Patent Owner’s sales and the patented invention. Accordingly, the evidence of commercial
success has no probative weight.
4. Conclusion Regarding Patentability of Claims
10 and 11 Based on Gordon and West
Based on the evidence and analysis above, we determine that a preponderance of the evidence establishes
that claims 10 and 11 would have been obvious based on
Gordon and West.

88a
C. Anticipation by Curtis (Claim 11)
Petitioner asserts that claim 11 is anticipated by
Curtis. Pet. 43-52.
[U]nless a reference discloses within the four corners
of the document not only all of the limitations claimed
but also all of the limitations arranged or combined in
the same way as recited in the claim, it cannot be said
to prove prior invention of the thing claimed and,
thus, cannot anticipate under 35 U.S.C. § 102.
Net MoneyIN, Inc. v. VeriSign, Inc., 545 F.3d 1359, 1371
(Fed. Cir. 2008); see also Verdegaal Bros. v. Union Oil
Co., 814 F.2d 628, 631 (Fed. Cir. 1987) (“A claim is anticipated only if each and every element as set forth in the
claim is found, either expressly or inherently described,
in a single prior art reference.”). “The identical invention
must be shown in as complete detail as is contained in the
. . . claim.” Richardson v. Suzuki Motor Co., 868 F.2d
1226, 1236 (Fed. Cir. 1989).
1. Curtis (Ex. 1107)
Curtis is titled “Expanding Suture Anchor.” Ex. 1107.
Figures 2 and 3 (annotated) from Curtis are shown below.

Figure 2 from Curtis is a perspective view of an
expanding suture anchor after introduction of the suture.

89a

Figure 3 (annotated) from Curtis is a
perspective view of the expanding suture
anchor according to Figure 1 rotated by 90°.
The disclosed suture anchor has a main body (11) and
a conical body (14). Id. at Abstract; 2:16-17. Main body
11 is provided with protrusions 5, in the form of barbs or
threads, distributed over the full length of the main body
to facilitate retention of the suture anchor in cortical
bone or cortical and cancellous bone. Id. at 2:20-23; claim
7 (4:11-12).
Main body 11 and conical body 14 may be either two
distinct parts or, as shown in Figures 1 to 4, temporarily
connected coaxially by an intermediate portion 20. Ex.
1107, 2:66-3:1. If temporarily connected, the two body
parts are separated when inserted into bone. In use, as
shown in Figure 5, main body 11 separates from conical
body 14 at intermediate portion 20 so that conical body 14
enters slot 12, expands legs 21, 22 of main body 11, and
thereby presses the protrusions or barbs into bone to
thereby fix the anchor in the bone. Id. at 2:34-38.
Petitioner’s argument is based on the one-piece configuration of the suture anchor prior to fixation in the
bone. Pet. 44.
As shown in Figure 3, “through-hole” 6 is transverse
to longitudinal axis 13 of conical body 14. Ex. 1107 2:40-

90a
42. Through-hole 6 is intended to receive a suture strand
threaded through it. Id.
Two channels 7 are positioned on curved surface 17 of
conical body 14. Id. at 2:47-48. Channels 7 extend from
through-hole 6 to base 15. Channels 7 provide a recessed
area to house suture 10 when the two bodies are assembled, as described above. Because there is a channel
on opposing side of conical body 14, the inner surface of
each channel defines a web or bridge, somewhat like an
I-beam, between the two channels. This web or bridge is
highlighted in the annotated Figure 3 above.
2. Discussion
Patent Owner asserts two reasons why claim 11 is not
anticipated by Curtis: (1) Curtis does not have a “rigid support integral with the anchor body to define a single-piece
component” as required by claim 11 (PO Resp. 45-51); and
(2) Curtis discloses a “multiple piece anchor” (id. 51-57).
a. Rigid Support
Petitioner provides the following annotated versions of
Figure 4 of Curtis to show most of the claimed features.

Pet. 46; see also Pet. 50-52 (providing a claim chart identifying each element in claim 11 and the corresponding
structure in claim 11).

91a
As shown by the dotted blue outline in the Figure
above on the right, in its assembled state, Petitioner
regards the anchor body as a single element. This single
element has a first part 11 and a second part 14 that are
connected temporarily, as described above.
The structure Petitioner identifies as the “rigid support” in claim 11 is the web or bridge discussed above
and shown in the annotated Figure 3 above. Pet. 44
(suture “loop[s] around the member between channels
7”); id. at 48 (“Curtis discloses the rigid support (i.e., the
member between channels 7)”). Petitioner also provides
the following annotated Figure 4 from Curtis identifying
the rigid support.

Figure 4 from Curtis annotated by Petitioner.
Id. at 48. As shown in annotated Figure 3 above and also
in Petitioner’s annotated Figure 4, the web or bridge also
extends from the walls of conical body 14. Petitioner also
relies on the testimony of Mr. Ritchart, which supports
Petitioner’s argument. Id. (citing Ex. 1103 ¶¶ 230-233).
At the hearing, Petitioner’s Counsel stated: “If we
take a look at Slide 10, the petition demonstrates this
rigid support is met in Curtis by the portion of the conical
body, 14, through which the suture is threaded and disposed. That’s highlighted in yellow in the petition as

92a
reproduced here on Slide 10.” Tr. 5:19-23. Slide 10 contained a reproduction of page 48 of the Petition and the
Figure reproduced above showing the rigid support highlighted in yellow. Ex. 1178, slide 10.
Patent Owner argues that Curtis does not have a rigid
support integral with the anchor body to define a singlepiece component. PO Resp. 47. According to Patent
Owner, “Curtis’ anchor is flexible in a way that leaves it
unable to satisfy the rigid support claim language.” Id.
Patent Owner reaches this conclusion based on the assertion that “the Curtis anchor’s intermediate portion 20
‘breaks away’ in response to a ‘certain pulling force to the
suture 10.’ ” Id. Patent Owner does not persuasively refute Petitioner’s position, which is that the web or bridge
material defined by channels 7 corresponds to the claimed
“rigid support.” Petitioner makes clear that intermediate
portion 20 in Curtis is not part of the “rigid support” in
Curtis. Pet. Reply 27 (citing Ex. 1165 ¶¶ 233-234).
We are persuaded by the evidence that the web or
bridge material between the channels 7 is a rigid support
integral with the conical body to define a single-piece
component.
b. Multiple Piece Anchor
Patent Owner argues that Curtis is a multiple piece
anchor, not a single piece anchor. PO Resp. 51. This argument is related to the requirement that the “rigid support” be integral with the side wall of the anchor body.
Patent Owner asserts, correctly, that the Curtis anchor
is “assembled” into the two piece condition shown in
Figure 5 when inserted into bone for supporting suture
to hold tissue in a desired position.” Id. at 47. Patent
Owner’s logic appears to be that if the anchor body is in
two pieces, the rigid support in conical body 14 cannot be

93a
integral with the entire body. Patent Owner relies on the
testimony of Dr. Gall for support. PO Resp. 51 (citing
Ex. 2010 ¶¶ 200-204. Dr. Gall’s testimony is that because
main body 11 and conical body 14 are only temporarily
connected, that means that the web or bridge material
defined by channels 7 cannot be a rigid support integral
with the anchor body, as recited in claim 11. Ex. 2010
¶ 201. His opinion is that “ ‘[t]emporary connections’ and
‘breaking’ do not dictate the two components are integrally formed.” Id.
Petitioner’s position, however, is that the structure
that anticipates claim 11 is the one-piece suture anchor
that exists prior to being inserted in the bone. Pet. 44.
The web or bridge material in Curtis is always integral
with conical body 14. When conical body 14 and main body
11 are connected, they form a single body unit. The web
or bridge material is integral with this single body unit.
Patent Owner has not directed us to any persuasive
argument or evidence that establishes that the broadest
reasonable interpretation of claim 11 is limited to an
installed suture anchor. We recognize that there are differences, when installed in a bone, between Curtis and
the claimed invention. When manufactured, however,
and prior to installation, the one-piece configuration
shown in Figures 1-4 of Curtis is a “suture anchor
assembly” that has a rigid support integral with the
suture body, as recited in claim 11. There is no persuasive evidence that a temporary attachment of the two
Curtis body parts precludes the rigid support from being
“integral with the anchor body.”
Thus, we conclude that a preponderance of the evidence establishes that Curtis anticipates claim 11.

94a
D. Curtis, Overaker, and DiPoto (Claim 10)
Claim 10 recites both a “helical thread” and a “driver.”
Petitioner asserts that claim 10 would have been obvious based on Curtis, Overaker, and DiPoto. Pet. 53-60.
First we consider the scope and content of the prior
art. Curtis has been discussed above.
1. Overaker (Ex. 1124)
Overaker describes an expandable suture anchor similar to that of Curtis. Pet. 53-54 (citing Ex. 1103 ¶¶ 15557). As shown in Figure 1, outer wall surface 32 of sheath
8 includes a plurality of engagement ribs 46. Ex. 1124
¶ 20. Each rib 46 has an engagement edge 48 for engaging the bone tissue within a bone hole opening in which
the bone anchoring device 10 is deployed, as shown in
Figure 3. Id. As shown in Figure 1, ribs 46 are circumferentially aligned, as well as being transversely aligned
relative to slot 44. Id. Alternatively, Overaker discloses
that “ribs 46 could have a helical configuration.” Id.
(emphasis added).
2. DiPoto (Ex. 1125)
DiPoto discloses driver 80 used to position a suture
anchor in place within a bone. Ex. 1125, 6:17-23; Fig. 9.
Driver 80 engages the suture anchor and has a handle
and shaft 84 that are cannulated to allow ends of suture
16 to pass through it and be held temporarily on fixation
post 86. Id.
After the hole in the bone or tissue is formed by drilling, anchor 16 is “snapped” into position on the end of the
shaft of the driver. Id. at 6:5-16. The anchor and driver
assembly is moved into position by the surgeon. Id. The
anchor is then forced axially into the hole by, for example,
the surgeon tapping on the end of the driver with a mallet

95a
or the like. Id. “It is not necessary to rotate the assembly in order to install it in position.” Id. at 6:14-16.
3. Differences Between the Claimed Subject Matter and the Prior Art
Petitioner acknowledges that Curtis does not disclose
helical threads, as recited in claim 10. Pet. 53 (“Curtis
does not, however, identify what types of protrusions 5
can be employed over its full length.”). Curtis also discloses the use of a “manipulation instrument” for installing the suture anchor, but does not provide details
about its use or structure.
Overaker discloses that helical threads are an option
for use on an expansion-type suture anchor.
DiPoto discloses a “manipulation instrument,” a driver,
for installing a suture anchor without rotary motion.
4. Discussion
Petitioner asserts that Curtis does not disclose the
claimed helical threads of claim 10, but that Overaker
does. Pet. 53-54. Petitioner asserts modifying Curtis’s
barbs to be helical as shown in Overaker would have been
a known substitution and option available to a suture
anchor designer, and that using this option provides the
predictable result of retaining the anchor in bone. Id.
at 54-55.
Petitioner also asserts that a person of ordinary skill
would have been motivated to use the driver of DiPoto as
the “manipulation instrument” disclosed in Curtis. This
known option allows a surgeon to accurately place Curtis’s suture anchor within a bone cavity. Id. DiPoto’s
driver is fully consistent with Curtis and Overaker because all three suture anchors are push-in type anchors;
they are not rotated into engagement. DiPoto discloses
specifically that it is not necessary to rotate the suture

96a
anchor assembly using the DiPoto driver in order to
install the suture anchor in position.” Ex. 1125, 6:14-16.
Patent Owner argues that Petitioners’ proposed combination of Curtis, Overaker, and DiPoto (1) does not
have the required helical thread at the proximal end of
the anchor body; (2) does not provide a workable result
so it cannot be made, (3) does not yield a predictable
result, and (4) there is no reason for the proposed combination. PO Resp. 57.
Regarding the helical thread at the proximal end limitation in claim 10, Petitioner asserts that Patent Owner
ignores Curtis’s explicit statements that protrusions 5
are “distributed over the full length of the main body”
(Ex. 1107, 2:20-23) and retain the “anchor in cortical
bone,” (id.), both of which require protrusions at the
proximal end. Pet. Reply 28 (citing Ex. 1165 ¶¶ 240-243),
Ex. 1103 ¶¶ 256-257. Notwithstanding the illustrations in
Curtis, the disclosure clearly suggests to a person of
ordinary skill to use protrusions over the “full length” of
the suture body.
It is also beyond reasonable dispute that Overaker
discloses the use of helical threads to retain an expansion-type suture anchor. Ex. 1124 ¶ 20 (“Alternatively,
the ribs 46 could have a helical configuration.”).
Helical threads over the full length of the suture
anchor body are a known design option. It would have
been obvious to a person of ordinary skill and creativity
to choose the preferred option for the task at hand. “[I]f
a technique has been used to improve one device, and a
person of ordinary skill in the art would recognize that it
would improve similar devices in the same way, using the
technique is obvious unless its actual application is
beyond his or her skill.” KSR, 550 U.S. at 417. There is
no persuasive evidence that the proposed changes in

97a
Curtis exceed the skill level of our highly skilled person
of ordinary skill.
Patent Owner speculates, without citation of evidence,
that using a threaded engagement in Curtis “could interfere with the ability of the legs to splay, thereby interfering with the intended operation of the anchor.” PO
Resp. 61 (emphasis added). Patent Owner relies on the
testimony of Dr. Gall. Id. at 61-62 (citing Ex. 2010 ¶¶ 220221). Dr. Gall merely repeats Petitioner’s argument
without any additional facts or data on which the opinion
is based. Thus, it is entitled to little if any probative
weight. 37 C.F.R. 42.65(a). There is no persuasive evidence that the proposed helical thread would interfere
with the ability of legs in Curtis to splay into engagement
with adjacent bone any more so than the existing protrusions 5 disclosed in Curtis.
Patent Owner also argues that there is no reason for
the proposed modifications. The references themselves
suggest design options available to a person of ordinary
skill. There is no persuasive evidence that use of known
helical threads and drivers, as broadly recited in claim 10,
is beyond the skill and creativity of a person with degrees
in engineering or medicine, and also having experience
designing suture anchors.
Patent Owner argues that there is no reason to use the
driver from DiPoto with the anchor in Curtis because
Curtis is a “push-in style anchor.” PO Resp. 63. The
driver in DiPoto is disclosed specifically for use with
push-in style anchors. Ex. 1125 6:12-16 (“The anchor 16
is then forced axially into the hole by, for example, the
surgeon tapping on the end of the driver with a mallet or
the like. It is not necessary to rotate the assembly in
order to install it in position.”).

98a
5. Secondary Considerations
Our analysis above in Section II.B.3.e. applies equally
to this asserted ground of patentability.
6. Conclusion Regarding Patentability of Claim
10 Based on Curtis, Overaker, and DiPoto
Based on the evidence and analysis above, we determine that a preponderance of the evidence establishes
that claim 10 would have been obvious based on Curtis,
Overaker, and DiPoto.
III.PATENT OWNER’S MOTION TO EXCLUDE
CERTAIN EVIDENCE
Patent Owner moves to exclude Paragraph 119 of Dr.
Slocum’s Declaration, Ex. 1165, because Dr. Slocum
failed to produce test data inconsistent with his opinion.
Mot. Excl. 1. Patent Owner also moves to exclude Exhibit 1170 and corresponding ¶ 100 of Dr. Slocum’s declaration under FRE 401, 402 and 901. Id. at 3. Exhibit
1170 is a website relied on by Dr. Slocum.
We deny the Motion as moot. We have not relied on or
cited the evidence Patent Owner seeks to exclude. Moreover, the Board acts as both the gatekeeper of evidence
and as the weigher of evidence. Rather than excluding
evidence that is allegedly confusing, misleading, and/or
irrelevant, we will simply not rely on it or give it little
weight, as appropriate, in our analysis. Similar to a district court in a bench trial, the Board, sitting as a nonjury tribunal with administrative expertise, is well positioned to determine and assign appropriate weight to
evidence presented, including giving it no weight. See,
e.g., Donnelly Garment Co. v. NLRB, 123 F.2d 215, 224
(8th Cir. 1941) (“One who is capable of ruling accurately
upon the admissibility of evidence is equally capable of
sifting it accurately after it has been received . . . .”).

99a
Thus, in this inter partes review, the better course is
to have a complete record of the evidence to facilitate
public access as well as appellate review.
IV. ORDER
In view of the foregoing, it is hereby:
ORDERED that claims 10 and 11 of the ’541 patent
have been shown by a preponderance of the evidence to
be unpatentable on the basis they would have been obvious under 35 U.S.C. § 103 in view of Gordon and West;
FURTHER ORDERED that claim 11 of the ’541 patent has been shown by a preponderance of the evidence
to be unpatentable on the basis that it is anticipated
under 35 U.S.C. § 102 by Curtis;
FURTHER ORDERED that claim 10 of the ’541 patent has been shown by a preponderance of the evidence
to be unpatentable on the basis it would have been obvious under 35 U.S.C. § 103 in view of Curtis, Overaker,
and DiPoto;
FURTHER ORDERED that Patent Owner’s Motion
to Exclude is dismissed as moot; and
FURTHER ORDERED that this is a Final Written
Decision under 35 U.S.C. § 318(a), and that parties to the
proceeding seeking judicial review of the decision under
35 U.S.C. § 319 must comply with the notice and service
requirements of 37 C.F.R. § 90.2.
PETITIONER:
Richard F. Giunta
Michael N. Rader
Randy J. Pritzker
Robert A. Abrahamsen
WOLF, GREENFIELD & SACKS, P.C.

100a
RGiunta-PTAB@wolfgreenfield.com
MRader-PTAB@wolfgreenfield.com
RPritzker-PTAB@wolfgreenfield.com
PATENT OWNER:
Anthony P. Cho
Timothy Murphy
CARLSON, GASKEY & OLDS, P.C.
acho@cgolaw.com
timmurphy@cgolaw.com

101a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
²²²²
NO. 2018-1584
²²²²
ARTHREX, INC.,
Appellant,
v.
SMITH & NEPHEW, INC.,
ARTHROCARE CORP.,
Appellees,
UNITED STATES,
Intervenor.
²²²²
Appeal from the United States Patent
and Trademark Office, Patent Trial and Appeal
Board in No. IPR2016-00918.
²²²²
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
²²²²
November 8, 2019
²²²²
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.

102a
ORDER
Appellant Arthrex, Inc. filed a combined petition for
panel rehearing and rehearing en banc. The petition was
referred to the panel that heard the appeal, and thereafter the petition for rehearing en banc was referred to
the circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on November 15,
2019.
FOR THE COURT
November 8, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

103a
APPENDIX D
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS
1. The United States Constitution provides in relevant part as follows:
Article II, § 2
* * * * *
[The President] shall nominate, and by and with the
Advice and Consent of the Senate, shall appoint Ambassadors, other public Ministers and Consuls, Judges of the
supreme Court, and all other Officers of the United States,
whose Appointments are not herein otherwise provided
for, and which shall be established by Law: but the Congress may by Law vest the Appointment of such inferior
Officers, as they think proper, in the President alone, in
the Courts of Law, or in the Heads of Departments.
* * * * *
Amendment V
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any
person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use,
without just compensation.

104a
2. Title 35 of the United States Code provides in relevant part as follows:
§ 3. Officers and employees
* * * * *
(c) CONTINUED APPLICABILITY OF TITLE 5.—Officers
and employees of the Office shall be subject to the provisions of title 5, relating to Federal employees.
* * * * *
§ 6. Patent Trial and Appeal Board
(a) IN GENERAL.—There shall be in the Office a Patent Trial and Appeal Board. The Director, the Deputy
Director, the Commissioner for Patents, the Commissioner for Trademarks, and the administrative patent
judges shall constitute the Patent Trial and Appeal
Board. The administrative patent judges shall be persons of competent legal knowledge and scientific ability
who are appointed by the Secretary, in consultation with
the Director. Any reference in any Federal law, Executive order, rule, regulation, or delegation of authority, or
any document of or pertaining to the Board of Patent
Appeals and Interferences is deemed to refer to the Patent Trial and Appeal Board.
(b) DUTIES.—The Patent Trial and Appeal Board
shall—
(1) on written appeal of an applicant, review adverse decisions of examiners upon applications for patents pursuant to section 134(a);
(2) review appeals of reexaminations pursuant to
section 134(b);
(3) conduct derivation proceedings pursuant to section 135; and

105a
(4) conduct inter partes reviews and post-grant
reviews pursuant to chapters 31 and 32.
(c) 3-MEMBER PANELS.—Each appeal, derivation proceeding, post-grant review, and inter partes review shall
be heard by at least 3 members of the Patent Trial and
Appeal Board, who shall be designated by the Director.
Only the Patent Trial and Appeal Board may grant
rehearings.
(d) TREATMENT OF PRIOR APPOINTMENTS.—The Secretary of Commerce may, in the Secretary’s discretion,
deem the appointment of an administrative patent judge
who, before the date of the enactment of this subsection,
held office pursuant to an appointment by the Director to
take effect on the date on which the Director initially
appointed the administrative patent judge. It shall be a
defense to a challenge to the appointment of an administrative patent judge on the basis of the judge’s having
been originally appointed by the Director that the administrative patent judge so appointed was acting as a de
facto officer.
§ 101. Inventions patentable
Whoever invents or discovers any new and useful process, machine, manufacture, or composition of matter, or
any new and useful improvement thereof, may obtain a
patent therefor, subject to the conditions and requirements of this title.
§ 102. Conditions for patentability; novelty
(a) NOVELTY; PRIOR ART.—A person shall be entitled
to a patent unless—
(1) the claimed invention was patented, described
in a printed publication, or in public use, on sale, or
otherwise available to the public before the effective
filing date of the claimed invention; or

106a
(2) the claimed invention was described in a patent
issued under section 151, or in an application for patent published or deemed published under section
122(b), in which the patent or application, as the case
may be, names another inventor and was effectively
filed before the effective filing date of the claimed
invention.
* * * * *
§ 111. Application
(a) IN GENERAL.—
(1) WRITTEN APPLICATION.—An application for patent shall be made, or authorized to be made, by the
inventor, except as otherwise provided in this title, in
writing to the Director.
(2) CONTENTS.—Such application shall include—
(A) a specification as prescribed by section 112;
(B) a drawing as prescribed by section 113; and
(C) an oath or declaration as prescribed by section 115.
* * * * *
§ 112. Specification
(a) IN GENERAL.—The specification shall contain a
written description of the invention, and of the manner
and process of making and using it, in such full, clear,
concise, and exact terms as to enable any person skilled
in the art to which it pertains, or with which it is most
nearly connected, to make and use the same, and shall set
forth the best mode contemplated by the inventor or joint
inventor of carrying out the invention.
(b) CONCLUSION.—The specification shall conclude
with one or more claims particularly pointing out and dis-

107a
tinctly claiming the subject matter which the inventor or
a joint inventor regards as the invention.
(c) FORM.—A claim may be written in independent or,
if the nature of the case admits, in dependent or multiple
dependent form.
(d) REFERENCE IN DEPENDENT FORMS.—Subject to
subsection (e), a claim in dependent form shall contain a
reference to a claim previously set forth and then specify
a further limitation of the subject matter claimed. A
claim in dependent form shall be construed to incorporate by reference all the limitations of the claim to which
it refers.
(e) REFERENCE IN MULTIPLE DEPENDENT FORM.—
A claim in multiple dependent form shall contain a reference, in the alternative only, to more than one claim previously set forth and then specify a further limitation of
the subject matter claimed. A multiple dependent claim
shall not serve as a basis for any other multiple dependent claim. A multiple dependent claim shall be construed
to incorporate by reference all the limitations of the particular claim in relation to which it is being considered.
(f ) ELEMENT IN CLAIM FOR A COMBINATION.—An element in a claim for a combination may be expressed as a
means or step for performing a specified function without
the recital of structure, material, or acts in support thereof, and such claim shall be construed to cover the corresponding structure, material, or acts described in the
specification and equivalents thereof.
§ 122. Confidential status of applications; publication
of patent applications
(a) CONFIDENTIALITY.—Except as provided in subsection (b), applications for patents shall be kept in confidence by the Patent and Trademark Office and no infor-

108a
mation concerning the same given without authority of
the applicant or owner unless necessary to carry out the
provisions of an Act of Congress or in such special circumstances as may be determined by the Director.
(b) PUBLICATION.—
(1) IN GENERAL.—(A) Subject to paragraph (2),
each application for a patent shall be published,
in accordance with procedures determined by the
Director, promptly after the expiration of a period
of 18 months from the earliest filing date for which
a benefit is sought under this title. At the request
of the applicant, an application may be published
earlier than the end of such 18-month period.
(B) No information concerning published patent
applications shall be made available to the public
except as the Director determines.
(C) Notwithstanding any other provision of law,
a determination by the Director to release or not to
release information concerning a published patent
application shall be final and nonreviewable.
(2) EXCEPTIONS.—(A) An application shall not be
published if that application is—
(i) no longer pending;
(ii) subject to a secrecy order under section 181;
(iii) a provisional application filed under section 111(b); or
(iv) an application for a design patent filed
under chapter 16.
(B)(i) If an applicant makes a request upon filing,
certifying that the invention disclosed in the
application has not and will not be the subject of
an application filed in another country, or under

109a
a multilateral international agreement, that requires publication of applications 18 months after
filing, the application shall not be published as
provided in paragraph (1).
(ii) An applicant may rescind a request made
under clause (i) at any time.
(iii) An applicant who has made a request
under clause (i) but who subsequently files, in a
foreign country or under a multilateral international agreement specified in clause (i), an application directed to the invention disclosed in the
application filed in the Patent and Trademark
Office, shall notify the Director of such filing not
later than 45 days after the date of the filing of
such foreign or international application. A failure of the applicant to provide such notice within
the prescribed period shall result in the application being regarded as abandoned.
(iv) If an applicant rescinds a request made
under clause (i) or notifies the Director that an
application was filed in a foreign country or
under a multilateral international agreement
specified in clause (i), the application shall be
published in accordance with the provisions of
paragraph (1) on or as soon as is practical after
the date that is specified in clause (i).
(v) If an applicant has filed applications in one
or more foreign countries, directly or through a
multilateral international agreement, and such
foreign filed applications corresponding to an
application filed in the Patent and Trademark
Office or the description of the invention in such
foreign filed applications is less extensive than
the application or description of the invention in

110a
the application filed in the Patent and Trademark Office, the applicant may submit a redacted
copy of the application filed in the Patent and
Trademark Office eliminating any part or description of the invention in such application that
is not also contained in any of the corresponding
applications filed in a foreign country. The
Director may only publish the redacted copy of
the application unless the redacted copy of the
application is not received within 16 months after
the earliest effective filing date for which a benefit is sought under this title. The provisions of
section 154(d) shall not apply to a claim if the
description of the invention published in the redacted application filed under this clause with
respect to the claim does not enable a person
skilled in the art to make and use the subject
matter of the claim.
* * * * *
§ 154. Contents and term of patent; provisional rights
(a) IN GENERAL.—
(1) CONTENTS.—Every patent shall contain a short
title of the invention and a grant to the patentee, his
heirs or assigns, of the right to exclude others from
making, using, offering for sale, or selling the invention throughout the United States or importing the
invention into the United States, and, if the invention
is a process, of the right to exclude others from using,
offering for sale or selling throughout the United
States, or importing into the United States, products
made by that process, referring to the specification for
the particulars thereof.

111a
(2) TERM.—Subject to the payment of fees under
this title, such grant shall be for a term beginning on
the date on which the patent issues and ending 20
years from the date on which the application for the
patent was filed in the United States or, if the application contains a specific reference to an earlier filed
application or applications under section 120, 121,
365(c), or 386(c) from the date on which the earliest
such application was filed.
* * * * *
(b) ADJUSTMENT OF PATENT TERM.—
(1) PATENT TERM GUARANTEES.—
(A) GUARANTEE OF PROMPT PATENT AND
TRADEMARK OFFICE RESPONSES.—Subject to the
limitations under paragraph (2), if the issue of an
original patent is delayed due to the failure of the
Patent and Trademark Office to—
(i) provide at least one of the notifications
under section 132 or a notice of allowance under
section 151 not later than 14 months after—
(I) the date on which an application was
filed under section 111(a); or
(II) the date of commencement of the national stage under section 371 in an international application;
(ii) respond to a reply under section 132, or to
an appeal taken under section 134, within 4
months after the date on which the reply was
filed or the appeal was taken;
(iii) act on an application within 4 months
after the date of a decision by the Patent Trial
and Appeal Board under section 134 or 135 or a

112a
decision by a Federal court under section 141,
145, or 146 in a case in which allowable claims
remain in the application; or
(iv) issue a patent within 4 months after the
date on which the issue fee was paid under section 151 and all outstanding requirements were
satisfied,
the term of the patent shall be extended 1 day for
each day after the end of the period specified in
clause (i), (ii), (iii), or (iv), as the case may be, until
the action described in such clause is taken.
(B) GUARANTEE

3-YEAR
to the limitations under paragraph (2), if the issue of an original
patent is delayed due to the failure of the United
States Patent and Trademark Office to issue a
patent within 3 years after the actual filing date of
the application under section 111(a) in the United
States or, in the case of an international application,
the date of commencement of the national stage
under section 371 in the international application,
not including—
OF NO MORE THAN

APPLICATION PENDENCY.—Subject

(i) any time consumed by continued examination of the application requested by the applicant
under section 132(b);
(ii) any time consumed by a proceeding under
section 135(a), any time consumed by the imposition of an order under section 181, or any
time consumed by appellate review by the Patent
Trial and Appeal Board or by a Federal court; or
(iii) any delay in the processing of the application by the United States Patent and Trademark

113a
Office requested by the applicant except as permitted by paragraph (3)(C),
the term of the patent shall be extended 1 day for
each day after the end of that 3-year period until
the patent is issued.
(C) GUARANTEE

OF ADJUSTMENTS FOR DELAYS

DUE TO DERIVATION PROCEEDINGS, SECRECY ORDERS, AND APPEALS.—Subject

to the limitations
under paragraph (2), if the issue of an original patent is delayed due to—
(i) a proceeding under section 135(a);
(ii) the imposition of an order under section
181; or
(iii) appellate review by the Patent Trial and
Appeal Board or by a Federal court in a case in
which the patent was issued under a decision in
the review reversing an adverse determination of
patentability,
the term of the patent shall be extended 1 day for
each day of the pendency of the proceeding, order,
or review, as the case may be.

* * * * *
(d) PROVISIONAL RIGHTS—
(1) IN GENERAL.—In addition to other rights provided by this section, a patent shall include the right to
obtain a reasonable royalty from any person who, during the period beginning on the date of publication of
the application for such patent under section 122(b), or
in the case of an international application filed under
the treaty defined in section 351(a) designating the
United States under Article 21(2)(a) of such treaty or
an international design application filed under the

114a
treaty defined in section 381(a)(1) designating the
United States under Article 5 of such treaty, the date
of publication of the application, and ending on the
date the patent is issued—
(A)(i) makes, uses, offers for sale, or sells in the
United States the invention as claimed in the
published patent application or imports such an
invention into the United States; or
(ii) if the invention as claimed in the published
patent application is a process, uses, offers for
sale, or sells in the United States or imports into
the United States products made by that process
as claimed in the published patent application; and
(B) had actual notice of the published patent application and, in a case in which the right arising
under this paragraph is based upon an international
application designating the United States that is
published in a language other than English, had a
translation of the international application into the
English language.
* * * * *
§ 183. Right to compensation
An applicant, his successors, assigns, or legal representatives, whose patent is withheld as herein provided,
shall have the right, beginning at the date the applicant is
notified that, except for such order, his application is otherwise in condition for allowance, or February 1, 1952,
whichever is later, and ending six years after a patent is
issued thereon, to apply to the head of any department or
agency who caused the order to be issued for compensation for the damage caused by the order of secrecy and/or
for the use of the invention by the Government, resulting
from his disclosure. The right to compensation for use

115a
shall begin on the date of the first use of the invention by
the Government. The head of the department or agency
is authorized, upon the presentation of a claim, to enter
into an agreement with the applicant, his successors, assigns, or legal representatives, in full settlement for the
damage and/or use. This settlement agreement shall be
conclusive for all purposes notwithstanding any other
provision of law to the contrary. If full settlement of the
claim cannot be effected, the head of the department or
agency may award and pay to such applicant, his successors, assigns, or legal representatives, a sum not exceeding 75 per centum of the sum which the head of the department or agency considers just compensation for the
damage and/or use. A claimant may bring suit against
the United States in the United States Court of Federal
Claims or in the District Court of the United States for
the district in which such claimant is a resident for an
amount which when added to the award shall constitute
just compensation for the damage and/or use of the invention by the Government. The owner of any patent
issued upon an application that was subject to a secrecy
order issued pursuant to section 181, who did not apply
for compensation as above provided, shall have the right,
after the date of issuance of such patent, to bring suit in
the United States Court of Federal Claims for just compensation for the damage caused by reason of the order
of secrecy and/or use by the Government of the invention
resulting from his disclosure. The right to compensation
for use shall begin on the date of the first use of the invention by the Government. In a suit under the provisions of this section the United States may avail itself of
all defenses it may plead in an action under section 1498
of title 28. This section shall not confer a right of action
on anyone or his successors, assigns, or legal representatives who, while in the full-time employment or service of

116a
the United States, discovered, invented, or developed the
invention on which the claim is based.
§ 261. Ownership; assignment
Subject to the provisions of this title, patents shall
have the attributes of personal property. The Patent and
Trademark Office shall maintain a register of interests in
patents and applications for patents and shall record any
document related thereto upon request, and may require
a fee therefor.
Applications for patent, patents, or any interest therein, shall be assignable in law by an instrument in writing.
The applicant, patentee, or his assigns or legal representatives may in like manner grant and convey an exclusive right under his application for patent, or patents, to
the whole or any specified part of the United States.
A certificate of acknowledgment under the hand and
official seal of a person authorized to administer oaths
within the United States, or, in a foreign country, of a
diplomatic or consular officer of the United States or an
officer authorized to administer oaths whose authority is
proved by a certificate of a diplomatic or consular officer
of the United States, or apostille of an official designated
by a foreign country which, by treaty or convention, accords like effect to apostilles of designated officials in the
United States, shall be prima facie evidence of the execution of an assignment, grant or conveyance of a patent or
application for patent.
An interest that constitutes an assignment, grant or
conveyance shall be void as against any subsequent purchaser or mortgagee for a valuable consideration, without
notice, unless it is recorded in the Patent and Trademark
Office within three months from its date or prior to the
date of such subsequent purchase or mortgage.

117a
§ 271. Infringement of patent
(a) Except as otherwise provided in this title, whoever
without authority makes, uses, offers to sell, or sells any
patented invention, within the United States or imports
into the United States any patented invention during the
term of the patent therefor, infringes the patent.
* * * * *
§ 301. Citation of prior art and written statements
(a) IN GENERAL.—Any person at any time may cite to
the Office in writing—
(1) prior art consisting of patents or printed publications which that person believes to have a bearing on
the patentability of any claim of a particular patent; or
(2) statements of the patent owner filed in a proceeding before a Federal court or the Office in which
the patent owner took a position on the scope of any
claim of a particular patent.
(b) OFFICIAL FILE.—If the person citing prior art or
written statements pursuant to subsection (a) explains in
writing the pertinence and manner of applying the prior
art or written statements to at least 1 claim of the patent,
the citation of the prior art or written statements and the
explanation thereof shall become a part of the official file
of the patent.
(c) ADDITIONAL INFORMATION.—A party that submits
a written statement pursuant to subsection (a)(2) shall
include any other documents, pleadings, or evidence from
the proceeding in which the statement was filed that
addresses the written statement.
(d) LIMITATIONS.—A written statement submitted
pursuant to subsection (a)(2), and additional information
submitted pursuant to subsection (c), shall not be consid-

118a
ered by the Office for any purpose other than to determine the proper meaning of a patent claim in a proceeding that is ordered or instituted pursuant to section 304,
314, or 324. If any such written statement or additional
information is subject to an applicable protective order,
such statement or information shall be redacted to exclude information that is subject to that order.
(e) CONFIDENTIALITY.—Upon the written request of
the person citing prior art or written statements pursuant to subsection (a), that person’s identity shall be excluded from the patent file and kept confidential.
§ 302. Request for reexamination
Any person at any time may file a request for reexamination by the Office of any claim of a patent on the basis
of any prior art cited under the provisions of section 301.
The request must be in writing and must be accompanied
by payment of a reexamination fee established by the
Director pursuant to the provisions of section 41. The
request must set forth the pertinency and manner of
applying cited prior art to every claim for which reexamination is requested. Unless the requesting person is the
owner of the patent, the Director promptly will send a
copy of the request to the owner of record of the patent.
§ 303. Determination of issue by Director
(a) Within three months following the filing of a request for reexamination under the provisions of section
302, the Director will determine whether a substantial
new question of patentability affecting any claim of the
patent concerned is raised by the request, with or without consideration of other patents or printed publications. On his own initiative, and any time, the Director
may determine whether a substantial new question of
patentability is raised by patents and publications dis-

119a
covered by him or cited under the provisions of section
301 or 302. The existence of a substantial new question of
patentability is not precluded by the fact that a patent or
printed publication was previously cited by or to the
Office or considered by the Office.
(b) A record of the Director’s determination under
subsection (a) of this section will be placed in the official
file of the patent, and a copy promptly will be given or
mailed to the owner of record of the patent and to the
person requesting reexamination, if any.
(c) A determination by the Director pursuant to subsection (a) of this section that no substantial new question
of patentability has been raised will be final and nonappealable. Upon such a determination, the Director
may refund a portion of the reexamination fee required
under section 302.
§ 304. Reexamination order by Director
If, in a determination made under the provisions of
subsection 303(a), the Director finds that a substantial
new question of patentability affecting any claim of a patent is raised, the determination will include an order for
reexamination of the patent for resolution of the question. The patent owner will be given a reasonable period,
not less than two months from the date a copy of the determination is given or mailed to him, within which he
may file a statement on such question, including any
amendment to his patent and new claim or claims he may
wish to propose, for consideration in the reexamination.
If the patent owner files such a statement, he promptly
will serve a copy of it on the person who has requested
reexamination under the provisions of section 302. Within a period of two months from the date of service, that
person may file and have considered in the reexamination
a reply to any statement filed by the patent owner. That

120a
person promptly will serve on the patent owner a copy of
any reply filed.
§ 305. Conduct of reexamination proceedings
After the times for filing the statement and reply provided for by section 304 have expired, reexamination will
be conducted according to the procedures established for
initial examination under the provisions of sections 132
and 133. In any reexamination proceeding under this
chapter, the patent owner will be permitted to propose
any amendment to his patent and a new claim or claims
thereto, in order to distinguish the invention as claimed
from the prior art cited under the provisions of section
301, or in response to a decision adverse to the patentability of a claim of a patent. No proposed amended or
new claim enlarging the scope of a claim of the patent will
be permitted in a reexamination proceeding under this
chapter. All reexamination proceedings under this section, including any appeal to the Patent Trial and Appeal
Board, will be conducted with special dispatch within the
Office.
§ 306. Appeal
The patent owner involved in a reexamination proceeding under this chapter may appeal under the provisions of section 134, and may seek court review under the
provisions of sections 141 to 144, with respect to any decision adverse to the patentability of any original or proposed amended or new claim of the patent.
§ 307. Certificate of patentability, unpatentability, and
claim cancellation
(a) In a reexamination proceeding under this chapter,
when the time for appeal has expired or any appeal proceeding has terminated, the Director will issue and publish a certificate canceling any claim of the patent finally

121a
determined to be unpatentable, confirming any claim of
the patent determined to be patentable, and incorporating in the patent any proposed amended or new claim
determined to be patentable.
(b) Any proposed amended or new claim determined
to be patentable and incorporated into a patent following
a reexamination proceeding will have the same effect as
that specified in section 252 for reissued patents on the
right of any person who made, purchased, or used within
the United States, or imported into the United States,
anything patented by such proposed amended or new
claim, or who made substantial preparation for the same,
prior to issuance of a certificate under the provisions of
subsection (a) of this section.
§ 311. Inter partes review
(a) IN GENERAL.—Subject to the provisions of this
chapter, a person who is not the owner of a patent may
file with the Office a petition to institute an inter partes
review of the patent. The Director shall establish, by
regulation, fees to be paid by the person requesting the
review, in such amounts as the Director determines to be
reasonable, considering the aggregate costs of the review.
(b) SCOPE.—A petitioner in an inter partes review
may request to cancel as unpatentable 1 or more claims
of a patent only on a ground that could be raised under
section 102 or 103 and only on the basis of prior art consisting of patents or printed publications.
(c) FILING DEADLINE.—A petition for inter partes
review shall be filed after the later of either—
(1) the date that is 9 months after the grant of a
patent; or

122a
(2) if a post-grant review is instituted under chapter 32, the date of the termination of such post-grant
review.
§ 312. Petitions
(a) REQUIREMENTS OF PETITION.—A petition filed
under section 311 may be considered only if—
(1) the petition is accompanied by payment of the
fee established by the Director under section 311;
(2) the petition identifies all real parties in interest;
(3) the petition identifies, in writing and with particularity, each claim challenged, the grounds on which
the challenge to each claim is based, and the evidence
that supports the grounds for the challenge to each
claim, including—
(A) copies of patents and printed publications
that the petitioner relies upon in support of the petition; and
(B) affidavits or declarations of supporting evidence and opinions, if the petitioner relies on expert
opinions;
(4) the petition provides such other information as
the Director may require by regulation; and
(5) the petitioner provides copies of any of the documents required under paragraphs (2), (3), and (4) to
the patent owner or, if applicable, the designated representative of the patent owner.
(b) PUBLIC AVAILABILITY.—As soon as practicable
after the receipt of a petition under section 311, the
Director shall make the petition available to the public.

123a
§ 313. Preliminary response to petition
If an inter partes review petition is filed under section
311, the patent owner shall have the right to file a preliminary response to the petition, within a time period set by
the Director, that sets forth reasons why no inter partes
review should be instituted based upon the failure of the
petition to meet any requirement of this chapter.
§ 314. Institution of inter partes review
(a) THRESHOLD.—The Director may not authorize an
inter partes review to be instituted unless the Director
determines that the information presented in the petition
filed under section 311 and any response filed under section 313 shows that there is a reasonable likelihood that
the petitioner would prevail with respect to at least 1 of
the claims challenged in the petition.
(b) TIMING.—The Director shall determine whether
to institute an inter partes review under this chapter
pursuant to a petition filed under section 311 within 3
months after—
(1) receiving a preliminary response to the petition
under section 313; or
(2) if no such preliminary response is filed, the last
date on which such response may be filed.
(c) NOTICE.—The Director shall notify the petitioner
and patent owner, in writing, of the Director’s determination under subsection (a), and shall make such notice
available to the public as soon as is practicable. Such
notice shall include the date on which the review shall
commence.
(d) NO APPEAL.—The determination by the Director
whether to institute an inter partes review under this
section shall be final and nonappealable.

124a
§ 315. Relation to other proceedings or actions
(a) INFRINGER’S CIVIL ACTION.—
(1) INTER PARTES REVIEW BARRED BY CIVIL ACTION.—An inter partes review may not be instituted if,
before the date on which the petition for such a review
is filed, the petitioner or real party in interest filed
a civil action challenging the validity of a claim of the
patent.
(2) STAY OF CIVIL ACTION.—If the petitioner or real
party in interest files a civil action challenging the
validity of a claim of the patent on or after the date on
which the petitioner files a petition for inter partes
review of the patent, that civil action shall be automatically stayed until either—
(A) the patent owner moves the court to lift the
stay;
(B) the patent owner files a civil action or counterclaim alleging that the petitioner or real party in
interest has infringed the patent; or
(C) the petitioner or real party in interest moves
the court to dismiss the civil action.
(3) TREATMENT OF COUNTERCLAIM.—A counterclaim challenging the validity of a claim of a patent
does not constitute a civil action challenging the validity
of a claim of a patent for purposes of this subsection.
(b) PATENT OWNER’S ACTION.—An inter partes review may not be instituted if the petition requesting the
proceeding is filed more than 1 year after the date on
which the petitioner, real party in interest, or privy of the
petitioner is served with a complaint alleging infringement of the patent. The time limitation set forth in the

125a
preceding sentence shall not apply to a request for joinder under subsection (c).
(c) JOINDER.—If the Director institutes an inter
partes review, the Director, in his or her discretion, may
join as a party to that inter partes review any person who
properly files a petition under section 311 that the Director, after receiving a preliminary response under section
313 or the expiration of the time for filing such a response, determines warrants the institution of an inter
partes review under section 314.
(d) MULTIPLE PROCEEDINGS.—Notwithstanding sections 135(a), 251, and 252, and chapter 30, during the
pendency of an inter partes review, if another proceeding
or matter involving the patent is before the Office, the
Director may determine the manner in which the inter
partes review or other proceeding or matter may proceed, including providing for stay, transfer, consolidation,
or termination of any such matter or proceeding.
(e) ESTOPPEL.—
(1) PROCEEDINGS BEFORE THE OFFICE.—The petitioner in an inter partes review of a claim in a patent
under this chapter that results in a final written decision under section 318(a), or the real party in interest
or privy of the petitioner, may not request or maintain
a proceeding before the Office with respect to that claim
on any ground that the petitioner raised or reasonably
could have raised during that inter partes review.
(2) CIVIL ACTIONS AND OTHER PROCEEDINGS.—The
petitioner in an inter partes review of a claim in a
patent under this chapter that results in a final written
decision under section 318(a), or the real party in
interest or privy of the petitioner, may not assert
either in a civil action arising in whole or in part under

126a
section 1338 of title 28 or in a proceeding before the
International Trade Commission under section 337 of
the Tariff Act of 1930 that the claim is invalid on any
ground that the petitioner raised or reasonably could
have raised during that inter partes review.
§ 316. Conduct of inter partes review
(a) REGULATIONS.—The Director shall prescribe regulations—
(1) providing that the file of any proceeding under
this chapter shall be made available to the public,
except that any petition or document filed with the
intent that it be sealed shall, if accompanied by a
motion to seal, be treated as sealed pending the outcome of the ruling on the motion;
(2) setting forth the standards for the showing of
sufficient grounds to institute a review under section
314(a);
(3) establishing procedures for the submission of
supplemental information after the petition is filed;
(4) establishing and governing inter partes review
under this chapter and the relationship of such review
to other proceedings under this title;
(5) setting forth standards and procedures for discovery of relevant evidence, including that such discovery shall be limited to—
(A) the deposition of witnesses submitting affidavits or declarations; and
(B) what is otherwise necessary in the interest
of justice;
(6) prescribing sanctions for abuse of discovery,
abuse of process, or any other improper use of the proceeding, such as to harass or to cause unnecessary

127a
delay or an unnecessary increase in the cost of the
proceeding;
(7) providing for protective orders governing the
exchange and submission of confidential information;
(8) providing for the filing by the patent owner of a
response to the petition under section 313 after an
inter partes review has been instituted, and requiring
that the patent owner file with such response, through
affidavits or declarations, any additional factual evidence and expert opinions on which the patent owner
relies in support of the response;
(9) setting forth standards and procedures for allowing the patent owner to move to amend the patent
under subsection (d) to cancel a challenged claim or
propose a reasonable number of substitute claims, and
ensuring that any information submitted by the patent
owner in support of any amendment entered under
subsection (d) is made available to the public as part of
the prosecution history of the patent;
(10) providing either party with the right to an oral
hearing as part of the proceeding;
(11) requiring that the final determination in an
inter partes review be issued not later than 1 year
after the date on which the Director notices the institution of a review under this chapter, except that the
Director may, for good cause shown, extend the 1-year
period by not more than 6 months, and may adjust the
time periods in this paragraph in the case of joinder
under section 315(c);
(12) setting a time period for requesting joinder
under section 315(c); and

128a
(13) providing the petitioner with at least 1 opportunity to file written comments within a time period
established by the Director.
(b) CONSIDERATIONS.—In prescribing regulations under this section, the Director shall consider the effect
of any such regulation on the economy, the integrity of
the patent system, the efficient administration of the
Office, and the ability of the Office to timely complete
proceedings instituted under this chapter.
(c) PATENT TRIAL AND APPEAL BOARD.—The Patent
Trial and Appeal Board shall, in accordance with section
6, conduct each inter partes review instituted under this
chapter.
(d) AMENDMENT OF THE PATENT.—
(1) IN GENERAL.—During an inter partes review
instituted under this chapter, the patent owner may
file 1 motion to amend the patent in 1 or more of the
following ways:
(A) Cancel any challenged patent claim.
(B) For each challenged claim, propose a reasonable number of substitute claims.
(2) ADDITIONAL MOTIONS.—Additional motions to
amend may be permitted upon the joint request of the
petitioner and the patent owner to materially advance
the settlement of a proceeding under section 317, or as
permitted by regulations prescribed by the Director.
(3) SCOPE OF CLAIMS.—An amendment under this
subsection may not enlarge the scope of the claims of
the patent or introduce new matter.
(e) EVIDENTIARY STANDARDS.—In an inter partes
review instituted under this chapter, the petitioner shall

129a
have the burden of proving a proposition of unpatentability by a preponderance of the evidence.
§ 317. Settlement
(a) IN GENERAL.—An inter partes review instituted
under this chapter shall be terminated with respect to
any petitioner upon the joint request of the petitioner
and the patent owner, unless the Office has decided the
merits of the proceeding before the request for termination is filed. If the inter partes review is terminated with
respect to a petitioner under this section, no estoppel
under section 315(e) shall attach to the petitioner, or to
the real party in interest or privy of the petitioner, on the
basis of that petitioner’s institution of that inter partes
review. If no petitioner remains in the inter partes review, the Office may terminate the review or proceed to a
final written decision under section 318(a).
(b) AGREEMENTS IN WRITING.—Any agreement or
understanding between the patent owner and a petitioner,
including any collateral agreements referred to in such
agreement or understanding, made in connection with, or
in contemplation of, the termination of an inter partes
review under this section shall be in writing and a true
copy of such agreement or understanding shall be filed in
the Office before the termination of the inter partes
review as between the parties. At the request of a party
to the proceeding, the agreement or understanding shall
be treated as business confidential information, shall be
kept separate from the file of the involved patents, and
shall be made available only to Federal Government
agencies on written request, or to any person on a showing of good cause.

130a
§ 318. Decision of the Board
(a) FINAL WRITTEN DECISION.—If an inter partes
review is instituted and not dismissed under this chapter,
the Patent Trial and Appeal Board shall issue a final
written decision with respect to the patentability of any
patent claim challenged by the petitioner and any new
claim added under section 316(d).
(b) CERTIFICATE.—If the Patent Trial and Appeal
Board issues a final written decision under subsection (a)
and the time for appeal has expired or any appeal has
terminated, the Director shall issue and publish a certificate canceling any claim of the patent finally determined
to be unpatentable, confirming any claim of the patent
determined to be patentable, and incorporating in the
patent by operation of the certificate any new or amended
claim determined to be patentable.
(c) INTERVENING RIGHTS.—Any proposed amended
or new claim determined to be patentable and incorporated into a patent following an inter partes review under
this chapter shall have the same effect as that specified in
section 252 for reissued patents on the right of any person who made, purchased, or used within the United
States, or imported into the United States, anything
patented by such proposed amended or new claim, or
who made substantial preparation therefor, before the
issuance of a certificate under subsection (b).
(d) DATA ON LENGTH OF REVIEW.—The Office shall
make available to the public data describing the length of
time between the institution of, and the issuance of a final
written decision under subsection (a) for, each inter
partes review.

131a
§ 319. Appeal
A party dissatisfied with the final written decision of
the Patent Trial and Appeal Board under section 318(a)
may appeal the decision pursuant to sections 141 through
144. Any party to the inter partes review shall have the
right to be a party to the appeal.
§ 325. Relation to other proceedings or actions
* * * * *
(d) MULTIPLE PROCEEDINGS.—Notwithstanding sections 135(a), 251, and 252, and chapter 30, during the
pendency of any post-grant review under this chapter, if
another proceeding or matter involving the patent is
before the Office, the Director may determine the manner in which the post-grant review or other proceeding or
matter may proceed, including providing for the stay,
transfer, consolidation, or termination of any such matter
or proceeding. In determining whether to institute or
order a proceeding under this chapter, chapter 30, or
chapter 31, the Director may take into account whether,
and reject the petition or request because, the same or
substantially the same prior art or arguments previously
were presented to the Office.
* * * * *

132a
3. Former Title 35 of the United States Code, as in
effect in 2006, provided in relevant part as follows:
§ 311. Request for inter partes reexamination
(a) IN GENERAL.—Any third-party requester at any
time may file a request for inter partes reexamination by
the Office of a patent on the basis of any prior art cited
under the provisions of section 301.
(b) REQUIREMENTS.—The request shall—
(1) be in writing, include the identity of the real
party in interest, and be accompanied by payment of
an inter partes reexamination fee established by the
Director under section 41; and
(2) set forth the pertinency and manner of applying
cited prior art to every claim for which reexamination
is requested.
(c) COPY.—The Director promptly shall send a copy of
the request to the owner of record of the patent.
§ 312. Determination of issue by Director
(a) REEXAMINATION.—Not later than 3 months after
the filing of a request for inter partes reexamination
under section 311, the Director shall determine whether
a substantial new question of patentability affecting any
claim of the patent concerned is raised by the request,
with or without consideration of other patents or printed
publications. The existence of a substantial new question
of patentability is not precluded by the fact that a patent
or printed publication was previously cited by or to the
Office or considered by the Office.
(b) RECORD.—A record of the Director’s determination under subsection (a) shall be placed in the official file
of the patent, and a copy shall be promptly given or

133a
mailed to the owner of record of the patent and to the
third-party requester.
(c) FINAL DECISION.—A determination by the Director under subsection (a) shall be final and non-appealable.
Upon a determination that no substantial new question of
patentability has been raised, the Director may refund a
portion of the inter partes reexamination fee required
under section 311.
§ 313. Inter partes reexamination order by Director
If, in a determination made under section 312(a), the
Director finds that a substantial new question of patentability affecting a claim of a patent is raised, the determination shall include an order for inter partes reexamination of the patent for resolution of the question. The
order may be accompanied by the initial action of the
Patent and Trademark Office on the merits of the inter
partes reexamination conducted in accordance with section 314.
§ 314. Conduct of inter partes reexamination proceedings
(a) IN GENERAL.—Except as otherwise provided in
this section, reexamination shall be conducted according
to the procedures established for initial examination
under the provisions of sections 132 and 133. In any inter
partes reexamination proceeding under this chapter, the
patent owner shall be permitted to propose any amendment to the patent and a new claim or claims, except that
no proposed amended or new claim enlarging the scope
of the claims of the patent shall be permitted.
(b) RESPONSE.—(1) With the exception of the inter
partes reexamination request, any document filed by
either the patent owner or the third-party requester
shall be served on the other party. In addition, the

134a
Office shall send to the third-party requester a copy of
any communication sent by the Office to the patent
owner concerning the patent subject to the inter
partes reexamination proceeding.
(2) Each time that the patent owner files a response to an action on the merits from the Patent and
Trademark Office, the third-party requester shall
have one opportunity to file written comments addressing issues raised by the action of the Office or the
patent owner’s response thereto, if those written comments are received by the Office within 30 days after
the date of service of the patent owner’s response.
(c) SPECIAL DISPATCH.—Unless otherwise provided
by the Director for good cause, all inter partes reexamination proceedings under this section, including any appeal to the Board of Patent Appeals and Interferences,
shall be conducted with special dispatch within the Office.
§ 315. Appeal
(a) PATENT OWNER.—The patent owner involved in
an inter partes reexamination proceeding under this
chapter—
(1) may appeal under the provisions of section 134
and may appeal under the provisions of sections 141
through 144, with respect to any decision adverse to
the patentability of any original or proposed amended
or new claim of the patent; and
(2) may be a party to any appeal taken by a thirdparty requester under subsection (b).
(b) THIRD-PARTY REQUESTER.—A third-party requester—
(1) may appeal under the provisions of section 134,
and may appeal under the provisions of sections 141

135a
through 144, with respect to any final decision favorable to the patentability of any original or proposed
amended or new claim of the patent; and
(2) may, subject to subsection (c), be a party to any
appeal taken by the patent owner under the provisions
of section 134 or sections 141 through 144.
(c) CIVIL ACTION.—A third-party requester whose
request for an inter partes reexamination results in an
order under section 313 is estopped from asserting at a
later time, in any civil action arising in whole or in part
under section 1338 of title 28, the invalidity of any claim
finally determined to be valid and patentable on any
ground which the third-party requester raised or could
have raised during the inter partes reexamination proceedings. This subsection does not prevent the assertion
of invalidity based on newly discovered prior art unavailable to the third-party requester and the Patent and
Trademark Office at the time of the inter partes reexamination proceedings.
§ 316. Certificate of patentability, unpatentability, and
claim cancellation
(a) IN GENERAL.—In an inter partes reexamination
proceeding under this chapter, when the time for appeal
has expired or any appeal proceeding has terminated, the
Director shall issue and publish a certificate canceling
any claim of the patent finally determined to be unpatentable, confirming any claim of the patent determined to be patentable, and incorporating in the patent
any proposed amended or new claim determined to be
patentable.
(b) AMENDED OR NEW CLAIM.—Any proposed
amended or new claim determined to be patentable and
incorporated into a patent following an inter partes re-

136a
examination proceeding shall have the same effect as that
specified in section 252 of this title for reissued patents
on the right of any person who made, purchased, or used
within the United States, or imported into the United
States, anything patented by such proposed amended or
new claim, or who made substantial preparation therefor,
prior to issuance of a certificate under the provisions of
subsection (a) of this section.

137a
4. Title 5 of the United States Code provides in relevant part as follows:
§ 7513. Cause and procedure
(a) Under regulations prescribed by the Office of Personnel Management, an agency may take an action covered by this subchapter against an employee only for
such cause as will promote the efficiency of the service.
* * * * *

138a
5. Pub. L. No. 96-517, 94 Stat. 3015 (1980), provides in
uncodified relevant part as follows:
SEC. 8.
* * * * *
(b) Section 1 of this Act will take effect on the first
day of the seventh month beginning after its enactment
and will apply to patents in force as of that date or issued
thereafter.
* * * * *

139a
6. The Optional Inter Partes Reexamination Procedure Act of 1999, Pub. L. No. 106-113, §§ 4601 et seq., 113
Stat. 1501A-567, provides in uncodified relevant part as
follows:
SEC. 4608. Effective Date.
(a) IN GENERAL—Subject to subsection (b), this subtitle and the amendments made by this subtitle shall take
effect on the date of the enactment of this Act and shall
apply to any patent that issues from an original application filed in the United States on or after that date.
* * * * *

140a
7. The Leahy-Smith America Invents Act, Pub. L.
No. 112-29, 125 Stat. 284 (2011), provides in uncodified
relevant part as follows:
SEC. 3. First Inventor To File.
* * * * *
(n) EFFECTIVE DATE.—
(1) IN GENERAL.—Except as otherwise provided in
this section, the amendments made by this section
shall take effect upon the expiration of the 18-month
period beginning on the date of the enactment of this
Act, and shall apply to any application for patent, and
to any patent issuing thereon, that contains or contained at any time—
(A) a claim to a claimed invention that has an
effective filing date as defined in section 100(i) of
title 35, United States Code, that is on or after the
effective date described in this paragraph; or
(B) a specific reference under section 120, 121,
or 365(c) of title 35, United States Code, to any patent or application that contains or contained at any
time such a claim.
* * * * *
SEC. 6. Post-Grant Review Proceedings.
(a) INTER PARTES REVIEW.—Chapter 31 of title 35,
United States Code, is amended to read as follows:
* * * * *
(c) REGULATIONS AND EFFECTIVE DATE.—
* * * * *

141a
(2) APPLICABILITY.—
(A) IN GENERAL.—The amendments made by
subsection (a) shall take effect upon the expiration
of the 1-year period beginning on the date of the
enactment of this Act and shall apply to any patent
issued before, on, or after that effective date.
* * * * *
(d) POST-GRANT REVIEW.—Part III of title 35, United
States Code, is amended by adding at the end the following:
* * * * *
(f ) REGULATIONS AND EFFECTIVE DATE.—
* * * * *
(2) APPLICABILITY.—
(A) IN GENERAL.—The amendments made by
subsection (d) shall take effect upon the expiration
of the 1-year period beginning on the date of the
enactment of this Act and, except as provided in
section 18 and in paragraph (3), shall apply only to
patents described in section 3(n)(1).
* * * * *

